<html>
<title> - PPACA IMPLEMENTATION FAILURES: DIDN'T KNOW OR DIDN'T DISCLOSE?</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





     PPACA IMPLEMENTATION FAILURES: DIDN'T KNOW OR DIDN'T DISCLOSE?

=======================================================================

                                HEARING

                               BEFORE THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 24, 2013

                               __________

                           Serial No. 113-87






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




      Printed for the use of the Committee on Energy and Commerce
                       energycommerce.house.gov
                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

87-484 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001















                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman
RALPH M. HALL, Texas                 HENRY A. WAXMAN, California
JOE BARTON, Texas                      Ranking Member
  Chairman Emeritus                  JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky                 Chairman Emeritus
JOHN SHIMKUS, Illinois               FRANK PALLONE, Jr., New Jersey
JOSEPH R. PITTS, Pennsylvania        BOBBY L. RUSH, Illinois
GREG WALDEN, Oregon                  ANNA G. ESHOO, California
LEE TERRY, Nebraska                  ELIOT L. ENGEL, New York
MIKE ROGERS, Michigan                GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
MARSHA BLACKBURN, Tennessee          MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                      JANICE D. SCHAKOWSKY, Illinois
PHIL GINGREY, Georgia                JIM MATHESON, Utah
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                JOHN BARROW, Georgia
CATHY McMORRIS RODGERS, Washington   DORIS O. MATSUI, California
GREGG HARPER, Mississippi            DONNA M. CHRISTENSEN, Virgin 
LEONARD LANCE, New Jersey                Islands
BILL CASSIDY, Louisiana              KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky              JOHN P. SARBANES, Maryland
PETE OLSON, Texas                    JERRY McNERNEY, California
DAVID B. McKINLEY, West Virginia     BRUCE L. BRALEY, Iowa
CORY GARDNER, Colorado               PETER WELCH, Vermont
MIKE POMPEO, Kansas                  BEN RAY LUJAN, New Mexico
ADAM KINZINGER, Illinois             PAUL TONKO, New York
H. MORGAN GRIFFITH, Virginia         JOHN A. YARMUTH, Kentucky
GUS M. BILIRAKIS, Florida
BILL JOHNSON, Missouri
BILLY LONG, Missouri
RENEE L. ELLMERS, North Carolina

















                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     2
    Prepared statement...........................................     3
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................     3
    Prepared statement...........................................     4
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................     4
Hon. Tim Murphy, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     6
    Prepared statement...........................................     6
Hon. Joseph R. Pitts, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     7
    Prepared statement...........................................     8
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     9
Hon. Diana Degette, a Representative in Congress from the State 
  of Colorado, opening statement.................................    10
Hon. John D. Dingell, a Representative in Congress from the State 
  of Michigan, opening statement.................................    11

                               Witnesses

Cheryl Campbell, Senior Vice President, CGI Federal..............    13
    Prepared statement...........................................    15
    Answers to submitted questions...............................   116
Andrew Slavitt, Group Executive Vice President, Optum/QSSI.......    17
    Prepared statement...........................................    23
    Answers to submitted questions...............................   132
Lynn Spellecy, Corporate Counsel, Equifax Workforce Solutions....    28
    Prepared statement...........................................    30
    Answers to submitted questions...............................   140
John Lau, Program Director, Serco................................    38
    Prepared statement...........................................    40
    Answers to submitted questions...............................   143

                           Submitted Material

Article entitled, ``Obamacare Website Source Code: `No Reasonable 
  Expectation of Privacy,''' The Weekly Standard, October 14, 
  2013...........................................................   114

 
     PPACA IMPLEMENTATION FAILURES: DIDN'T KNOW OR DIDN'T DISCLOSE?

                              ----------                              


                       THURSDAY, OCTOBER 24, 2013

                  House of Representatives,
                  Committee on Energy and Commerce,
                                            Washington, DC.
    The committee met, pursuant to call, at 9:07 a.m., in room 
2123, Rayburn House Office Building, Hon. Fred Upton (chairman 
of the committee) presiding.
    Present: Representatives Upton, Hall, Barton, Shimkus, 
Pitts, Walden, Terry, Rogers, Murphy, Burgess, Blackburn, 
Gingrey, Scalise, Latta, Lance, Cassidy, Guthrie, Olson, 
McKinley, Gardner, Kinzinger, Griffith, Johnson, Ellmers, 
Waxman, Dingell, Pallone, Eshoo, Engel, Green, DeGette, 
Schakowsky, Butterfield, Barrow, Matsui, Sarbanes, McNerney, 
Welch, Tonko and Yarmuth.
    Staff Present: Clay Alspach, Chief Counsel, Health; Gary 
Andres, Staff Director; Ray Baum, Senior Policy Advisor/
Director of Coalitions; David Bell, Staff Assistant; Mike 
Bloomquist, General Counsel; Sean Bonyun, Communications 
Director; Megan Capiak, Staff Assistant; Karen Christian, Chief 
Counsel, Oversight; Noelle Clemente, Press Secretary; Paul 
Edattel, Professional Staff Member, Health; Julie Goon, Health 
Policy Advisor; Brad Grantz, Policy Coordinator, O&I; Sydne 
Harwick, Legislative Clerk; Brittany Havens, Legislative Clerk; 
Sean Hayes, Counsel, O&I; Robert Horne, Professional Staff 
Member, Health; Kirby Howard, Legislative Clerk; Alexa Marrero, 
Deputy Staff Director; Nick Magallanes, Policy Coordinator, 
CMT; Carly McWilliams, Professional Staff Member, Health; 
Brandon Mooney, Professional Staff Member; Gib Mullan, Chief 
Counsel, CMT; Katie Novaria, Professional Staff Member, Health; 
Monica Popp, Professional Staff Member, Health; Andrew 
Powaleny, Deputy Press Secretary; David Redl, Chief Counsel, 
Telecom; Chris Sarley, Policy Coordinator, Environment and 
Economy; Charlotte Savercool, Legislative Coordinator; Heidi 
Stirrup, Health Policy Coordinator; Tom Wilbur, Digital Media 
Advisor; Ziky Ababiya, Minority Staff Assistant; Phil Barnett, 
Minority Staff Director; Stacia Cardille, Minority Deputy Chief 
Counsel; Brian Cohen, Minority Staff Director, Oversight and 
Investigations, Senior Policy Advisor; Hannah Green, Minority 
Staff Assistant; Elizabeth Letter, Minority Assistant Press 
Secretary; Karen Lightfoot, Minority Communications Director 
and Senior Policy Advisor; Karen Nelson, Minority Deputy 
Committee Staff Director for Health; Stephen Salsbury, Minority 
Special Assistant; and Matt Siegler, Minority Counsel.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Good morning. First off I would like to note to 
our Florida colleagues who are unable to be with us this 
morning, sadly they are attending the funeral of our late 
colleague, former Appropriations chair Bill Young, who was 
certainly a friend to all here and a mentor to so many of us on 
both sides of the aisle. He is going to be deeply missed and 
particularly in his legacy his establishment of the bone marrow 
registry, something that literally will save tens of thousands, 
if not more, lives. And we appreciate that work.
    Today the Energy and Commerce Committee continues our 
ongoing oversight of the healthcare law as we examine the many 
problems, crashes, glitches, system failures that have defined 
open enrollment.
    Over the past several months leading up to the October 1st 
launch, top administration officials and lead contractors 
appeared before this committee, looked us in the eye, and 
assured us repeatedly that everything was on track, except that 
it wasn't, as we now know too well. So why did they assure us 
that the Web site would work? Did they not know, or did they 
not disclose? That is what we are looking to find out with the 
contractors today and with Secretary Sebelius next week.
    Companies that are here today all testified before the 
Health Subcommittee on September 10 about their work building 
the Federal exchanges and healthcare.gov. And in that hearing 
and in briefings with committee staff, these companies 
represented that the exchanges would be ready for open 
enrollment on October 1st. They also explained that their 
testing of the system had not identified any significant 
problems.
    This is not about blame; it is about accountability, 
transparency and fairness to the American public. The broken 
promises are many. The President promised Americans that they 
could keep their health plans if they liked them no matter 
what, yet here we are 24 days into open enrollment and more 
people are receiving cancellation notices in just 2 States than 
the 476,000 Americans that the administration boasts have begun 
applying in the entire country. This is a troubling fact, but 
we still don't know the real picture as the administration 
appears allergic to transparency and continues to withhold 
enrollment figures.
    This is more than a Web site problem, and, frankly, the Web 
site should have been the easy part. I'm also concerned about 
what happens next. Will enrollment glitches become provider 
payment glitches? Will patients show up at their doctor's 
office or hospital to be told that maybe they aren't covered or 
even in the system?
    In a few months families in Michigan and across the country 
are going to face penalties under the law's individual mandate. 
How can the administration punish innocent Americans by forcing 
them to buy from a system that does not work and whose rollout 
has been nothing short of a disaster?
    The American public deserves answers. Today we're going to 
get them from the lead contractors. Next week will be Secretary 
Sebelius' turn.
    And I now yield 2 minutes to the vice chair of the 
committee Mrs. Blackburn.
    [The prepared statement of Mr. Upton follows:]

                 Prepared statement of Hon. Fred Upton

    Today the Energy and Commerce Committee continues our 
ongoing oversight of the health care law as we examine the many 
problems--crashes, glitches, systems failures--that have 
defined open enrollment. Over the months leading up to the 
October 1 launch, top administration officials and lead 
contractors appeared before this committee, looked us in the 
eye, and assured us repeatedly that everything was ``on 
track.''
    Except that it wasn't, as we now know all too well.
    So why did they assure us the Web site would work? Did they 
not know? Or did they not disclose? That's what we are looking 
to find out, with the contractors today, and with Secretary 
Sebelius next week.
    The companies that are here today all testified before the 
Health Subcommittee on September 10 about their work building 
the federal exchanges and healthcare.gov. In that hearing, and 
in briefings with committee staff, these companies represented 
that the exchanges would be ready for open enrollment on 
October 1. They also explained that their testing of the system 
had not identified any significant problems.
    This is not about blame--this is about accountability, 
transparency, and fairness for the American public. The broken 
promises are many. The president promised Americans could keep 
their health plans if they liked them, ``No matter what.'' Yet 
here we are, 24 days into open enrollment, and more people are 
receiving cancellation notices in just two states than the 
476,000 Americans that the administration boasts have begun 
applying in the entire country. This is a troubling fact--but 
we still don't know the real picture as the administration 
appears allergic to transparency and continues to withhold 
enrollment figures.
    This is more than a Web site problem--and frankly, the Web 
site should have been the easy part. I'm also concerned about 
what happens next. Will enrollment glitches become provider 
payment glitches? Will patients show up at their doctor's 
office or hospital only to be told they, or their coverage, 
aren't in the system?
    In a few short months, families in Michigan and across the 
country will face penalties under the law's individual mandate. 
How can the administration punish innocent Americans by forcing 
them to buy from a system that does not work and whose rollout 
has been nothing short of a disaster?
    The American public deserves answers. Today we will get 
them from the lead contractors. Next week will be Secretary 
Sebelius' turn.

                                #  #  #

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn. Thank you, Mr. Chairman.
    I want to thank our witnesses for being here. We are 
looking forward to getting your perspective of what went wrong 
and how it went wrong with this rollout. We were repeatedly 
told by members of the administration that everything would be 
working properly, and it would all be done on time, but these 
false administration assurances seem to sway some people on the 
other side of the aisle, and they believed fully that things 
were going to be done on time.
    Well, yesterday Mr. Waxman and I were agreeing on some 
things in a hearing, but last month we were disagreeing. And he 
had said that nothing could be found from our committee's 
investigation of exchange implementation and readiness, but we 
were quite concerned. That definition of ``nothing'' has turned 
out to be design choices in the exchanges that hide 
unaffordable premiums, massive glitches, dead ends, error 
messages, system breakdowns, and Americans spending countless 
hours trying to navigate exchanges not ready for prime time.
    So I hope all of our colleagues are going to work together 
and join the efforts to do proper oversight of the healthcare 
law. This is taxpayer money on the line. We need to be 
judicious, and the past 3 weeks of exchange messiness have 
demonstrated that nobody can be a blind cheerleader for the 
Affordable Care Act when they see all these problems right 
before their very eyes.
    At this time I yield--is the gentleman from Texas Mr. 
Barton? I will yield back to the chairman.
    [The prepared statement of Mrs. Blackburn follows:]

              Prepared statement of Hon. Marsha Blackburn

    Thank you to our witnesses for joining us. I look forward 
to hearing your perspectives on just what has gone wrong so far 
with this roll out.
    We were repeatedly told by members of the administration 
that everything would be working correctly and on time.
    These false administration assurances seemed to sway some 
of my colleagues on the other side of the aisle.
    At last months' hearing, Mr. Waxman declared ``nothing'' 
could be found from our committee's investigation of exchange 
implementation and readiness.
    Apparently Mr. Waxman's definition of ``nothing'' includes 
millions of Americans losing their coverage, design choices in 
the exchanges that hide unaffordable premiums, massive glitches 
and system breakdowns, and Americans spending countless hours 
trying to navigate exchanges not ready for primetime.
    I hope Mr. Waxman decides to join our efforts to do proper 
oversight of the health care law.
    These past three weeks of exchange messiness demonstrate 
that no member of this body should be a blind cheerleader for 
the Affordable Care Act and ignore the problems before their 
very eyes.

                                #  #  #

    Mr. Upton. The gentlelady yields back.
    The chair would recognize for an opening statement my 
colleague, the ranking member of the full committee, Mr. Waxman 
from California.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you very much, Mr. Chairman.
    The Affordable Care Act is an enormous success with one 
obvious exception: It has a poorly designed Web site.
    The law has already accomplished a lot. Millions of 
Americans, especially seniors, have saved hundreds of dollars 
on prescription drugs. Young people have gotten health 
insurance coverage. Millions of families have received rebates 
from their insurance companies that use more than 20 percent 
for their overhead costs. Preventive care is now a free benefit 
in Medicare and private insurance. Every day we hear more 
stories of people saving thousands of dollars and finally 
getting the security of quality health insurance.
    What hasn't happened, and what has not been successful, is 
the early performance of the Web site, and that has caused 
understandable frustration and anxiety as Americans have tried 
to sign up for the coverage. The heart of the law is getting 
insurance coverage, private insurance coverage, that others 
have who work for large employers like the Federal Government.
    Democrats want healthcare.gov to work, and we want to know 
what is wrong with the Web site and how we can help fix it. We 
want to learn what the contractors can tell us about the 
problems and how they can be addressed. That is what all my 
colleagues should want, including my Republican colleagues, but 
that has not been their agenda so far. We have already 
documented a record of Republicans attempting to sabotage the 
Affordable Care Act, which they know would result in denying 
coverage to millions of uninsured Americans who cannot find 
insurance under the market system that excludes them if they 
have preexisting medical conditions or if they can't afford 
their coverage.
    From voting more than 40 times to repeal the law, from 
intimidating organizations that have tried to help the law 
succeed, Republicans have encouraged their Governors to 
obstruct implementation, deny Medicaid coverage even though 100 
percent is being paid for by the Federal Government, and even 
by shutting down the government in order to try to repeal this 
law. Republicans have not shown us that they are trying to make 
this law work so far.
    Well, we all want answers because we want families to have 
affordable health insurance. We have already seen extraordinary 
demand for this coverage being offered through the exchanges. 
One of the reasons that we were given that the Web site didn't 
work is that it crashed when so many people were trying to 
access it. We know that people want to shop and have a choice 
between different health insurance plans that are being offered 
to them and have already been lined up to offer them private 
health insurance.
    We are encouraging our constituents to use other means of 
signing up in the meantime, like call centers and written 
applications, while the Web site problems are being fixed. 
We're pressing the administration to be redouble their efforts 
to fix the Web site, and we welcomed yesterday's announcement 
giving Americans more time to sign up for the insurance.
    Everyone has a responsibility for get health insurance. We 
expect people to observe that responsibility. But I cannot see 
that anyone is going to be penalized under the law if they have 
not been able to buy health insurance during this time where 
they have not had access to the exchanges.
    We need to start listening to our people who sent us to 
Congress. They don't want the government shut down. They don't 
want Congress to drive the country to the brink of default. 
They want this law to work. But they do want us to make sure 
that we hold everybody accountable and insist that the law and 
the promise of affordable health care become a reality for all 
Americans, and that means we've got to get this Web site fixed. 
And that's why I'm pleased we're going to hear from the four 
contractors today and next week from the Secretary.
    If we want this law to work, we've got to make it right, 
we've got to fix it; not what the Republicans have been trying 
to do, nix it and repeal it. Thank you, Mr. Chairman. I yield 
back my time.
    Mr. Upton. The gentleman yields back.
    The chair would recognize for an opening statement the 
chairman of the Oversight Subcommittee Mr. Murphy.

   OPENING STATEMENT OF HON. TIM MURPHY, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Murphy. Thank you, Mr. Chairman.
    As chairman of the Oversight and Investigations 
Subcommittee, I have heard numerous promises from the 
administration officials that all was well with the healthcare 
law. Not true. Either these officials were shockingly unaware 
of what was happening inside their own agencies, or 
deliberately misleading our committee and the public hoping 
this would all suddenly turn around.
    Two weeks before enrollment began, HHS's insurance czar 
told us that consumers could go online, shop, and enroll by 
October 1st. Not true.
    We were promised a Web site where people could easily 
compare plans and costs. Five hundred million dollars later, we 
find the American public has been dumped with the ultimate cash 
for clunkers, except they had to pay the cash and still got the 
clunker.
    Secretary Sebelius has admitted HHS didn't do enough 
testing, but was her agency warned ahead of time that this was 
an issue? Were the contractors able to work with each other and 
complete end-to-end testing?
    In testimony today, QSSI states that the late decision 
requiring consumers to register for an account before they 
could browse for insurance products was a major contributor to 
the Web site's October 1st crash and burn. Who made this major 
decision just before launch? And were they trying to hide from 
the public the true cost?
    Now the President is committing untold amounts of money for 
an undisclosed plan spearheaded by an individual without 
technology experience to fix this huge problem, but if 55 
different contractors couldn't successfully build, test and run 
a Web site, how do we expect anyone else to be able to do this?
    Given all these questions, Congress should press pause on 
the tech surge and figure out what went wrong first before 
throwing good money after bad and forcing the public to use a 
broken site.
    In addition to explaining why this disaster happened, we 
want an explanation on how this system will be fixed, what it 
will cost, and how long it will take. After footing the bill, 
the American people deserve something that works or start over. 
Take responsibility. Tell us what's wrong. Fix it, or try 
something else.
    I yield back.
    Mr. Upton. Thank you.
    [The prepared statement of Mr. Murphy follows:]

                 Prepared statement of Hon. Tim Murphy

    Thank you Mr. Chairman.
    As Chairman of the Oversight and Investigations 
Subcommittee, I've heard numerous promises from administration 
officials that `all was well' with the healthcare law.
    That wasn't the case. Either these officials were 
shockingly unaware of what was happening inside their own 
agencies or deliberately misleading our committee--hoping this 
`train wreck' would turn around.
    Two weeks before enrollment began, HHS's insurance czar 
told us that consumers could go online, shop, and enroll on 
October 1st. He didn't equivocate. He didn't hesitate.
    So what happened between the Administration's bravado and 
the launch of a clumsy system riddled with crashes, glitches, 
and errors?
    Did breakdowns occur with contractors or were they told to 
do it this way?
    Secretary Sebelius has admitted HHS didn't do enough 
testing, but was her agency warned ahead of time that this was 
an issue?
    Were the contractors able to work with each other and 
complete end-to-end testing?
    In testimony today, QSSI states that the ``late decision 
requiring consumers to register for an account before they 
could browse for insurance products'' was a major contributor 
to the Web site's October 1st crash and burn.
    Who made this major decision just before launch? And were 
they trying to hide from the public the data that would show 
the healthcare law was causing massive premium hikes?
    Was this site doomed to failure because contractors were 
told to build a flawed system by an agency that put politics 
before people's healthcare.
    Now, the President is committing untold amounts of money 
for a secret plan spearheaded by individual without technology 
experience to fix a technical problem.
    But if 55 different contractors couldn't successfully 
build, test, and run a web site in three years at a total cost 
of over $500 million, why should we believe the Administration 
is capable of fixing it in two weeks?
    You were supposed to design a web site that was supposed to 
compare costs and insurance plans. What the public got instead 
was a half-a-billion dollar clunker. We want to know--who 
messed up?Given all these questions, Congress should press 
`pause' on the ``tech surge'' and figure out what went wrong 
first, before throwing good money after bad, and forcing the 
public to use a broken site to buy a product they don't want--
or pay a new tax.
    In addition to explaining why this disaster happened, I 
want an explanation on how this system will be fixed, what it 
will cost, and how long it will take.I yield back.

    Mr. Upton. I yield to Mr. Pitts.

OPENING STATEMENT OF HON. JOSEPH R. PITTS, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Pitts. Thank you, Mr. Chairman.
    HHS officials repeatedly assured this committee that the 
administration would be ready for October 1, 2013. This past 
July, the Secretary stated that HHS would, quote, ``flip on the 
switch on October 1st and say to people, come on and sign up,'' 
end quote.
    On August 1st, Administrator Tavenner told us in this very 
room that CMS would finish all end-to-end testing by the end of 
August. On September 10th, the Health Subcommittee held a 
hearing in which representatives for CGI Federal, QSSI, 
Equifax, and Serco, all of whom are here today, testified. Each 
contractor assured us that its components of the exchange would 
be ready on time, and yet, when the exchanges opened for 
business on October 1st, it was nothing less than an 
unmitigated disaster.
    We're now hearing reports that the administration was 
repeatedly warned that the site was not ready for an October 
1st launch. The Washington Post reported Tuesday that, quote, 
``as late as September 26, there had been no test to determine 
whether a consumer could complete the process from beginning to 
end,'' end quote. Secretary Sebelius said just this week that 
almost no testing occurred.
    These past few weeks of exchange dysfunction, along with 
stories of hundreds of thousands of Americans losing their 
existing health plans, help underscore why Washington should 
not be running our private health insurance system.
    The botched rollout is all the more reason that the 
individual mandate penalty should be delayed. Average Americans 
deserve a waiver from Obamacare, too. It is only fair when the 
exchanges are such a mess.
    The companies represented here today were in charge of 
building the Federal exchange, but CMS was responsible for 
ensuring that everything worked together properly. So the 
question we have to ask ourselves is, in light of all the 
administration's assurances, is this--are they simply 
incompetent, or were they just lying to the American people?
    I yield back.
    [The prepared statement of Mr. Pitts follows:]

               Prepared statement of Hon. Joseph R. Pitts

    Thank you, Mr. Chairman.
    HHS officials repeatedly assured this Committee that the 
Administration would be ready for October 1, 2013. This past 
July, the Secretary stated that HHS would ``flip on the switch 
on October 1 and say to people, `Come on and sign up.'''
    On August 1, Administrator Tavenner told us in this very 
room that CMS would finish ``all end to end testing'' by the 
end of August.
    On September 10, the Health Subcommittee held a hearing at 
which representatives for CGI Federal, QSSI, Equifax, and 
Serco--all of whom are here today--testified. Each contractor 
assured us that its components of the Exchange would be ready 
on time.
    And, yet, when the Exchanges opened for business on October 
1, it was nothing less than an unmitigated disaster.
    We are now hearing reports that the Administration was 
repeatedly warned that the site was not ready for an October 1 
launch.
    The Washington Post reported Tuesday that ``as late as 
Sept. 26, there had been no tests to determine whether a 
consumer could complete the process from beginning to end.'' 
Secretary Sebelius said just this week that ``almost no testing 
occurred.''
    These past few weeks of Exchange dysfunction, along with 
stories of hundreds of thousands of Americans losing their 
existing health plans, help underscore why Washington should 
not be running our private health insurance system.
    The botched rollout is all the more reason that the 
individual mandate penalty should be delayed. Average Americans 
deserve a waiver from Obamacare, too--it's only fair when the 
exchanges are such a mess.
    The companies represented here today were in charge of 
building the federal Exchange, but CMS was responsible for 
ensuring that everything worked together properly.
    So, the question we have to ask ourselves, in light of all 
of the Administration's assurances, is this: are they simply 
incompetent or were they just lying to the American people?
    I yield back.

    Mr. Upton. I yield to Mr. Barton.
    Mr. Barton. Thank you.
    I have slide 1 I would like to put up.
    Like all of Obamacare, what it appears on the surface is 
not what it is. This is the terms and conditions that you 
accept at some point early in the process, and that looks 
pretty plain Jane.
    Now put up slide number 2.
    What you don't see is this slide, which says, you have no 
reasonable expectation of privacy regarding any communication 
or data transiting or stored on this information system. At any 
time and for any lawful government purpose, the government may 
monitor, intercept, search and seize any communication or data 
transiting or stored on this information system. Any 
communication or data transiting or stored on this information 
system may be disclosed or used for any lawful government 
purpose.
    That is Obamacare in a nutshell; says one thing on the 
surface, does something totally different behind the scenes.
    In my questions, I'm going to ask the contractors about 
this total lack of privacy and what they knew about it.
    With that, I yield back.
    Mr. Upton. The gentleman yields back.
    The chair would recognize the ranking member of the Health 
Subcommittee Mr. Pallone from New Jersey.

OPENING STATEMENT OF HON. FRANK PALLONE JR, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman.
    I just heard my chairman of the subcommittee, the Health 
Subcommittee, say once again he wants to delay the Affordable 
Care Act. And I have great respect for the gentleman from 
Pennsylvania, but, you know, here we go again, another cynical 
effort by the Republicans to delay, defund or ultimately repeal 
the Affordable Care Act.
    I'd like to think that somehow this hearing is above board 
and legitimate, but it is not. You know, the Republicans don't 
have clean hands coming here. Their effort, obviously, isn't to 
make this better, but to use the Web site and the glitches as 
an excuse to defund or repeal Obamacare.
    And I just think it is very unfortunate, because there are 
millions of people out there who have been trying to go on this 
Web site, I understand like 20 million, and they deserve an 
opportunity once this is fixed--and I know the administration 
is trying very hard to fix it, as are all of our witnesses here 
today--they deserve an opportunity to have health care and not 
be among those 30 or 40 million who are uninsured or, even more 
so, that don't have a good benefit package.
    I would just ask my Republicans, let the goal here be to 
fix it, not nix it. And if that were your goal, I would feel 
very good about this hearing. But I don't see that happening.
    One of the things I wanted to bring attention to is how 
Democrats take a much different approach to things. When 
Medicare Part D started up--and I have this chart here--there 
were all kinds of problems with the Web site. It went on for 
months. These are some of the headlines that appeared in the 
newspapers about the problems. But did the Democrats get up and 
say, oh, Medicare Part D is terrible, let's repeal it or defund 
it? No. We said, let's work hard to make it better. And that's 
what we did, and the glitches disappeared, and the program 
became a good program.
    And that is what I would like to see my Republican 
colleagues do today. But it's not the case. Time and time 
again, the GOP has tried to slow the progress of implementing 
the ACA. They were willing to shut down the government for 3 
weeks. Did we forget what was happening the last 3 weeks when 
they tried to shut down--well, they did shut down the 
government 3 weeks, and the reason was because they wanted us 
to defund, or make changes to, or delay the Affordable Care 
Act.
    I hear my Republican colleagues talking about that they 
care about money, whether it's Federal dollars or individuals' 
dollars. The information has come out now saying that the 
government or the gross national product lost $24 billion 
during the 3-week shutdown, half percent of the gross national 
product for the last quarter. You're talking about money? You 
don't care. What about all the money you lost in the 3 weeks? 
That didn't matter just because you wanted to delay the 
Affordable Care Act?
    Again, there's no clean hands here, my colleagues. Do you 
really care? I don't think so.
    I just wish that you would stop this obstruction, work with 
us on trying to make this a better system, and as my 
colleague--as Mr. Waxman said, this can be fixed if you'll work 
with us.
    I yield now to the gentlewoman from Colorado Ms. DeGette.

 OPENING STATEMENT OF HON. DIANA DEGETTE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Ms. DeGette. Thank you, very much, Mr. Pallone.
    As we've heard, we're here today to find out what the 
problem is with the healthcare.gov Web site and how we can fix 
these multiple technical problems.
    Last month, as the chairman noted, we heard from CGI, QSSI, 
Serco and Equifax, the same four contractors who are here 
today. They told us that the Web site would work. We even asked 
them point blank; Mr. Pallone asked them, and I asked them. 
They told us that HHS was doing an excellent job of testing the 
product. They said there was nothing wrong, and they expressed 
nothing but optimism. And so 3 weeks later, here we are. We're 
still hearing reports of significant problems.
    Now, I appreciate all of the contractors coming today. I 
give them the benefit of the doubt when they say things are 
approving. But I want to stress for the Affordable Care Act to 
work, these problems need to be fixed, and these problems need 
to be fixed fast.
    We need to hear today exactly what they're doing to fix 
these issues, and we need to hear--we need to see clear 
examples of improvement and be provided with a timeline for how 
it will be fully optional.
    Mr. Chairman, this is not our first experience with 
introductions of new healthcare programs, as Mr. Pallone said. 
I was on this committee in 2006 when Medicare Part D was 
implemented during the Bush administration. Let's not forget 
what a mess it was and the significant problems seniors had 
with registering for the new benefit. But I also want to remind 
my colleagues on both sides of the aisle that the difficulties 
passed and were soon forgotten amid the success of Part D.
    And so I really take the gestures on the other side of the 
aisle seriously. And I hope that we can say that we worked 
together to ensure the success of healthcare.gov.
    Now, there's something else I remember from the 
introduction of the Part D benefit, Mr. Chairman. Every single 
one of us, whether or not we voted yea or nay for the law, 
worked together for our success. I found the newsletter that I 
sent out to my constituents after Medicare Part D in which I 
said I opposed the law that created this program, but people 
need to be armed with the information requested. And I would 
urge everybody on both sides of the aisle to do that.
    So my hope, Mr. Chairman, is that today marks the beginning 
of an effort on the majority's part to make sure that the 
healthcare law works and is successful and Americans can enjoy 
the benefits.
    I really think that it is important to make that happen. 
And I'm so happy, I'm so happy and touched really today to hear 
the majority expressing these concerns about making the ACA 
work better. And I really hope that they're legitimate in it, 
because this is what's going to give insurance to millions of 
Americans who have gone without health care for many, many 
years because they couldn't afford the programs.
    And with that I yield to the chairman emeritus of the full 
committee Mr. Dingell.

OPENING STATEMENT OF HON. JOHN D. DINGELL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Dingell. I thank the gentlewoman for yielding to me.
    This is a wonderful opportunity for us to make the 
Affordable Care Act work. I remind my colleagues that the last 
perfect law came off the top of Mt. Sinai with Moses, written 
on a stone tablet by the hand of God. Nothing so good has 
happened since.
    I urge us to use our best efforts then to see to it that 
this new law goes into effect and works, and that we carry out 
our responsibility to the American people to see to it that we 
do everything we can to support and defend the Constitution and 
the laws of the United States.
    I've heard some unfortunate things on the other side. They 
said, we have to do everything in our power to prevent 
Obamacare. Obamacare, get rid of it, period. All of a sudden 
now our friends on the other side have forgotten that. Well, I 
hope they will continue to forget it, because we have a chance 
to see to it that the American people get health care as a 
matter of right, not as a matter of financial privilege.
    I am very frustrated, at least as frustrated as anybody 
else in this room, about the problem facing healthcare.gov. 
This is unacceptable. It needs to be fixed. And we can, if we 
are willing to work together, do something to see to it that 
it, in fact, is fixed, and that it helps all of the American 
people.
    Now, slow Web site is better than the alternative, and 
where health care is a privilege only for the few, it doesn't 
seem to matter. But if it's for everybody, we have to address 
that question and see to it that we take care of all of our 
people.
    I look forward to exploring how the Web site can be fixed 
in this hearing today. I look forward to working with my 
Republican colleagues and my Democratic colleagues to see that 
we do a constructive job of making this new law work.
    I remind all that when we were dealing with Medicare Part 
D, which was not something that was originated on this side the 
aisle, we worked together to see to it that, in fact, it 
worked, and now it is an accepted and acceptable conclusion to 
a significant problem, which, by the way, is improved by the 
Affordable Care Act.
    Mr. Chairman, I thank you for your courtesy, I thank the 
gentlelady for yielding to me, and I hope we can work 
constructively on this matter today. It is a great opportunity.
    Mr. Upton. The gentleman from the great State of Michigan's 
time is expired.
    At this point I'd like to introduce the witnesses for 
today's hearing.
    Our first witness is Cheryl Campbell. She is the senior 
V.P. For CGI's Federal health and compliance programs and 
defense agency programs. She was appointed to this position in 
2009, and in this capacity she is the driver of strategy and 
execution for the practice to serve the needs of providers, 
government and public.
    Our second witness is Andrew Slavitt. He is the group 
executive V.P. For Optum/QSSI, and in this capacity he is 
responsible for business strategy, public policy, corporate 
investment, research and development, acquisitions and 
corporate governance. Prior to this role, he has served in 
other roles at UnitedHealth Group and was founder and CEO of 
HealthAllies, which was acquired by UnitedHealth Group in 2003.
    Our third witness is Lynn Spellecy. She serves as the 
corporate counsel for Equifax Workforce Solutions. In this role 
her responsibilities include advising the business on matters 
related to contracts, products, regulatory issues and client 
relationships. She also works with sales leaders and internal 
contracts staff and the broader legal department to manage 
workforce solutions, related issues related to litigation, 
human resources, government affairs and regulatory matters.
    Our last witness is John Lau. He is the program director at 
Serco. He is responsible for overseeing eligibility and 
enrollment support services, specializing in the implementation 
and management of large-scale Health and Human Services 
programs in the U.S., including Medicaid, CHIP and TANF. His 
experience includes initial implementation and start-up; risk 
identification and issue resolution using a commercial 
governance system; security and privacy; and the design, 
implementation and management of multimillion transaction 
healthcare documents and transaction processing systems, 
including California's SCHIP and Texas' eligibility system for 
Medicaid, CHIP and TANF.
    So at this point I will now swear in the witnesses. You are 
aware that the committee is holding an investigative hearing 
and, when doing so, has had the practice of taking testimony 
under oath. Do any of you have objection to testifying under 
oath?
    Seeing none, the Chair then advises you that under the 
rules of the House and the rules of the committee, you are 
entitled to be advised by counsel. Do you desire to be advised 
by counsel during your testimony today?
    Seeing none, in that case, if you would please rise and 
raise your right hand, I will swear you in.
    [Witnesses sworn.]
    Mr. Upton. You are now under oath and subject to the 
penalties set forth in Title 18, section 1001 of the U.S. Code.
    You are now able to give a 5-minute summary of your written 
statement, and, Ms. Campbell, we will start with you. Welcome.

   TESTIMONY OF CHERYL CAMPBELL, SENIOR VICE PRESIDENT, CGI 
FEDERAL; ANDREW SLAVITT, GROUP EXECUTIVE VICE PRESIDENT, OPTUM/
   QSSI; LYNN SPELLECY, CORPORATE COUNSEL, EQUIFAX WORKFORCE 
        SOLUTIONS; AND JOHN LAU, PROGRAM DIRECTOR, SERCO

                  TESTIMONY OF CHERYL CAMPBELL

    Ms. Campbell. Chairman Upton, Ranking Member Waxman, 
members of the committee, thank you for the opportunity to 
appear today. My name is Cheryl Campbell, and I'm a senior vice 
president at CGI Federal. I have responsibility for all of CGI 
Federal's projects at the Department of Health and Human 
Services and several other Federal agencies. I'm here today to 
reinforce CGI Federal's ongoing commitment to the success of 
the Federal exchange on healthcare.gov.
    Let me state unequivocally that CGI Federal is fully 
committed to its partnership with CMS. Our priority is for 
Americans to have a positive experience in applying, shopping 
and enrolling on the Federal exchange. To this end we dedicate 
the very best experts to optimize our portion of the Federal 
exchange.
    For a context let me first describe our role in the Federal 
exchange. The exchange is comprised of 6 complex systems that 
involves 55 contractors, including CGI Federal, 5 government 
agencies, 36 States, and more than 300 insurers, with more than 
4,500 insurance plans all coming together in healthcare.gov.
    CMS competitively awarded CGI Federal its portion of the 
Federal exchange, a software application called the Federally 
Facilitated Marketplace, or FFM. Specifically the FFM provides 
functionality for eligibility and enrollment, plan management 
and financial management. CMS serves as the systems integrator, 
having ultimate responsibility for end-to-end performance of 
the Federal exchange.
    It also is important to understand the complexity of CGI 
Federal's work on the exchange. The FFM is a sophisticated 
software application that combines a Web portal, a transaction 
processor, and sophisticated business analytics to 
simultaneously help Americans determine their eligibility for 
insurance, apply for subsidies, shop for health plans, and 
enroll in qualified plans. The technology works in real time 
with sophisticated analytic systems developed by other 
contractors, large-scale data repositories hosted in disparate 
Federal agency databases, and health plans for more than 300 
insurers.
    In short, the Federal exchange, including the FFM, is not a 
standard consumer Web site, but rather a sophisticated, 
integrated technology platform that, for the first time in 
history, combines the processes of selecting and enrolling in 
insurance and determining eligibility for government subsidies 
all in one place and in real time.
    Since award on September 30, 2011, CGI Federal has worked 
diligently to develop the FFM by following a rigorous process 
that is customary for large IT projects. The FFM passed eight 
required technical reviews before going live on October 1.
    While CGI Federal delivered the FFM functionality required, 
and some consumers were able to enroll on October 1, we 
acknowledge that issues arising in the Federal exchange made 
the enrollment process difficult for too many Americans. 
Consequently, CGI Federal's focus shifted immediately to 
solving consumer access and navigation processes on the 
exchange.
    The first set of issues on the exchange concerned another 
contractor's enterprise identity management, or EIDM, function. 
The EIDM allows consumers to create secure accounts and serves 
as the front door to the Federal exchange. Consumers must pass 
through this front door in order to enter the FFM application. 
Unfortunately, the EIDM created a bottleneck, preventing the 
vast majority of consumers from accessing the FFM. Since then 
CMS, CGI Federal and other contractors have worked closely 
together to troubleshoot and solve this front door problem.
    As more consumers are gaining access to the FFM and 
enrolling in qualified plans, the increased number of 
transactions caused performance problems, such as slow response 
times and data assurance issues. CGI Federal is addressing 
these problems through tuning, optimization and application 
improvements.
    Over the past 2 weeks, the Federal exchange has steadily 
improved. We have continued to dedicate the resources necessary 
to shorten wait and transaction times and improve data quality. 
We have confidence in our ability to deliver successfully. Why? 
Because the company that I represent here today has 
successfully delivered some of the most complex IT 
implementations for the U.S. Government, including 
FederalReporting.gov. We have partnered with CMS on 
transformative projects likes Medicare.gov, which has enabled 
more than 50 million beneficiaries to compare health and drug 
plans annually. We are widely recognized by independent parties 
for our expertise in IT systems and software, and have CMI 
Level 5 credentials that demonstrate our commitment to rigorous 
software-development processes. And as part of the fifth 
largest independent IT and business process services company in 
the world, we leverage deep resources and expertise of a global 
workforce.
    I will end this testimony where I began by reinforcing CGI 
Federal's unwavering commitment to working collaboratively with 
CMS to improve the consumer experience.
    Thank you.
    Mr. Upton. Thank you.
    [The prepared statement of Ms. Campbell follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Upton. Mr. Slavitt.

                  TESTIMONY OF ANDREW SLAVITT

    Mr. Slavitt. Chairman Upton, Ranking Member Waxman and 
members of the committee, good morning. My name is Andy 
Slavitt, and I'm group executive vice president at Optum, 
business unit of UnitedHealth Group. Optum owns QSSI, one of 
the contractors working on the online healthcare marketplaces.
    Let me begin by saying that we understand the frustration 
many people have felt since healthcare.gov was launched. We 
have been and remain accountable for the performance of our 
tools and our work product.
    I will start by discussing our work on the data services 
hub, a large and complex project that was the subject of much 
interest in QSSI's work for the marketplace prior to the 
launch. Simply put, the data services hub is a pipeline. It 
transfers data, routing queries and responses between a given 
marketplace and various trusted data sources.
    Specifically, a consumer interested in purchasing health 
insurance goes to the marketplace's Web portal to fill out 
enrollment forms and select a plan. The consumer provides the 
marketplace with information, such as citizenship, which must 
be verified. The data services hub directs queries from the 
marketplace to various sources, such as government databases, 
that can verify that information and send the information back 
to the marketplace. As a technology pipeline, the data services 
hub does not determine the accuracy of the information it 
transports, nor does it store any data.
    The data services hub has performed well since the 
marketplace has launched. On October 1, the data services hub 
successfully processed more than 178,000 transactions, and it 
has processed millions more since. When occasional discrete 
bugs in the data services hub were identified, we promptly 
corrected them.
    In addition to the data services hub, QSSI also developed 
the EIDM, a registration and access-management tool used as one 
part of the Federal marketplace's registration system. The EIDM 
tool helps the marketplace create user accounts and is being 
used successfully currently in at least two other CMS 
applications.
    It's relevant to note that while the EIDM tool is 
important, it is only one piece of the Federal marketplace's 
registration system. Registration components developed by other 
vendors handle other critical functions, such as user 
interface, confirmation emails to users, the link that users 
click on to activate their accounts, and the Web page users 
land on. All of these tools must work together seamlessly to 
ensure smooth registration.
    After the launch healthcare.gov was inundated by many more 
consumers than anticipated. Many of the critical components 
developed by these multiple vendors were overwhelmed, including 
the virtual data center environment, the software, the database 
system and the hardware, and our EIDM tool.
    Now, it appears one of the reasons for the high concurrent 
volume at the registration system was a late decision requiring 
consumers to register for an account before they could browse 
for insurance products. This may have driven higher 
simultaneous usage of the registration system than wouldn't 
have otherwise occurred if consumers could window shop 
anonymously.
    In the days after the launch, QSSI worked around the clock 
to enhance the EIDM tool to meet this unexpected demand, and as 
I understand it, this has largely succeeded. By October 8th, 
even at high levels of registration, the EIDM tool was 
processing those volumes at error rates close to zero. The EIDM 
tool continues to keep pace with demand, and at CMS's request 
we are working with other vendors to plan for higher levels of 
peak activity.
    Finally, QSSI was one of several testers used to test the 
functionality of the Federal marketplace. In our testing role 
we identified errors in code that was provided to us by others. 
In this function we reported back the results to CMS and the 
relevant contractor, who in turn was responsible for fixing 
coding errors or making any necessary changes.
    To conclude, the data services hub has performed well, and 
after initial scalability challenges, the EIDM tool is now 
keeping up with demand. We are committed to helping resolve any 
new challenges that may arise in any way we can.
    Thank you for the opportunity to discuss QSSI's work. I'm 
happy to answer any questions you have.
    Mr. Upton. Thank you.
    [The prepared statement of Mr. Slavitt follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Upton. Ms. Spellecy.

                   TESTIMONY OF LYNN SPELLECY

    Ms. Spellecy. Good morning, Chairman Upton, Ranking Member 
Waxman and distinguished members of the committee. My name is 
Lynn Spellecy, and I serve as senior director and corporate 
counsel for Equifax Workforce Solutions. In that role I am the 
primary attorney responsible for the day-to-day legal 
operations of that business unit, and I provide guidance, 
advice and legal support.
    I appreciate the opportunity today to provide an update 
related to the income verification services that Equifax 
Workforce Solutions is providing to CMS to assist them in their 
benefit eligibility determination requirements under the 
Affordable Care Act.
    The Equifax Workforce Solutions income verification 
solution is working as designed. Since the exchanges first went 
live on October 1, 2013, we have not experienced any problems 
or interruptions in the processing of data to CMS. We have 
received and responded to verification requests regarding 
individual applicants from the Federally Facilitated 
Marketplace as well as from State-based agencies.
    Equifax Workforce Solutions tested our verification 
solution before the October 1st, 2013, open enrollment start 
date to ensure that we could transmit data between our servers 
and the Federal data hub. We performed end-to-end testing with 
the Federal hub and considerable internal stress and volume 
testing to guarantee that we would be prepared for current and 
future applicant volumes.
    Now that the Federally Facilitated Marketplace is open, we 
are monitoring the flow of verification requests from the hub 
to our servers and back.
    Equifax Workforce Solutions' role in the Federally 
Facilitated Marketplace is limited. Equifax Workforce Solutions 
receives an income verification request only after an applicant 
successfully gains access to the Federal healthcare.gov or 
State-based marketplace Web site, creates a user name, and 
establishes a security authentication profile, and then enters 
an online application process. Equifax does not play a role in 
any of these steps, nor does Workforce Solutions play a role in 
identity proofing and authentication.
    We are neither involved in, nor do we have visibility into, 
the eligibility decision process or downstream display and 
processing of benefit elections.
    Although the majority of the verification requests to date 
have come through the Federally Facilitated Marketplace, 
Equifax Workforce Solutions is also verifying income for 
several State-based marketplaces and State Medicaid agencies.
    The Continuing Appropriations Act for 2014 included new 
requirements for the Department of Health and Human Services to 
ensure that the federally facilitated and State-based 
marketplaces verify that individuals applying for coverage and 
seeking premium tax credits and cost-sharing reductions are, in 
fact, eligible for these subsidies.
    Equifax Workforce Solutions looks forward to sharing our 
expertise and income verification services with CMS at HHS as 
they develop guidance regarding verification solutions for the 
Federal and State exchanges.
    Since the October 1, 2013, start date, Equifax Workforce 
Solutions has exceeded the operating specifications of its 
contract with CMS to provide income verification services for 
those seeking financial assistance under the Affordable Care 
Act. The extensive experience we've gained from providing 
income verifications to State and other Federal agencies for 
their eligibility reviews for government subsidies has prepared 
Equifax Workforce Solutions to successfully serve CMS in this 
new capacity. We will continue to monitor and test our 
interface with the CMS data hub and various State agencies to 
ensure maximum efficacy.
    Thank you for the opportunity to testify, and I welcome 
your questions.
    [The prepared statement of Ms. Spellecy follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Upton. Mr. Lau.

                     TESTIMONY OF JOHN LAU

    Mr. Lau. Good morning, Mr. Chairman, Congressman Waxman, 
other distinguished members of the committee. My name is John 
Lau, and I represent Serco, and I am the program director for 
our CMS contract in connection with the ACA. Thank you for the 
opportunity to again appear and discuss Serco's current status 
and performance of this program.
    For the next several minutes, what I'd like to do is 
provide a quick review of Serco's role in the program and then 
the current status of our work. Serco's contract is to provide 
eligibility support services in support of the paper 
application processing, as well as error and issue resolution 
on applications regardless of the mode in which the consumer 
submitted them.
    It's important, I think, to clarify that we have no role in 
the development of the Web site, we have no role in 
determination of eligibility, and we have no role in health 
plan selection. I think there had been some confusion about 
that. I'd like to make sure that that's clear.
    Our primary role in the early days of this implementation 
is to key-enter paper applications into the eligibility system. 
As time goes on, more of our work will entail inconsistency 
resolution in order to clear previously submitted applications 
for the eligibility determination process.
    Inconsistency resolution entails data verification and 
validation of the self-attested data from applicants. These are 
problems identified through the use of the data hub in the main 
system and then communicated to us.
    To date, Serco has successfully opened two of its four 
processing centers, those in Kentucky and Arkansas. A third 
will be opening next week in Missouri, and in about 4 or 5 
weeks the final site in Oklahoma. I've had no trouble 
recruiting and hiring competent staff in any of our areas, and 
have received a number of compliments from local officials and 
community groups about the professionalism of our recruiting 
efforts and outstanding ways we've onboarded and trained our 
people. We've instilled a sense of pride in what they're doing, 
and our staff is highly motivated and represent an eager 
workforce.
    Since the launch of the program on October the 1st, we've 
built upon our starting capacity with both staff members and 
processing efficiency. The volume of paper documents received 
since program launch has been steadily increasing, and even in 
a short period clearly is trending upward. This build-up has 
given us the opportunity to make adjustments and improve our 
processes as the nature of the inbound documents and the 
workload has become clearer.
    To date, we've received about 18,000 documents. About half 
of those are consumer applications, and we've succeeded in key-
entering about half of those. The remaining half are generally 
applications that are missing important data, and those cannot 
be entered directly until those problems are resolved. We 
expect to be able to complete processing and entering those 
applications in the near future.
    Our challenges have included coping with the performance of 
the portal, as that is our means of entering data, just as it 
is for the consumer. With the relatively low volumes of 
applications we have received thus far, it has not presented a 
challenge.
    As I testified on September 10th, Serco was ready to 
process on 10/1, and we are processing today. And I very much 
look forward to your questions.
    Thank you.
    [The prepared statement of Mr. Lau follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Upton. Well, I thank each and every one of you.
    At this point we will move to questions from Members and 
alternate between Republicans and Democrats.
    I just want to say, as we've seen the taxpayers spend about 
half a billion dollars, that I guess that constituents across 
the country really expected a user-friendly program, a system, 
and whether it's like ordering a pizza, an airline flight, a 
rental car, a hotel, it's a standard that many were expecting 
to see, and I think most, at this point, would say it's really 
not ready for prime time.
    Listening to your testimony, each of you, I heard words 
like performing--your goal was to perform well, you want a 
positive experience, working or design to try and do that, and 
that's not what we've heard from folks at home.
    So my first question is was it ever an option to delay 
going live on October 1st? Did any of you come forth to the 
administration and say, this thing may not be ready on October 
1st; we might want a delay until we get it right? Any hands up? 
No.
    Prior to October 1st, did you know that the healthcare.gov 
Web site was going to have crippling problems, or did you not 
know about these problems and chose not to disclose them to the 
administration when you figured out that it wasn't working the 
way that perhaps it was designed to work? And maybe I will get 
comments from each of you as it relates to those two questions 
and start with Ms. Campbell.
    Ms. Campbell. Sure.
    Mr. Upton. I mean, you all testified in September, and so, 
I mean, either you didn't know about these problems or you knew 
about them and chose not to disclose them. Which one is it?
    Ms. Campbell. Well, Chairman, from a CGI perspective, our 
portion of the application worked as designed. People have been 
able to enroll, not at the pace, not at the experience we would 
have liked. But the end-to-end testing was the responsibility 
of CMS. Our portion of the system is what we testified in terms 
of what was ready to go live, but it was not our decision to go 
live.
    Mr. Upton. It was not your decision to go live?
    Ms. Campbell. It was CMS's decision. It was not our 
decision one way or the other.
    Mr. Upton. Did you ever recommend to CMS that perhaps they 
weren't ready, and they might want to delay the date?
    Ms. Campbell. It was not our position to do so.
    Mr. Upton. So you chose not to share those thoughts with 
them; is that right?
    Ms. Campbell. Let me clarify my statement. CMS had the 
ultimate decision for live or no-go decision, not CGI. We were 
not in a position; we're there to support our client. It is not 
our position to tell our client whether they should go live or 
not go live.
    Mr. Upton. So who at CMS were you sharing that information 
with or those decisions? Anyone in particular?
    Ms. Campbell. Once again, Chairman, it was not--I did not 
have, nor did CGI have, an opinion on a decision for CMS to 
make on a live or no-go decision.
    Mr. Upton. Do you know who at CMS made that decision to go 
live?
    Ms. Campbell. It's a body of individuals at CMS.
    Mr. Upton. Mr. Slavitt?
    Mr. Slavitt. Thank you, Mr. Chairman.
    So we had a limited view of the entirety of the project. 
What I can speak to is we were confident in the ability of the 
data services hub, which was a very complex component where we 
spent the bulk of our effort. We were confident that it would 
work on October 1st, and, in fact, it has.
    Other than that, we had--all of the concerns that we had, 
which were mostly related to testing and the inability to get 
as much testing as we would have liked, we expressed all of 
those concerns and risks to CMS throughout the project.
    Mr. Upton. So you shared that there were real difficulties 
in the testing with them?
    Mr. Slavitt. All of the risks that we saw, and all of the 
concerns that we had regarding testing were all shared with 
CMS.
    Mr. Upton. And what was their response to when you shared 
some of the pitfalls in terms of what was going on?
    Mr. Slavitt. My understanding is they understood those and 
were working on them. But I don't know further.
    Mr. Upton. Did they ever come back to you in terms of the 
shortcomings and what needed to be done, any concerns that were 
raised by them?
    Mr. Slavitt. I never got a depiction from them, but we did 
fully talk about the risks that we saw, and we passed those 
along all along the way.
    Mr. Upton. Ms. Spellecy?
    Ms. Spellecy. Our solution was ready to go October 1st, 
2013. We successfully completed end-to-end testing between 
Equifax Workforce Solutions and the CMS data hub prior to that 
date, so we did not anticipate any sort of problems with our 
connection and have not experienced any.
    Mr. Upton. Mr. Lau?
    Mr. Lau. We, too, were ready to process on 10/1, had done 
extensive internal testing of our processes and systems. And 
our first awareness of difficulties with the hub was 10/1--or 
the portal, I'm sorry, was on 10/1 when we attempted to do key 
entry.
    Mr. Upton. So you didn't test it prior to October 1st?
    Mr. Lau. No. No, sir.
    Mr. Upton. Mr. Waxman.
    Mr. Waxman. Thank you, Mr. Chairman.
    As we evaluate the problems with this Web site, I think 
it's important that we focus on the facts. My Republican 
colleagues have been predicting that healthcare reform would be 
a disaster for 3 years now, and every time they've been wrong. 
They said insurance rates would skyrocket. In fact, they are 
lower than predicted. They said healthcare costs would soar. In 
fact, they've grown at a record low rate. They said Medicare 
would be undermined. In fact, it's stronger than ever, and 
seniors are saving billions of dollars on prescription drugs.
    So what we need to do is separate the facts for us to reach 
a determination here. Some have said that fixing the Web site 
would take 6 months to a year. Others have said there are 5 
million lines of code to rewrite. Some have urged Health and 
Human Services to pull down the entire system and start from 
scratch.
    Ms. Campbell, I hope you can help us put these dire 
predictions in perspective. Does CGI expect that it will take 6 
months to a year to get the application and enrollment process 
working smoothly on healthcare.gov?
    Ms. Campbell. We do not. We anticipate that the system, as 
we have seen, is improving day over day, and that we anticipate 
that people will be able to enroll in the time frame allotted 
that's necessary for them to have insurance for the January 1 
time frame.
    Mr. Waxman. That means what date? Don't they have to have 
an application in by December 15th for it to be effective 
January 1?
    Ms. Campbell. That's correct, sir.
    Mr. Waxman. So you anticipate by that date the system will 
be working?
    Ms. Campbell. The system will continue to improve. From our 
perspective, as painful as it sounds, I know that the 
experience has been a difficult experience, the system is 
working. People are enrolling. But people will be able to 
enroll at a faster pace. The experience will be improved as 
they go forward. And people will be able to enroll by the 
December 15th time frame.
    Mr. Waxman. Very good. Does CGI have to rewrite 5 million 
lines of code to fix the problems we have seen thus far?
    Ms. Campbell. No, sir. I can tell you that 300-plus 
employees that I have back in the office would--I think they 
would all walk out if I told them they had to rewrite that many 
lines of code.
    Mr. Waxman. Do you believe it is going to be necessary to 
scrap the entire healthcare.gov system and start from scratch?
    Ms. Campbell. I do not, sir.
    Mr. Waxman. So you think the Web site will be fixed in time 
to ensure Americans who want to get coverage for next year, 
that it will be available to them?
    Ms. Campbell. I do, sir.
    Mr. Waxman. OK. Why are you so confident? Can you explain 
that, these problems are going to be fixed in time?
    Ms. Campbell. Because as I said, we are seeing improvements 
day over day. We are continuing to run queries against our 
database. We are reviewing system logs, we are fine-tuning our 
servers, we are analyzing the code for anomalies. And every day 
we are seeing where we are finding challenges in the system and 
making those corrections, as you would with any system that 
will go live. When a system goes into production, these are the 
things you would typically find after production. Maybe not to 
the level of detail that has happened in this experience. But 
when a system goes live, these are the things you typically do. 
You continue to provide system builds and put performance 
tuning to the application to make sure that it continues to 
improve time over time.
    Mr. Waxman. Thank you. Mr. Slavitt, your company has been 
deeply involved in troubleshooting and fixing the problems on 
healthcare.gov. Do you have any reason to believe the problems 
that are being experienced at this launch will prevent 
Americans from getting insurance for the coming year?
    Mr. Slavitt. Congressman, I am confident that the data 
services hub had you been that QSSI developed and the EIDM 
registration tool are working well today and will continue to 
work well.
    Mr. Waxman. You had problems with your part early on, but 
you fixed them, didn't you?
    Mr. Slavitt. For the first 7 days, correct.
    Mr. Waxman. OK. So problems can be fixed.
    Mr. Slavitt. We doubled the capacity of that registration 
tool within 7 days.
    Mr. Waxman. Ms. Campbell, did CGI system pass its test 
before the system went live?
    Ms. Campbell. Yes, it did.
    Mr. Waxman. And my understanding is that you felt that the 
system was ready to go on October 1, is that right?
    Ms. Campbell. That is correct.
    Mr. Waxman. Neither you nor anyone else at the table 
thought or made a recommendation not to go forward on October 1 
because you didn't think the system was ready. Is that a 
correct statement?
    Ms. Campbell. That is a correct statement.
    Mr. Waxman. Mr. Slavitt?
    Mr. Slavitt. I refer back to my earlier answer. We did not 
make a recommendation. We simply made everyone aware of the 
risks that we saw.
    Mr. Waxman. OK. Ms. Spellecy.
    Mr. Spellecy. No, we did not make recommendations.
    Mr. Waxman. Mr. Lau.
    Mr. Lau. We did not either.
    Mr. Waxman. Thank you. Thank you, Mr. Chairman.
    Mr. Upton. The chair recognizes the vice chair of the full 
committee, Ms. Blackburn from Tennessee.
    Mrs. Blackburn. Thank you, Mr. Chairman. And thank you all 
for your testimony. I would like each of you to submit in 
writing for me how much you have been paid to date, and then 
how much you are being paid on retainer or either to clear up. 
And so if you will submit that to us for the record, that would 
be wonderful. HIPAA compliance. Were you all trained in HIPAA 
compliance prior to beginning your contract? I will just go 
right down the line. Ms. Campbell?
    Ms. Campbell. Yes.
    Mrs. Blackburn. Mr. Slavitt?
    Mr. Slavitt. Yes, we do extensive HIPAA training.
    Mrs. Blackburn. OK. Ms. Spellecy?
    Ms. Spellecy. Yes.
    Mrs. Blackburn. Mr. Lau?
    Mr. Lau. Yes.
    Mrs. Blackburn. OK. Did your companies meet as a group with 
HHS before you started the process? Anyone? Did your companies 
meet together with HHS to discuss the integration? Mr. Lau, go 
ahead.
    Mr. Lau. Yes, for the security people from CMS and Serco 
and others have coordinated the security.
    Mrs. Blackburn. All right. Let me ask each of you a 
question. How many people in each of your companies have 
physical access to the database servers storing the enrolling 
information? Ms. Campbell?
    Ms. Campbell. Zero from CGI.
    Mrs. Blackburn. Pardon me?
    Ms. Campbell. We have zero access to the database.
    Mrs. Blackburn. Zero. OK.
    Mr. Slavitt. I believe the answer is also zero for our 
QSSI.
    Mrs. Blackburn. Ms. Spellecy for the verification?
    Mr. Spellecy. We have no access to CMS's servers.
    Mrs. Blackburn. OK. Mr. Lau?
    Mr. Lau. Two thousand people.
    Mrs. Blackburn. Two thousand people have access to the 
database?
    Mr. Lau. Through the key entry of the applications.
    Mrs. Blackburn. OK. You know under HIPAA regs, no one is 
supposed to have direct access to that database. OK. Under the 
current technology infrastructure, how many separate servers or 
virtual servers in the cloud are being used to host and store 
data for healthcare.gov? And Ms. Campbell, Mr. Slavitt, I think 
that is primarily to you.
    Ms. Campbell. I don't have the exact number. What I can 
tell you is that from a CGI perspective, we have anywhere from 
80 to 100 servers.
    Mrs. Blackburn. So you have 80 to 100 different servers 
that are holding information.
    Ms. Campbell. That are passing information through our 
system.
    Mrs. Blackburn. OK. Mr. Slavitt?
    Mr. Slavitt. Ms. Blackburn, I don't have--Congresswoman 
Blackburn, we don't have the answer to that question 
specifically as to how many servers. We can follow that up 
with--we don't store any data, however, any personal consumer 
data in any of our systems.
    Mrs. Blackburn. OK. Then Ms. Campbell and Ms. Spellecy, let 
me ask you this: The application information, is that being 
stored separately from the patient database information? Ms. 
Campbell?
    Ms. Campbell. Could you repeat the question again?
    Mrs. Blackburn. OK. The applicant servers and the patient 
database servers, are these--are you holding this information 
on your patients and on the database separately? Are you 
holding those separately?
    Ms. Campbell. So we are not holding any information.
    Mrs. Blackburn. You are not holding any. OK.
    Mr. Spellecy. We are provided only with limited 
information, Social Security numbers, names, and date of birth, 
which we use to match against our system.
    Mrs. Blackburn. OK. Mr. Lau, you mentioned that you all are 
working through the paper entry, and then the data entry from 
the paper applications?
    Mr. Lau. That's correct, yes.
    Mrs. Blackburn. OK. So where are you physically storing the 
data that is collected and given to you?
    Mr. Lau. When the paper comes in, it is scanned and 
converted to electronic images. Then the paper is destroyed 
once the image has been verified. The electronic image is put 
into a database and kept only until the information is key 
entered, and then it is put in archive and will be retained no 
more than 30 days.
    Mrs. Blackburn. Retain it no more than 30 days. OK. Let me 
ask each of you, does your current system keep detailed error 
logs that can be referenced with the difficulties that are 
surrounding healthcare.gov? Ms. Campbell, I will begin with 
you.
    Ms. Campbell. Yes, we have error logs.
    Mrs. Blackburn. OK.
    Mr. Slavitt. Yes, we do keep error logs for our products 
and tools.
    Mrs. Blackburn. OK.
    Mr. Spellecy. Yes, we keep error logs.
    Mrs. Blackburn. All right.
    Mr. Lau. We keep track of successful or unsuccessful 
applications.
    Mrs. Blackburn. OK. Do you want to submit these error logs 
to us?
    Ms. Campbell. I will have to confer back with CMS as to 
what documents we can and cannot provide.
    Mrs. Blackburn. OK. You know, it would be interesting to 
see those error logs, because I think it would give us an idea 
of how many people are actually accessing this system and then 
the problems that you have had with scaleability on this. I 
think we would like to see what is causing these systems to 
crash and where the security flaws may be in this also. And 
with that, I am over time. I will yield back.
    Mr. Upton. Thank you. Mr. Dingell.
    Mr. Dingell. Thank you for the courtesy, Mr. Chairman. We 
are having some questions before us which are very important. I 
note the problems are not surprising, given the fact that there 
has been considerable obstruction to the program going forward. 
I received a letter from a constituent recently. She said, I 
only make $12 an hour, and am buying my own health insurance on 
the open market. I can barely afford it, so I need to purchase 
it through an exchange, and will therefore be eligible for a 
subsidy, making health care affordable at last.
    This is what the debate is all about. There are problems. 
But we have time to fix it. So let's work together to get this 
matter resolved so that the people benefit and do not suffer. 
These questions are for Cheryl Campbell of CGI Federal. One--
and these are yes or no, if you please. Is CGI responsible for 
developing the software for Federally Facilitated Marketplace? 
Yes or no?
    Ms. Campbell. Yes, sir.
    Mr. Dingell. Did CGI obtain this contract through a 
competitive bidding process?
    Ms. Campbell. Yes, sir.
    Mr. Dingell. Does CGI have experience providing other 
information technology services to the Federal Government? Yes 
or no?
    Ms. Campbell. Yes.
    Mr. Dingell. Did CGI conduct testing of your software for 
the marketplace Web site prior to October 1, when the launching 
took place? Yes or no?
    Ms. Campbell. Yes.
    Mr. Dingell. Was CGI responsible for testing the function 
of the entirety of healthcare.gov?
    Ms. Campbell. No.
    Mr. Dingell. No. If not, who was?
    Ms. Campbell. CMS.
    Mr. Dingell. OK. Do you believe that it is unusual for such 
a large project to experience some problems after it launches? 
Yes or no?
    Ms. Campbell. No.
    Mr. Dingell. Despite the initial problems with the Web 
site, have consumers still been able to enroll in the health 
insurance plans? Yes or no?
    Ms. Campbell. Yes.
    Mr. Dingell. Do you believe that the progress has been made 
getting the Web site to run as intended since launch three 
weeks ago? Yes or no?
    Ms. Campbell. Yes.
    Mr. Dingell. These questions are for Mr. Lau of Serco. Mr. 
Lau, is Serco responsible for handling and processing paper 
applications for health insurance in the marketplace?
    Mr. Lau. Yes, sir.
    Mr. Dingell. With all the problems with the Web site, many 
consumers are now turning to paper applications. Does Serco 
have the capability to handle a larger amount of paper 
applications than was originally expected? Yes or no?
    Mr. Lau. Yes.
    Mr. Dingell. The last question is for all witnesses, and we 
will start with Ms. Campbell. Do you all commit to working with 
CMS, Congress, and all the stakeholders until the Web site is 
fixed and functioning as intended? Yes or no?
    Ms. Campbell. Yes.
    Mr. Dingell. Sir?
    Mr. Slavitt. Yes.
    Mr. Spellecy. Yes.
    Mr. Lau. Yes.
    Mr. Dingell. Now, I would appreciate it very much if you 
would each submit for the record a summary of actions that you 
have taken to fix the Web site after the October 1 launch. 
Could you please do that?
    Ms. Campbell. Yes.
    Mr. Dingell. All right. Now, I would also ask that you 
submit also for the record suggestions for there to be changes 
and improvements in the way the matter is being dealt with by 
the Federal Government and any changes that you might deem 
would be useful in seeing to it that the matter goes forward as 
it can and should? Could you do that for me, please?
    Ms. Campbell. Yes.
    Mr. Dingell. OK. That question, I hope you understand, is 
to all of you. So I hope that you will all please assist. I 
want to thank you all. It is clear that we have plenty to do in 
the coming weeks. And I hope and pray that we will be up to the 
task. I urge my colleagues on the committee, this is a time 
when we can work together on something good. Maybe we didn't 
agree with the program or with the legislation. But we do now 
have a duty to see to it that it works for the benefit of the 
American people, and that we achieve the benefits which we hope 
we can achieve. I would note that this legislation originated 
under the hand and pen of my dear friend Bob Dole, and of John 
Chafee, and is therefore, I think, subject to the charge that 
it has some bipartisanship, even though little could be found 
during the process of it. I yield back the balance of my time, 
with thanks.
    Mr. Upton. Thank you. Mr. Barton.
    Mr. Barton. Thank you, Mr. Chairman. I want to put slide 
number two back up. Right there. Now, unfortunately that blue 
highlighted thing is hard to read, so I am going to read it 
again. This is the part of the signup that is hidden. The 
applicant does not see this, but it is in the source code. And 
what that blue highlighted area that has been circled in red 
says is, ``You have no reasonable expectation of privacy 
regarding any communication or data transiting or stored on 
this information system.'' Now, Ms. Campbell and Mr. Slavitt, 
you all both said that you are all HIPAA compliant. How in the 
world can this be HIPAA compliant when HIPAA is designed to 
protect the patient's privacy, and this explicitly says in 
order to continue, you have to accept this condition that you 
have no privacy, or no reasonable expectation of privacy?
    Ms. Campbell. So, sir, that would be a decision made by 
CMS.
    Mr. Barton. So this is news to you? You are the main prime 
contractor. You have never seen this before?
    Ms. Campbell. Sir, that is not--we are the prime, one of 
the prime contractors, yes.
    Mr. Barton. Have you seen this before? Are you aware this 
was in the source code?
    Ms. Campbell. This requirement----
    Mr. Barton. Are you aware this was in the source code? Yes 
or no.
    Ms. Campbell. Yes.
    Mr. Barton. You were aware. OK. Do you think it that's 
HIPAA compliant? How can that be? You know it is not HIPAA 
compliant. Admit it. You are under oath.
    Ms. Campbell. Sir, that is CMS's decision to make what----
    Mr. Barton. I asked if you thought that--you just told Mrs. 
Blackburn that it was HIPAA compliant. You know that's not 
HIPAA compliant. You admit that you knew it was in there. It 
may be their decision to hide it, but you are the company--not 
you personally, but your company is the company that put this 
together. We are telling every American, including all my 
friends on the Democrat side, and their they are huge privacy 
advocates. Diane DeGette is cochairman of the privacy caucus 
with me. But you are telling every American if you sign up for 
this, or even attempt to, you have no reasonable expectation of 
privacy. That is a direct contradiction to HIPAA, and you know 
it. Yes or no?
    Ms. Campbell. Once again, CMS had us comply to a set of 
rules and regulations that they have established under our 
contract. And that is a CMS call. That is not a contractor 
call.
    Mr. Barton. To break the law. You are now saying that CMS 
made a decision to break the law. Do you agree with that 
decision?
    Ms. Campbell. Sir, I cannot speculate on CMS.
    Mr. Barton. Let me ask Mr. Slavitt.
    Mr. Slavitt. This is the first time I am seeing and 
becoming familiar with that source code.
    Mr. Barton. OK. So you weren't aware of it?
    Mr. Slavitt. I was not aware of it.
    Mr. Barton. OK. Well, let me go back to Ms. Campbell. She 
has at least admitted she knew about it. Who made this decision 
to hide this or put it in the source code in the first place?
    Ms. Campbell. I can't give you that answer.
    Mr. Barton. All right.
    Ms. Campbell. I don't know the answer to that question.
    Mr. Barton. All right. Who do you report to?
    Ms. Campbell. I can go back to my people.
    Mr. Barton. Was it some junior underling at CMS? Was it the 
director of CMS? I mean, who generically generally made 
decisions at the policy level that your company interfaced 
with? Give me that person's name.
    Ms. Campbell. There are many decisions made under this 
program over this last 2, 2 \1/2\ years.
    Mr. Barton. So is this another example of where things just 
go into a cloud? I mean, all you are is the contractor that 
spent 3- or $400 million? It goes to some amorphous cloud and 
then it comes back from down on high? Who wrote that?
    Ms. Campbell. I am not clear as to who wrote that.
    Mr. Barton. All right. Let me ask it this way: Do you think 
that should be in the--do you think that should be a 
requirement to sign up for ObamaCare, that you give up any 
reasonable expectation of privacy?
    Ms. Campbell. Sir, that is not my jurisdiction----
    Mr. Barton. You are a U.S. citizen.
    Ms. Campbell [continuing]. One way or the other.
    Mr. Barton. Well, I will answer. I don't think it should 
be. I don't think it should be. My time is about to expire. Let 
me ask one more question. Ms. Campbell, did you all do any kind 
of a pilot program on this before it was rolled out?
    Ms. Campbell. No, there was no pilot program.
    Mr. Barton. OK. And you said that it was complicated and 
big, but it was meeting your expectation. Do you think it is 
right that 99 percent of the people that try to go through the 
system get rejected, can't even complete the application? Is 
that a system that you are proud of?
    Ms. Campbell. Sir, this is a system that we are working 
every day to make improvements.
    Mr. Barton. Well, in my opinion, if we have a system that 
almost no one can successfully navigate, that we have to go to 
the paper system of this gentleman's company down here, that is 
a system that has failed. With that, Mr. Chairman, I yield 
back.
    Mr. Upton. Thank you. Mr. Pallone.
    Mr. Pallone. Thank you, Mr. Chairman. I started out in my 
opening statement saying there was no legitimacy to this 
hearing, and the last line of questioning certainly confirms 
that. HIPAA only applies when there is health information being 
provided. That is not in play here today. No health information 
is required in the application process. And why is that? 
Because preexisting conditions don't matter. So once again, 
here we have our Republican colleagues trying to scare 
everybody.
    Mr. Barton. Will the gentleman yield?
    Mr. Pallone. No, I will not yield to this monkey court or 
whatever this thing is.
    Mr. Barton. This is not a monkey court.
    Mr. Pallone. I am not yielding. I am trying to tell you the 
problem here.
    Mr. Barton. Protecting American citizens is a legitimate 
concern of this committee.
    Mr. Pallone. Preexisting conditions don't matter, HIPAA 
doesn't apply, there is no health information in the process. 
You are asked about your address, your date of birth. You are 
not asked health information. So why are we going down this 
path? Because you are trying to scare people so they don't 
apply, and so therefore the legislation gets delayed or the 
Affordable Care Act gets defunded or it's repealed. That is all 
it is, hoping people won't apply.
    Well, the fact of the matter is there are millions of 
people out there, over 20 million that are going on this site, 
and they are going to apply, and they are ultimately going to 
be able to enroll. In fact, many of them already have enrolled.
    I think my Republican colleagues forget that a lot of 
people are enrolling through State exchanges rather than the 
Federal exchange. And if it wasn't for the fact that many 
Republican governors, including my own from New Jersey, had 
agreed to set up State exchanges, then we wouldn't be putting 
so much burden on the Federal system. But I just want to give 
you some examples.
    In New York and Washington, over 30,000 people have 
enrolled in coverage. In Oregon, over 50,000 people have 
enrolled. In California, over 100,000 have started 
applications. In Kentucky, nearly 16,000 people have enrolled. 
So, you know, this Web site, this Federal Web site is not the 
only way that you apply. In fact, you can go to your community 
health center, you can go to the 1-800 number, you can go to--
there are many ways for people to enroll. And all we talk about 
here is the Web site because you are trying to make a case that 
people should not enroll.
    Now, I want to ask two questions. Ms. Campbell, am I 
correct that CGI is doing work in several States in addition to 
the work on healthcare.gov? And would you comment on that, 
please, in these States?
    Ms. Campbell. That is correct. We are supporting a number 
of States. And those States, we are a prime contractor in 
Colorado, a prime contractor in Hawaii, a prime contractor in 
Massachusetts, a prime contractor in Vermont. We are a 
subcontractor in California, a subcontractor in Kentucky, and a 
subcontractor in New Mexico.
    Mr. Pallone. And that appears be to be going well. 
Obviously, a lot of people have enrolled, as I set forth 
previously. I know that when Mr. Waxman asked a question, you 
said you had confidence that whatever problems exist in the 
Federal data system or Web site, that they would be fixed by 
December 15th, and you expect that the millions ofuninsured 
people and others who were trying to enroll would be able to by 
then so that their insurance would be effective January 1st. 
Was that my understanding?
    Ms. Campbell. That's correct.
    Mr. Pallone. OK. And I wanted to ask Mr. Slavitt, the data 
hub that your company set up is working well to connect to the 
Federal data when residents of those States apply. So what I am 
asking, Mr. Slavitt, is if I go through New York or California 
or some of the other States that have responsible governors 
that have set up these State exchanges, unlike mine in New 
Jersey, that if you do that or you go through, you know, the 1-
800 number, or you go through the other means that you can to 
apply in person, that they can access the hub. Is that correct?
    Mr. Slavitt. That is correct.
    Mr. Pallone. OK. So again, I am just trying to point out to 
my colleagues the success of all the State exchanges. And 
again, a lot of people are being able to enroll. I think the 
figures show that when State governors work to expand Medicaid 
and work to make sure their own citizens get coverage, they 
make a big difference. And they also show, these statistics, 
how shortsighted it is of Republican governors to refuse to 
expand the Medicaid program in their States, because that's 
another big factor to the ACA that really isn't being discussed 
today.
    Again, I never cease to be amazed how the GOP uses tactics 
to try to scare people. And that is again what is happening 
here today. And I was hoping this hearing wouldn't end up 
accomplishing that goal. And I would just ask the public, 
please, try to find means to enroll. There are a lot of things 
other than the Federal Web site. And don't be scared by my GOP 
colleagues into thinking that somehow you are going to lose 
your privacy. There is no health information provided as part 
of this exercise. Thank you, gentlemen.
    Mr. Upton. Mr. Hall.
    Mr. Hall. Mr. Chairman, thank you. This hearing is entitled 
PPACA Implementation Failures: Didn't Know Or Didn't Disclose. 
And I guess this hearing is really to set us in a little better 
shape to deal with Ms. Sebelius. I think she is going to be 
here next week. President Obama often attempts to paint 
Republicans as being out of order, downright crazy in their 
criticism of the health care law. I want to talk about that 
just a minute before I ask my questions.
    I hear from my district and from Americans across the 
country that the craziest part of the last few weeks is seeing 
the President's top health care official laughing on Jon 
Stewart while Americans are having to deal with the 
consequences with the President's flawed health care law. For 
example, I have a teacher there in my hometown where she has to 
face premiums that will consume nearly a quarter of her monthly 
income.
    Or another constituent who has tried to comply with the 
law, but has not yet received information about their coverage 
as promised, and claims, quote, I am very concerned that our 
family will not be in compliance and we will face IRS fines. 
They are calling for a repeal of the individual mandate. And 
most of them are calling for that. Yet another who has been 
advised that their current coverage will end December 31st, 
2013.
    So much for keeping what you have. And it is a concern the 
dysfunctional health care government will expose me to an 
unwanted liability if I can't get coverage through the Web 
site. Now, how verbose is this? You know, the Founding Fathers, 
in 1776, declared their independence. The next year they wrote 
a Constitution that was 4,500 words. This wording in here, the 
regulations, not voted on by Congress, contains a massive 
11,588,000,000 words. I just don't know how anybody could ever 
answer these things. And I want to ask you, in an environment 
where people are already worried about whether or not they have 
a job, and there is no jobs now, and if we go on like we are 
going now, there will be no employers a year from now, they now 
have to worry about navigating a flawed law where their chances 
of finding affordable coverage are often less than before the 
law's existence.
    So my question to each of you is CMS has had 3 years, and 
most of you had over a year to ensure that this law could work. 
Now, what do you want me to tell the Americans who are 
terrified of really facing IRS fines for not being able to 
access coverage they actually can't afford?
    I guess we will start with you, Ms. Campbell. You weren't 
allowed, or you chose not to use your opinion or to make 
suggestions. But are you in a position to give me some words 
that I could give to these people to give them any hope that 
their government, that we are doing our job here in Congress, 
that you have done your job that you were hired out to do? Is 
there hope?
    Ms. Campbell. So if I understand the question, you are 
asking is the system going to be there for them to sign up?
    Mr. Hall. I beg your pardon?
    Ms. Campbell. Can you repeat the question?
    Mr. Hall. Yes. Just give me something to tell these people 
that I have related to you that are real people, honest people 
that have to live with what you all have created. You set up, 
you run the Web site for people to sign up, or exchange.
    Ms. Campbell. And we are continuing----
    Mr. Hall. You must know a whole lot more than I know to 
know what to tell these people. I am asking you to give me some 
help along that line. If you can't express your opinions to the 
people that you report to, you sure can express them to me.
    Ms. Campbell. So I would tell your constituents that the 
system is improving day over day, and that we are continuing to 
work to make improvements for them to be able to enroll.
    Mr. Hall. Did you really start with one in Delaware?
    Ms. Campbell. Pardon me, sir?
    Mr. Hall. Did you really start out with one in Delaware? 
That is what the liberal press is reporting.
    Ms. Campbell. I am not familiar.
    Mr. Hall. How about my time? How much more time do I have?
    Mrs. Blackburn. Thirty-eight seconds.
    Mr. Hall. All right, I will yield. Yes, I will hear from 
any of you. I am asking for help. I want help. I have 700,000 
people that I have to report to. And I think about 690,000 of 
them hate the Obama law. My time is up. I will yield back.
    Mr. Upton. The gentleman yields back. The chair recognizes 
the gentlelady from California, Ms. Eshoo.
    Ms. Eshoo. Thank you, Mr. Chairman. Having listened to 
several colleagues already, as well as the witnesses, I am 
struck by two things: First, that my colleagues on the other 
side of the aisle, if they are serious to pursue what I think 
is the much larger issue of Federal procurement, how it takes 
place, how we end up with contractors that say essentially 
everything is all right when it isn't, that is going to take a 
bipartisan effort to really bring about a fix. But we have to 
keep in mind that these are the people that shut the entire 
Federal Government down, caused pain across the country, and 
extracted some $24 billion out of America's economy. And the 
American people were put through hell.
    That was all over shutting down, or delaying, or defunding 
the Affordable Care Act. So, there isn't any love lost between 
the Republicans and the law. And that is their position. And it 
is abundantly clear. But I think that what the other thing I am 
struck with by today is in reading all of the submitted written 
testimony, when I read it last night, there wasn't anyone that 
wrote testimony and submitted it--let me put it this way. What 
you said was, and I read it more than once, that everything was 
A-OK. No one acknowledged anything.
    Now, we have got problems with this Web site. There is no 
question about it. Now, I represent Silicon Valley, and I find 
this very hard to follow. This is the 21st century. It is 2013. 
There are thousands of Web sites that handle concurrent volumes 
far larger than what healthcare.gov was faced with. You keep 
speaking about unexpected volumes, Ms. Campbell. And that 
really sticks in my craw. I have to tell you that. Because as I 
said, there are thousands of Web sites that carry far more 
traffic. So I think that is really kind of a lame excuse. 
Amazon and eBay don't crash the week before Christmas, and Pro 
Flowers doesn't crash on Valentine's Day.
    Now, in the testing of this between CGI and QSSI, can you 
describe exactly what kind of testing you did as the main 
contractors for this? I mean, there is an internal testing and 
then kind of an external. You turn it around and then you test 
it for the outside. Are you saying that you didn't test, that 
the tests worked very well, both inside and out, or that you 
turned it all over to CMS? Anybody want to answer? I mean what 
is happening? Do you have an answer?
    Ms. Campbell. Are you asking me that question?
    Ms. Eshoo. I am asking both of you. And you are using up a 
lot of my time by your silence. If you don't have an answer, 
just say that you don't. But maybe we can take something in 
writing. But the beta testing and the inside testing I think is 
clearly the main contractor's job. And you are essentially 
saying that everything was all right. It is not all right.
    Ms. Campbell. There was testing done throughout the 
process. CMS did the end-to-end testing. But each component did 
their separate testing, and we had independent contractors 
testing our system as well.
    Ms. Eshoo. And what was the net result of that? What you 
just described?
    Ms. Campbell. That the system was--that our portion of the 
system that CGI was responsible for, that our functionality 
worked.
    Ms. Eshoo. And it didn't.
    Ms. Campbell. Yes.
    Ms. Eshoo. It did not in the end result, correct?
    Ms. Campbell. When it became part of an integrated end-to-
end system.
    Ms. Eshoo. You knew it was going to be integrated. There 
were many subcontractors. That wasn't a surprise. Do you have 
something to say about the testing?
    Mr. Slavitt. So let me be clear about our role in testing. 
Our work, the data services hub, was tested, tested well, and 
tested adequately. Additionally, we played a role as one of 
many independent contractors testing the code developed by 
other contractors. We tested every piece of code we received 
timely. We returned a full report of any bugs we found to CMS 
promptly and made everyone fully aware of all the potential 
risks and concerns that were made available to us.
    Ms. Eshoo. Well, I am now over my time. But I think that 
what we'd like to hear from you is when you're going to fulfill 
your contracts to the taxpayers of the country so that we can 
go on and have people insured. Taxpayers have paid you a lot of 
money. And you are essentially saying to us everything's all 
right when it's not. So I will submit some questions in writing 
as well. And with that, I will yield back.
    Mr. Upton. Thank you. Mr. Shimkus.
    Mr. Shimkus. Thank you, Mr. Chairman. I have a lot of 
questions. I am going totry to go fast. Mr. Slavitt, I am just 
going to follow up on Anna Eshoo's comments. We would like the 
names of the personnel at CMS who you provided the risks that 
you identified in your analysis of other contractors' code. Can 
you do that?
    Mr. Slavitt. Yes. Let me follow up with you on that.
    Mr. Shimkus. Yes. That's fine. For the record. And what I 
am going to encourage my colleagues to do is to ask for names. 
Because this amorphous CMS is--there are people there. And I am 
going to venture to guess that the regular bureaucrats did 
their job, the political appointees manipulated the system to 
hide data they didn't want the public to know. And we're going 
to find out who that is. Because that's the crux of this 
problem. I have got a letter from a constituent who basically 
says we have never been without health insurance. However, the 
Affordable Care Act may force us into the position of going 
without it.
    This whole battle is about whether Americans can have 
affordable health care. And this system is not helping in this 
debate. And I just want--my friend, Mr. Pallone, my friend, Ms. 
DeGette, I was ranking member when this bill got passed and 
signed into law. After it got signed into law, we had 13 
subcommittee hearings on things like smokeless tobacco, 
antibiotic resistance, health care pricing, national all 
scheduled electronic reporting authorization. Each one of those 
I asked for a hearing on the health care law. And it is in the 
Congressional Record. Statements like on April 28, 2010, we 
must hold hearings on the new Health Reform Act. May 6, 2010, 
we should also call Secretary Sebelius to testify. June 9, 
2010, we need a hearing on the new health care law. June 2010, 
shouldn't the committee hold hearings and take immediate 
action? My friend, Mr. Waxman, always sends us letters, I want 
to do this, I want to do that. We sent countless letters to the 
Democrat majority at the time asking for hearings on the 
recently passed health care law. And guess what? No hearings.
    So when Speaker Pelosi then said we've got to pass the bill 
before we know what's in it, we're finding out. We're finding 
out a flawed tech system that's a mockery. Now, let's talk 
about this. I accept the premise that you tested your 
individual section. But we're getting to the point of the 
integrated system. When was the integrated system tested? 
Starting with Ms. Campbell down to the end of the table. When 
was the integrated system tested?
    Ms. Campbell. During the last 2 weeks in September.
    Mr. Shimkus. And what was the result of that?
    Ms. Campbell. I don't have the results. You would have to 
get that from CMS.
    Mr. Shimkus. And who I would go to to get that information? 
Who is your point of contact at CMS?
    Ms. Campbell. So there are a number of people.
    Mr. Shimkus. Give me a name.
    Ms. Campbell. Henry Chao.
    Mr. Shimkus. Give me another name.
    Ms. Campbell. Michelle Snyder.
    Mr. Shimkus. Got another one?
    Ms. Campbell. Peter Oh.
    Mr. Shimkus. OK. Mr. Slavitt?
    Mr. Slavitt. So here is what we saw.
    Mr. Shimkus. Isn't that a beta test? Wouldn't it put the 
different components together and see if the system worked?
    Mr. Slavitt. So here is what we saw. We didn't see the full 
kind of integrated end-to-end system testing that you are 
talking about----
    Mr. Shimkus. Why not?
    Mr. Slavitt [continuing]. Until the couple of days leading 
up to the launch.
    Mr. Shimkus. Shouldn't we have had that?
    Mr. Slavitt. Ideally, yes.
    Mr. Shimkus. Ideally, yes. Wouldn't any other system, 
corporate entity rolling out something would test to see if it 
worked before it went out into the field?
    Mr. Slavitt. Yes.
    Mr. Shimkus. Mr. Slavitt, do you have names of who you 
talked to?
    Mr. Slavitt. I don't have any names with me.
    Mr. Shimkus. Will you provide those to us?
    Mr. Slavitt. We will be happy to follow up.
    Mr. Shimkus. Thank you. Ms. Spellecy.
    Ms. Spellecy. So we tested----
    Mr. Shimkus. I know you tested. A beta testing end to end. 
When did it happen?
    Mr. Spellecy. The information only comes to us after the 
application is completed. So we were testing up to the time 
that the system went live. And as far as we were concerned, 
everything that came to us we were able to process.
    Mr. Shimkus. Quickly.
    Mr. Lau. Our systems are not integrated with the main 
system. Our main interaction with it is key entry.
    Mr. Shimkus. And Mr. Slavitt, I would like the names by 
tomorrow you morning if you could do that. Finally, I want to 
go back to Mr. Campbell. ``See plans first'' feature that was 
just changed on the Web site. Who told you to do that?
    Ms. Campbell. I am sorry, could you repeat that? I didn't 
hear you.
    Mr. Shimkus. The ``see first plans.'' Remember the Web site 
failed. Part of the problem is people don't know what the cost 
of the plans are. You all made a change to say see plans first. 
Just reported yesterday by I think CBS. Who made that decision?
    Ms. Campbell. I don't know who made that.
    Mr. Shimkus. Can you give us the names?
    Ms. Campbell. We can get you a name.
    Mr. Shimkus. OK. Who made the decision that if you are 
younger than 50, you would be quoted a 25-year old health 
policy?
    Ms. Campbell. I don't have an answer for you, sir.
    Mr. Shimkus. Can you get us a name?
    Ms. Campbell. I can try. I can go back to my team to see if 
they have a name.
    Mr. Shimkus. OK. Who made the decision that if you are 
older than 50, you get quoted a 50-year old policy?
    Ms. Campbell. The same. I would have to go back to my team.
    Mr. Shimkus. Thank you, Mr. Chairman. I yield back.
    Mr. Upton. The gentleman's time has expired. The gentleman 
from New York, Mr. Engel.
    Mr. Engel. Thank you, Mr. Chairman. You know, it amazes me 
how our Republican colleagues are so concerned about the 
Affordable Health Care Act since they tried to defund it, they 
tried to kill it, they shut down the government because of it. 
Do you think there is maybe a little bit of politics here? 
Perhaps they should work with us to improve the Affordable 
Health Care Act instead of playing gotcha politics here this 
morning and trying to scare people into not enrolling into the 
Affordable Health Care Act.
    There will be plenty of time to figure out who is 
responsible for the various problems facing the exchanges. What 
is more important to me is that Americans would be able to 
access the numerous benefits found in the plans offered through 
the exchanges.
    So let me ask, I know it's been answered before, but I want 
to just have a specific answer, how soon will it take to 
correct these glitches so that people can have unfettered 
access to the Web site? I know things are improving. But how 
soon will it be, do you think, so that the average American can 
do healthcare.gov and get right in without any of the glitches? 
Ms. Campbell?
    Ms. Campbell. What I can tell you is that I have a team of 
people working around the clock trying to quickly get this 
resolved. As I said, there is improvements day over day. I 
cannot give you an exact date as to when it will be completely 
to satisfaction.
    Mr. Engel. How about a guess?
    Ms. Campbell. I would prefer not doing that. I don't like 
to raise expectations.
    Mr. Engel. Mr. Slavitt?
    Mr. Slavitt. We don't happen to control the pieces of the 
Web site that I believe you are referring to. We are committed 
to continuing to maintain the capabilities that we have built 
so far, and we are committed to helping resolve any new 
challenges that arise anywhere in the project that we get asked 
to do so.
    Mr. Engel. All right. Well, let me say this. I hope it is 
as soon as possible. Because I think there are numerous 
benefits to this law, and I want to see the American people 
utilize this law, because I happen to think it is a good law. I 
am proud that it came out of this committee. And I am proud 
that we had many, many months of deliberation before we passed 
it.
    Now, New York State, my home State, has also been 
experiencing some technical and capacity-related issues since 
October 1. But I think in New York it's a good example of 
what's possible when the Federal Government has a willing and 
enthusiastic partner in a State implementation. As of October 
23rd, 174,000 New Yorkers have completed their application. And 
New York continues to make improvements to its exchange Web 
site, including quadrupling its processing capacity. And by the 
end of the week, individuals should be able to look up coverage 
based on various providers and doctors. But I think that with 
my Republican colleagues, given their new found interest in 
seeing that the ACA is successfully implemented, I hope that I 
can see these same colleagues starting to champion the Medicaid 
expansion in their home States so that their most vulnerable 
citizens can access health care coverage and stop calling for 
continued repeal votes.
    Now, many of us who were on this committee the last time, 
and this was mentioned before, but I want to emphasize it, a 
major new health benefit was introduced, and that was Medicare 
part D. It is easy to forget now, but when that program was 
introduced, there were significant problems. The Web site was 
balky, headlines gave out bad information. When the program 
opened, pharmacists called it a nightmare, a disaster, and all 
kinds of things like that. So Ms. Campbell, am I correct that 
CGI did some work for Medicare part D in the early years of the 
program.
    Ms. Campbell. That is correct.
    Mr. Engel. Well, then you probably remember, like I do, 
that these problems were solved, and soon enough, Medicare part 
D became a popular and successful program. And by the way, we 
improved that program by closing the part D drug donut hole in 
the Affordable Care Act. So that's one important lesson to 
remember now, that even if a program gets off to a rocky start, 
it does not mean that we need to jump to conclusions about its 
long-term success. And that's why I'm confident that even with 
the Web site problems, the Affordable Care Act will be 
successful. And there is another lesson to be learned from that 
experience. All the members of this committee, Democrats and 
Republicans, with Medicare part D, worked together to fix the 
problems.
    Democrats did not sit on the sidelines and root for 
failure. We pitched in and helped. Republican committee members 
in particular insisted that we be patient with the part D 
glitches. And some of the members of this committee, and can I 
quote what they said at that time, the new benefit and its 
implementation are hardly perfect, but I hope that we can work 
together as we go through the implementation phase to find out 
what is wrong with the program, and if we can make some changes 
to fix it, let us do it on a bipartisan basis. It is too big of 
a program, it is too important to too many people not to do 
that.
    And another member said any time something is new there is 
going to be some glitches. It is of no value, as a matter of 
fact, it is a negative value and of questionable ethical value 
I think if people only spend their time criticizing the 
glitches that have been in the program. As with any program 
that occurs, whether it is a public or private program, 
criticizing it, standing on the outside is not good. So let me 
just say that let's take that same approach we had with 
Medicare part D. Let's work together on both sides of the aisle 
to improve this program and not play gotcha politics. Thank 
you, Mr. Chairman.
    Mr. Upton. Mr. Pitts.
    Mr. Pitts. Thank the chairman. A question to everyone, have 
any of you or your companies prepared memorandums or summaries 
explaining where the problems are with healthcare.gov? Ms. 
Campbell? And would you submit those for the record if you 
have?
    Ms. Campbell. If we are allowed to do so. We have to get 
permission under our contract with CMS.
    Mr. Pitts. But you have prepared summaries or memorandum?
    Ms. Campbell. I wouldn't call it memorandums. I would say 
we probably have, you know, just in the normal course we have 
provided information about what is happening on our system.
    Mr. Pitts. We would appreciate it if you would submit that 
to the committee. Mr. Slavitt.
    Mr. Slavitt. Nothing holistic like you are describing to my 
knowledge.
    Mr. Pitts. Ms. Spellecy?
    Mr. Spellecy. We don't have any involvement with 
healthcare.gov, so we do not.
    Mr. Pitts. Mr. Lau?
    Mr. Lau. Likewise.
    Mr. Pitts. All right. Just CGI and QSSI. The Washington 
Post reported this week, ``When the Web site went live October 
1st, it locked up shortly after midnight, as about 2,000 users 
attempted to complete the first step.'' Is this true? Ms. 
Campbell?
    Ms. Campbell. That is true.
    Mr. Pitts. Two thousand users?
    Ms. Campbell. I don't have the exact number. I just know 
that the system did have--thank you for that follow-up--I don't 
have the exact number. What I can tell you is that the system 
became overwhelmed.
    Mr. Pitts. So only 2,000, not millions the administration 
has claimed. So if it crashed with only 2,000 users, is volume 
really the issue, as the administration claims? Surely, the Web 
site was designed to handle more than 2,000 users. Ms. 
Campbell?
    Ms. Campbell. I was not--CGI is not responsible for the, as 
I call it, the front door. So I don't think I am in a position 
to answer that.
    Mr. Pitts. Who is responsible for the front door?
    Ms. Campbell. QSSI had the EIDM piece on the front end.
    Mr. Pitts. Mr. Slavitt.
    Mr. Slavitt. So what I can tell you is that the EIDM tool 
is, in fact, capable now of handling all the demands that are 
being placed on it from the system. I would point out that the 
EIDM tool is one part of a registration process that includes, 
I think, five vendors and multiple pieces of technology. So I 
can only speak to the EIDM tool and their functioning.
    Mr. Pitts. Now, I have listened to your testimony this 
morning. It sounded like that you think everything is A-OK. 
It's not OK. We've heard a variety of reasons as to the 
difficulties for why the site does not work. They include the 
inability to browse, required so many users to log in that the 
Web site was overwhelmed, poor coding, poor hardware, volume. 
Ms. Campbell, why doesn't healthcare.gov work properly?
    Ms. Campbell. Sir, if there was a silver bullet to answer 
to that question I would give it to you. It is a combination of 
a number of things. It is not just a component of what CGI is 
responsible for. It is the end-to-end aspect that is 
challenged. There is components across the entire system, 
across the ecosystem that can have an impact on the performance 
of the system.
    Mr. Pitts. Mr. Slavitt?
    Mr. Slavitt. We absolutely take accountability for those 
first days when our tool was part of the issue in terms of 
being able to handle all of the unexpected volume. And we 
absolutely will take accountability for helping in any way we 
can to help this project go forward. Fortunately, today, the 
data services hub and EIDM tool are performing well.
    Mr. Pitts. Now, you were here on September 10th when we 
conducted the hearing in the Health Subcommittee. Iexpressed my 
skepticism at the time. Forty days later we have seen the 
exchange rollout, nothing short of disastrous. I would like to 
ask again, CGI and QSSI, why were we told everything was OK a 
few weeks before one of the biggest IT disasters in government 
history? Ms. Campbell?
    Ms. Campbell. Once again, sir, the portion of the system 
that CGI was responsible for is where we had visibility.
    Mr. Pitts. Were you not aware of the problems consumers 
would face before October 1st?
    Ms. Campbell. We were not part of the end-to-end visibility 
throughout the system to understand exactly what would happen.
    Mr. Pitts. Mr. Slavitt?
    Mr. Slavitt. As I remember correctly, at that hearing there 
was a lot of focus on whether or not the data services hub 
would be ready. I think we were informed to be prepared to 
answer to this committee and to your subcommittee around those 
questions. We mentioned on that date that we thought the data 
services hub would be ready. It indeed was ready. I don't think 
we had visibility into the work of other----
    Mr. Pitts. Did you express any concerns about readiness to 
CMS?
    Mr. Slavitt. We expressed all of the concerns and risks 
that we saw based on the testing that we did see and didn't see 
that was unrelated to our work. Our work, as a matter of fact, 
we felt was on track, and we expressed that to them as well.
    Mr. Pitts. Ms. Campbell, my time is up. Would you submit 
those memorandum communications to us within 24 hours, please?
    Ms. Campbell. Once again, under our contract with CMS, if 
we have permission to do so. They are not memorandums. I am not 
even--I would have to go back and see what we do have for you.
    Mr. Pitts. Thank you, Mr. Chairman. Yield back.
    Mr. Upton. Mr. Green.
    Mr. Green. Thank you, Mr. Chairman. Some of us have been on 
the committee a good while. I don't know if any of you had 
experience, because we also had problems in 2003 when we 
created the prescription drug program. And this committee did 
that, and with much fewer participants.
    And so what we are seeing now sounds like we have a 
success, we just don't have the computer to deal with it. I 
support the Affordable Care Act, because I know how dependable 
and affordable insurance coverage is to our families in our 
districts. And the stories I have heard from people who are 
excited to sign up for the coverage remind me of why this law 
is important. Thousands of people in our district have been 
denied coverage in the past because of preexisting conditions, 
or paid for expensive coverage they couldn't rely on.
    That's why we need the Affordable Care Act's new benefits 
and protections, and that's why it's so frustrating that 
healthcare.gov has not worked the way we were promised, 
especially after hearing such optimistic testimony from these 
organizations in September. Ms. Campbell, and I know you have 
been asked this before, but repetition helps us learn, were you 
too optimistic in your prediction before our committee on 
October 1st?
    Ms. Campbell. I don't believe so, sir.
    Mr. Green. Well, what happened then? Because obviously you 
were optimistic, but in the last, you know, 23 days it's been a 
problem.
    Ms. Campbell. You asked about September 10th.
    Mr. Green. Yes.
    Ms. Campbell. September 10th we were quite optimistic that 
our portion of the system would work effectively when the 
system went live.
    Mr. Green. Well, again, it may have been too optimistic. 
Mr. Slavitt, Mr. Lau, and Ms. Spellecy, were you too optimistic 
in your earlier testimony before the committee?
    Mr. Slavitt. Congressman, we believe we have been prudent 
and cautious all the way through this project. We did express 
confidence to the subcommittee on September 10th that the data 
services hub would be ready on October 1st, and it was.
    Mr. Spellecy. No, sir, our portion of the system has worked 
as we testified it would on September 10th.
    Mr. Lau. And the paper processing capability has been up 
and running since October 1st as well.
    Mr. Green. Well, obviously there is a problem, and it's not 
like an ostrich, we can bury our head in the sand. We have to 
deal with it. Are each of you all willing to work to make sure 
that we fix this problem? Because if you don't accept there is 
a problem, then it's hard to fix it.
    Ms. Campbell. So sir, we do accept that there are 
challenges. There is no question about there are problems. And 
we are working together to solve those problems.
    Mr. Green. Well, Mr. Chairman, hopefully we will follow up 
in another month or so so that we can see what's happening and 
so we can do our oversight like we are supposed to do. Mr. 
Slavitt, one problem that many people have identified is QSSI's 
registration and access management tool for the site, the 
gateway to setting up an account. Was this system overwhelmed 
by volume when healthcare.com went live?
    Mr. Slavitt. So let me explain what happened and where 
things stand today with the registration tool. First of all, 
the registration tool utilizes leading commercial software. It 
is widely deployed, and it works in other settings across CMS.
    Mr. Green. I only have about a minute and 48 seconds left. 
So can you tell me was the system overwhelmed?
    Mr. Slavitt. The registration system was overwhelmed with 
concurrent users.
    Mr. Green. OK. And have those problems been fixed?
    Mr. Slavitt. We have expanded the capacity greatly in the 
registration tool since then, yes.
    Mr. Green. OK. Are there any other problems with the data 
hub or the registration gateway managed by QSSI that you are 
working to fix?
    Mr. Slavitt. I think problems come up, discrete problems 
come up routinely. Our team has early warning systems. They 
address those problems. And there is none that I am aware of 
outstanding.
    Mr. Green. Ms. Campbell, CGI is responsible for 
healthcare.gov Web site. Now that the registration gateway has 
been fixed, we hope, are you encountering new problems?
    Ms. Campbell. We are. We are looking at those problems and 
making those corrections as they come up.
    Mr. Green. And can you give us a background on those 
problems? If you would, give it to us in writing. And I know 
there is some question that you said that you all have a 
privacy agreement with HHS. I think we can take care of that, 
if we have to, on making sure this committee gets the 
information. Do you expect to continue to make improvements and 
fix problems over the coming weeks?
    Ms. Campbell. That is our commitment, sir.
    Mr. Green. Well, as you know, we are all impatient. Some of 
us on our side who believe in the Affordable Care Act and 
didn't start from day one trying to repeal it, want it to work. 
And we want to make sure, and I hope we have a majority of 
support for if we need do things to fix it, that it will get 
done. But I look forward to continuing to see you. I don't know 
if we ought to put a parking space out in front, Mr. Chair. But 
until we get this fixed, we might need to do that. And I yield 
back my time.
    Mr. Upton. Mr. Walden.
    Mr. Walden. Thank you very much, Mr. Chairman. I want to 
thank all the panelists for their testimony today. And, you 
know, I was in small business for 22 years in the radio 
business. We dealt with software upgrades and changes in 
systems and all that. And I am feeling a lot of those emotions 
come back today, because when we would put a new system in, 
there would be multiple vendors, and every one of them's system 
operated perfectly except when it all came together. And then 
they all pointed fingers at somebody else. And I am feeling a 
lot of that today.
    Only as a person who represents three-quarters of a million 
people, and $500 million on the line, it is why we are here, is 
to figure out what went wrong. And I would just like to know on 
this whole end-to-end thing, because it sounds like each of you 
has said that you designed your system and tested it to the 
specifications you were given by CMS. Is that accurate? Yes or 
no. Ms. Campbell?
    Ms. Campbell. That is correct.
    Mr. Walden. Mr. Slavitt?
    Mr. Slavitt. Yes.
    Mr. Walden. Ms. Spellecy?
    Mr. Spellecy. Yes.
    Mr. Lau. Our systems are not integrated.
    Mr. Walden. All right. So you get to sit there and not 
quite get as much opportunity here today. But I want to go then 
to the first two. If you designed it to CMS's specifications, 
and you tested it and felt it was all good to go, where did 
this break down? In most systems you operate in, do you do end-
to-end tests prior to the rollout? And if so, when would you 
have preferred that end-to-end testing have been done by CMS? 
Ms. Campbell?
    Ms. Campbell. Let's see if I can get all of those questions 
answered. So----
    Mr. Walden. I'll make it simple. When should the end-of-end 
test been started?
    Ms. Campbell. There's never enough testing for sure.
    Mr. Walden. When did it occur?
    Ms. Campbell. It occurred the last 2 weeks in September.
    Mr. Walden. So you think that's an adequate timeframe for a 
system this mammoth with one-sixth of the Nation's economy and 
millions of people coming into it. Did that give your company 
adequate time to make sure everything was integrated and going 
to work?
    Ms. Campbell. It would have been better to have more time.
    Mr. Walden. And how much more time would you have preferred 
to have?
    Ms. Campbell. I don't have an exact date.
    Mr. Walden. Did you make any recommendations to CMS about 
the need for end-to-end testing to occur sooner than the last 2 
weeks before this whole thing went live?
    Ms. Campbell. I did not, but I could check----
    Mr. Walden. Did anyone in your company make a 
recommendation?
    Ms. Campbell. I'd have to go back and check.
    Mr. Walden. I'd like to know that.
    Mr. Slavitt?
    Mr. Slavitt. Yes, ideally integrated testing would have 
occurred well before that date.
    Mr. Walden. How far in advance of a major Web site coming 
on line?
    Mr. Slavitt. Well, with enough time to correct flaws before 
they began. I couldn't give you an exact date.
    Mr. Walden. Do you do any work for anybody else outside of 
CMS where end-to-end testing is required?
    Mr. Slavitt. Yes.
    Mr. Walden. And in those situations, are those commercial 
situations or government?
    Mr. Slavitt. Both.
    Mr. Walden. And in those situations, what's the standard 
protocol; what's the recommended industry standard for end-to-
end tests before rolling up a major Web site like this?
    Mr. Slavitt. Months would be nice.
    Mr. Walden. Months would be nice.
    Ms. Campbell, is that accurate for your company as well?
    Ms. Campbell. That's correct.
    Mr. Walden. And you were given 2 weeks, and yet months 
would have been nice. Is that what--I mean, if you were to do a 
contract for a system like this, what would you--what would you 
ask for in terms of doing the end-to-end test? Do you have 
standard industry recommendations?
    Ms. Campbell. Sir, we weren't given 2 weeks. That was CMS 
who decided to conduct the test in that 2-week time period. It 
wasn't--it wasn't ourselves doing the end-to-end test.
    Mr. Walden. Well, I think that's correct, but----
    Ms. Campbell. OK.
    Mr. Walden [continuing]. As a vendor, and you want your 
company to come out of this looking good, not getting to spend 
your time with us, as much as I'm sure you're enjoying it, but 
what should have the industry standard called for here? Have 
you ever undertaken bringing up a Web site, being part of 
something this big affecting this many people's lives?
    Ms. Campbell. I would say----
    Mr. Walden. What you know, have you ever done one this big?
    Ms. Campbell. Of this complexity.
    Mr. Walden. Correct.
    Ms. Campbell. I testified that this is by far, I think, the 
most complex in our country for a very--in a very long time.
    Mr. Walden. And I think you're right, and that's what I'm 
trying to get at. Where should the end-to-end test have been 
done? If you could have had--if your company could have made 
that decision, what would you have made a recommendation for 
the complete integrated end-to-end testing to begin; when 
should that have started?
    Ms. Campbell. It should have weeks--it would have had--we 
would have loved to have had months to be able to do this.
    Mr. Walden. Months. And that's the same--see, I was hearing 
from people of the outside as this all was coming together. I 
chair the subcommittee on Communications and Technology. As I 
would reach out and just ask, how do you think this is going to 
work, this is exactly how outside people predicted it would 
turn out, and here we are today.
    This isn't a partisan issue about health care or not. 
People expect this thing to work. I mean, I went through this 
in Oregon with our DMV. Department of Motor Vehicles spent I 
think it was 50 or $60 million back in the late 1980s and 
finally scrapped the whole system because it was a failure. We 
said stop.
    I don't want this to be a failure, but I don't want--I want 
you-all to get it fixed, but I'm very disturbed that CMS did 
not give you the adequate time that would be an industry 
standard to test this before every American said, OK, they tell 
me it's ready, I'm ready to go, because you-all came here and 
told us and, through us, the American people it was good to go, 
and it wasn't.
    Mr. Upton. Ms. DeGette.
    Ms. DeGette. Thank you very much, Mr. Chairman.
    Ms. Campbell, you testified before the House subcommittee 
on September 10th, correct?
    Ms. Campbell. That's correct.
    Ms. DeGette. And at that committee, at that hearing you 
testified that CGI Federal was confident that it would deliver 
the functionality that CMS directed qualified individuals to 
begin enrolling in coverage, correct?
    Ms. Campbell. That's correct.
    Ms. DeGette. And in your written testimony of today, you 
also testified that CGM and others developed the design, and it 
passed the eight required technical reviews before going live 
on October 1st, correct?
    Ms. Campbell. That is correct.
    Ms. DeGette. And either at that hearing on September 10th 
or until just now, you have never testified that there was 
insufficient integrated testing to know whether the exchange 
was going to work, correct?
    Ms. Campbell. There were----
    Ms. DeGette. I never saw any of your testimony that you 
ever said in those hearings that more testing was needed, and I 
was there.
    Ms. Campbell. So, is your question whether I testified if 
testing was needed?
    Ms. DeGette. That's correct. Did you ever tell this 
committee that more testing was needed to make sure it would 
work?
    Ms. Campbell. I don't believe I--someone asked me that 
question.
    Ms. DeGette. Thank you.
    Now, Mr. Slavitt--I'm sorry, I have very little time.
    Mr. Slavitt, you were our only witness who was not here on 
September 10th, but Mr. Finkel from your organization was, and 
on September 10th, Mr. Finkel testified, quote, ``Our delivery 
milestones for data service hub completion are being met on 
time. We expect CMS data service hub will be ready as planned 
on October 1st,'' correct?
    Mr. Slavitt. I believe that's correct.
    Ms. DeGette. And in your written testimony today, you 
echoed that QSSI completed code for data services hub in June, 
that you did the testing, there was an independent security 
risk assessment completed on August 30; is that correct?
    Mr. Slavitt. Correct.
    Ms. DeGette. And today in your testimony you said that you 
shared the problems that you identified with CMS. Were those 
problems shared after the September 10th hearing then?
    Mr. Slavitt. Yes.
    Ms. DeGette. OK. And I would request that you would 
supplement your testimony today by telling us the problems that 
you identified to CMS. Will you please do that for us within 20 
days?
    Mr. Slavitt. Be happy to get that to you.
    Ms. DeGette. Thank you very much.
    Now, did your organization do testing with a number of 200 
people, and that testing failed? That's what we've been seeing 
in the press accounts.
    Mr. Slavitt. I'm not familiar with all of the accounts from 
the press. What I think you're referring to is the testing that 
occurred in the final days leading up to the October 1st 
launch.
    Ms. DeGette. And was that done with only 200 people?
    Mr. Slavitt. I know that that was a test--my understanding 
is that that was a test that failed once the systems began to 
be finally put together for the first time.
    Ms. DeGette. OK. But were there tests done with more people 
coming into it as well?
    Mr. Slavitt. Yes.
    Ms. DeGette. OK. Now, there's one more thing I want to talk 
about in the time I have, and that's this issue of privacy, 
because in my opening statement I said that I was really 
touched by the people on the other side of the aisle trying to 
work with us, but when I heard my friend and colleague Mr. 
Barton's statements, and I saw his slide, which fortunately I 
got a copy of since I couldn't see it, I realized that, in 
fact, a lot of people don't want the Affordable Care Act to 
work, and they are raising all of these specters. And this 
privacy issue is a specter, because Mr. Barton's questions--
sorry he's not still here, because his questions came from an 
article in the Weekly Standard where there apparently is a line 
of code which says--and it's not visible to the user. It's 
somehow in there. It says, you have no reasonable expectation 
of privacy regarding any communication or data transiting or 
stored on this information system.
    And so, is this sort of some standard boilerplate, but Mr. 
Barton is assuming this violates HIPAA, but it would only 
violate HIPAA if people were putting their personal medical 
information into the application. And so I want to ask a couple 
of questions about that.
    As I understand it, you don't need any medical information 
to enroll people other than the question, do you smoke; is that 
correct, Ms. Campbell?
    Ms. Campbell. That is correct.
    Ms. DeGette. Is that correct, Mr. Slavitt?
    Mr. Slavitt. It's my understanding.
    Ms. DeGette. And is that correct, Ms. Spellecy?
    Ms. Spellecy. We wouldn't have visibility into that.
    Ms. DeGette. And what about you, Mr. Lau?
    Mr. Lau. That is correct.
    Ms. DeGette. So people aren't putting confidential medical 
information onto the Internet, and so, therefore, they wouldn't 
be violating HIPAA. And I am disappointed that my friend would 
go down this road, and I would ask unanimous consent to put 
that article in the record, Mr. Chairman.
    Mr. Upton. Without objection.
    [The information appears at the conclusion of the hearing.]
    Ms. DeGette. I have one last question. When can these 
exchanges be ready, and when can people get on them with 
reliability? Ms. Campbell?
    Ms. Campbell. As soon as possible. We're working as hard as 
we can.
    Ms. DeGette. Mr. Slavitt?
    Mr. Slavitt. Sure as our systems are currently ready. We 
are doing everything we can to maintain them, and we'll do 
everything we can to assist.
    Ms. DeGette. I just want to say, Mr. Chairman, my 
healthcare aide went onto the Virginia--to the national 
exchange, who lives in Virginia, last night. She was able to 
register. She was able to research plans. I hope this happens 
for all the rest of Americans.
    Mr. Waxman. Gentlelady yield?
    Ms. DeGette. I have no time left.
    Mr. Upton. The gentlelady----
    Mr. Waxman. The gentlelady yield. I just went on my iPad, 
and I was able to access the choices of plans to my 
constituents in California in the 5 or 10 minutes period.
    Mr. Upton. Gentlelady's time is expired.
    Mr. Terry.
    Mr. Terry. Thank you, Mr. Chairman.
    And for Ms. Campbell on down, first two questions are more 
like yes-and-no questions.
    Did you or anyone from your company consult with or discuss 
today's testimony and your answers to potential questions with 
anyone from CMS to prepare for this hearing? Ms. Campbell.
    Ms. Campbell. We talked to CMS about our testimony, but not 
any details at all.
    Mr. Terry. And who did you discuss that with?
    Ms. Campbell. I don't recall. I didn't discuss it with 
anyone myself. I'll have to find out.
    Mr. Terry. Your people. So there's always intermediaries.
    Mr. Slavitt.
    Mr. Slavitt. No.
    Mr. Terry. Ms. Spellecy.
    Ms. Spellecy. No, we did not have specific conversations.
    Mr. Terry. Lau.
    Mr. Lau. No.
    Mr. Terry. OK. That's good.
    Did your company--again, from Ms. Campbell on to my right. 
Did your company or any of your subs use any people who work 
outside of the United States to assist in your respective parts 
or your contract with CMS, otherwise known as outsourcing?
    Ms. Campbell. No. We are very proud of the fact that we 
created jobs all in the United States.
    Mr. Terry. All of them?
    Ms. Campbell. All of them.
    Mr. Terry. OK.
    Mr. Slavitt. No.
    Ms. Spellecy. No.
    Mr. Lau. No, sir.
    Mr. Terry. Very good.
    Now, I'm concerned about the front door of this system, of 
this Web site. Now, is this system able to track how many 
people are accessing what we call the front door? Ms. Campbell?
    Ms. Campbell. We're not responsible for the front door.
    Mr. Terry. You know, it's very confusing, because in your 
testimony on the 10th, you did suggest--and somehow that piece 
of paper is missing right now--in your testimony that you 
provided that you said eligibility and enrollment will serve as 
the front doors for consumers to fill out the online health 
insurance application as one of the responsibilities. So I'm 
confused by that.
    Ms. Campbell. No, I understand. Sir, we're the face of--if 
you think about a house, we're the outside structure, but the 
front door that you go into----
    Mr. Terry. This is the siding that was put up, huh?
    Ms. Campbell. I don't know about that. My dad did 
construction all his life. He had a small business construction 
company, so----
    Mr. Terry. All right. Well----
    Ms. Campbell. I kind of think in those terms quite 
frequently.
    Mr. Terry. So then all of the front face accessing is Mr. 
Slavitt's world?
    Ms. Campbell. Ask the question again.
    Mr. Terry. Mr. Slavitt, are you responsible for the front 
door?
    Mr. Slavitt. Sir, I think the front door is a bit of a term 
of art. We supply a tool.
    Mr. Terry. All right. Let me interrupt you then because I 
have very little time. I'm not trying to be rude, but what I'm 
trying to get to is which of you was responsible for the 
application that allows CMS to know how many people are 
actually accessing this Web site? Is that you, Mr. Slavitt?
    Mr. Slavitt. So we have access to the data which shows how 
many people are coming through the EIDM registration tool.
    Mr. Terry. All right. And under that data that's then 
compiled of how many people, can you-all break it down to say 
how many people from Nebraska--since we don't have a State 
exchange like California does and have to go to the national 
one, can you determine how many people from Nebraska have tried 
to access?
    Mr. Slavitt. I don't know.
    Mr. Terry. Do you know how many people have tried to access 
on any particular day? Do you have that data, Mr. Slavitt?
    Mr. Slavitt. I don't have that as I sit here.
    Mr. Terry. Does your company have that?
    Mr. Slavitt. Yes, we do.
    Mr. Terry. And are you allowed to share that data with us?
    Mr. Slavitt. I will follow up right away after this.
    Mr. Terry. So, you are able to give us that data?
    Mr. Slavitt. Yes. We'll follow up and see if we can do 
that.
    Mr. Terry. Has CMS made any instructions to you regarding 
your ability to provide us the data of how many people have 
tried to access through the front door?
    Mr. Slavitt. No, not to me and not to my knowledge.
    Mr. Terry. All right. And, Ms. Campbell, do you have access 
to the information of how many people have tried to access the 
Web site?
    Ms. Campbell. We have some aspect of that data as well.
    Mr. Terry. Has CMS instructed you not to give that to--
information to us?
    Ms. Campbell. We have under our CMS contract, we have to 
have permission from CMS first to provide that information.
    Mr. Terry. OK. So, has CMS allowed you to provide us that 
information yet?
    Ms. Campbell. No, that is----
    Mr. Terry. So if I ask you, you will deny or say that you 
can't answer that question even though we're a panel of Members 
of Congress----
    Ms. Campbell. I would say----
    Mr. Terry [continuing]. And you're under oath?
    Ms. Campbell [continuing]. That based on our contract that 
we have with CMS, we'd have to get permission.
    Mr. Terry. Mr. Slavitt, are you under the same contractual 
obligation with CMS?
    Mr. Slavitt. I actually don't know, but we'll check into 
it.
    Mr. Terry. Will you still provide us the information 
because you're under oath and we've asked you for that 
information?
    Mr. Slavitt. If we can, we certainly will.
    Mr. Terry. That was a good nonanswer.
    Mr. Upton. Gentleman's time is expired.
    I'll just remind colleagues that often the question is the 
order of seniority when the gavel falls on each side. So with 
that, I recognize Mr. Butterfield.
    Mr. Butterfield. Thank you very much, Mr. Chairman.
    Thank all of you for your testimony today. It's been very 
enlightening. I will associate myself with the comments made by 
my colleagues throughout this hearing.
    Let me tell you I represent, like Mr. Hall said a few 
minutes ago, 700,000 people down in North Carolina. More than 
100,000 of those have no insurance whatsoever. They are eager 
to get enrolled, and we've got to get this thing right, and 
soon.
    Ms. Campbell, let me start with you. On Monday, Congressman 
Darrell Issa, the chairman of the House Oversight Committee, 
wrote a letter, which was publicly released, accusing the White 
House of injecting politics into decisions about the Web site. 
The reason I want to ask you about this is because Chairman 
Issa says that the source for his accusation is you and your 
company, CGI. According to Chairman Issa's press release, the 
White House made, quote, ``the political decision to mask the 
sticker shock of Obamacare to the American people.'' He is 
talking about the decision by HHS to disable to the anonymous 
shopper function on healthcare.gov Web site, but he suggests 
this decision was made instead by the White House for political 
reasons. Chairman Issa wrote this letter after receiving a 
briefing from CGI on last week.
    According to Mr. Issa's letter, quote, ``CGI officials told 
committee staff that CMS officials and employees constantly 
mention the White House when discussing matters with CGI. 
Although CGI officials were not able to identify who within the 
administration made the decision to disable the anonymous 
shopping feature, evidence is mounting''--and this is Mr. Issa 
speaking--``evidence is mounting that political considerations 
motivated the decision.''
    I'd like to ask you a few questions about this. First, did 
CGI provide a briefing to Mr. Issa's staff last week?
    Ms. Campbell. I was not there myself, but I believe that 
that meeting did occur.
    Mr. Butterfield. The meeting did take place, to the best of 
your knowledge.
    Ms. Campbell. I think it did, but I'd have to confirm. I'm 
not close enough to the situation.
    Mr. Butterfield. Do you know how many from your team 
participated in that meeting?
    Ms. Campbell. I do not.
    Mr. Butterfield. You did not participate?
    Ms. Campbell. I did not.
    Mr. Butterfield. Who do you answer to within your 
organization?
    Ms. Campbell. The president of CGI Federal, Donna Ryan.
    Mr. Butterfield. And do you know if Mr. Ryan participated 
in that discussion?
    Ms. Campbell. I don't believe so, but I don't know for 
sure.
    Mr. Butterfield. Let me ask you this just directly. Are Mr. 
Issa's allegations correct? Did the White House ever order your 
company, for political reasons, to mask the sticker shock of 
Obamacare by disabling this anonymous shopper function?
    Ms. Campbell. So let me answer two things. One, I don't 
believe that members of CGI actually made those statements 
direct in that manner. I think they may have been taken out of 
context, but I'd have to get back to you with confirmation of 
that. And to my knowledge, no, the White House has not given us 
direct instructions.
    Mr. Butterfield. I would like to get that information from 
you. It's a very serious allegation for the chairman of an 
oversight committee to make such a callous accusation.
    Based on the meeting with your company last week, Mr. 
Issa's letter wrote that, quote, ``evidence is mounting that 
political considerations motivated this decision.'' Do you have 
any evidence--and you just alluded to it--do you have any 
evidence that political considerations motivated this decision?
    Ms. Campbell. I'm not privy to anything of that sort.
    Mr. Butterfield. Do you have any knowledge of any White 
House role in specific decisions relating to the Web site?
    Ms. Campbell. Not to my knowledge.
    Mr. Butterfield. And are you aware of any political 
intervention by this White House relating to your work on 
healthcare.gov?
    Ms. Campbell. I am not.
    Mr. Butterfield. Thank you. You've been very kind.
    Mr. Chairman, we need to work together to make this program 
function efficiently and effectively, and I urge my colleagues 
to work with us, and let's work with these witnesses to get it 
right.
    Thank you. I yield back.
    Mr. Upton. Mr. Rogers.
    Mr. Rogers. Thank you. Thank you for being here today. I 
have a series of quick questions I'd like to get to.
    Ms. Campbell, how many change orders have you received by 
estimate and either formally or informally leading up to the 
launch in what function that they wanted you to perform?
    Ms. Campbell. We've received approximately eight change 
orders.
    Mr. Rogers. Eight change orders. When was the most recent?
    Ms. Campbell. I believe as recent as August of this year.
    Mr. Rogers. OK. That's good.
    Mr. Slavitt?
    Mr. Slavitt. I don't know the answer to that, but I think 
it was a low number, if any.
    Mr. Rogers. What----
    Mr. Slavitt. I don't know the answer.
    Mr. Rogers. OK. Are you both making changes now with code 
in order to fix any of the so-called glitches or nonperformance 
issues? Ms. Campbell, yes or no?
    Ms. Campbell. That would be yes.
    Mr. Rogers. Mr. Slavitt?
    Mr. Slavitt. Yes. We make modifications along the way, 
sure.
    Mr. Rogers. Great.
    And how many organizational boundaries between the piece of 
information traveling from the United States Government to the 
Web portal--how many boundaries, how many organizational 
boundaries, including the States and their access to 
information, does that piece of information cross?
    Ms. Campbell. I'd have to get back to you with that answer.
    Mr. Rogers. Give me an estimate, large number.
    Ms. Campbell. When you say ``organizational boundaries,'' 
are you talking about like Homeland Security, IRS----
    Mr. Rogers. IRS, veterans, you have States that have access 
to other--cross other boundaries to get pieces of information, 
pretty significant number.
    Ms. Campbell. I'd have to get back.
    Mr. Rogers. Please get back for the record.
    Mr. Slavitt.
    Mr. Slavitt. All that I'm familiar with is the data that 
passes through the data services hub comes from a trusted data 
source such as a government entity, passes through the data 
services hub to those who request the query.
    Mr. Rogers. That concerns me a little bit that either one 
of you don't know the answer to that.
    When you did a security verification, and by an independent 
contractor, I assume, on August 30th, Ms. Campbell, did you do 
the same?
    Ms. Campbell. That's correct.
    Mr. Rogers. And was that an end-to-end system test that 
crossed every organizational boundary, or was that by the 
segment of which you controlled in the process, your segment of 
the contract? Ms. Campbell?
    Ms. Campbell. I would have to--I would have to go back and 
find out exactly, but I believe it was from wherever our system 
touched other parts of secure systems within the Federal 
Government.
    Mr. Rogers. Mr. Slavitt?
    So you don't know the answer oh that question.
    Mr. Slavitt?
    Mr. Slavitt. We had a complete test that was done to meet 
the standards of, I believe, NFDI. Our systems, as a matter of 
course, don't hold data; they just transport the data through 
it.
    Mr. Rogers. Sure. And you're familiar with the various 
levels of cyber weaknesses in any system, right, the boundary 
being the weakest point?
    Mr. Slavitt. Yes.
    Mr. Rogers. And so when you say you don't hold information, 
that is a very low standard in order to protect information. I 
don't have to be where it's held in order to obtain it. You're 
aware of that.
    Mr. Slavitt. Correct.
    Mr. Rogers. All right. So, what about--what are you doing 
for security on advanced persistent threats, and how is that 
checked, who is your independent contractor, did you red-team 
any of this in the last weeks before the launch of your system?
    Mr. Slavitt. I'm not familiar, but I'll--although I can 
certainly check about whether there were any security concerns. 
None were brought to my attention or made available. I believe 
it was MITRE Corporation who provided the independent security 
risk assessment.
    Mr. Rogers. And who certifies that your system on a daily 
basis is secure from external threat, cyber threat?
    Mr. Slavitt. Let me get back to you. I don't know the 
exact----
    Mr. Rogers. Is that CMS, or is it a private contractor? 
Would--somebody certifies that you're doing this. This is----
    Mr. Slavitt. Yes. Let me get back to you. I'm not----
    Mr. Rogers. Are you familiar that there is an ongoing 
security check into your particular system?
    Mr. Slavitt. I believe there is.
    Mr. Rogers. But you don't know?
    Mr. Slavitt. I want to get back to you on the details.
    Mr. Rogers. But you don't know the answer sitting here 
today.
    Mr. Slavitt. I don't know----
    Mr. Terry. Ms. Campbell, do you know the answer to that 
question?
    Ms. Campbell. Similar answer. MITRE was the independent 
security testing contractor.
    Mr. Rogers. And how about an ongoing basis? Who certifies 
that it is as secure as a system like this?
    Ms. Campbell. CMS has a SSO.
    Mr. Rogers. So, it's CMS secures their own system, or at 
least certifies that their own system is secure; is that 
correct?
    Ms. Campbell. With the support of MITRE is my 
understanding.
    Mr. Rogers. I understand that, but that's to your 
understanding.
    Ms. Campbell. That is correct.
    Mr. Rogers. So, the information flows from these systems, 
it goes to a data hub. You have designed the systems to 
transport information; is that correct?
    Mr. Slavitt. Right. Yes.
    Mr. Rogers. That's what your design is. Ms. Campbell, your 
infrastructure is designed to take a piece of information from 
the hub and get it to an end user, which would be whatever 
navigator is in front of that screen; is that correct, that you 
built the infrastructure for that to happen?
    Ms. Campbell. That's correct. A portion of it, yes, that's 
correct.
    Mr. Rogers. And, Mr. Slavitt, you wrote the code for that 
to happen.
    Mr. Slavitt. For the data hub, yes.
    Mr. Rogers. OK. So, in less than 2 weeks, you're telling me 
that you are constantly changing code, you're introducing new 
code, you can't quite tell me how that's secure. In any system 
that I have ever seen, 2 months for a functionality test is not 
appropriate, let alone a security check on this information.
    I am more nervous today than I was when I got here. I am 
shocked, shocked that on August 30th you get an independent 
check that says the system is fine, and you have introduced new 
code to that system probably daily, probably in the terms of 
hundreds of thousands of lines, at least tens of thousands of 
lines of new code, which creates new vulnerabilities in the 
system, and you don't even know the answer if these things are 
end-to-end security tested, number one; and number two, you're 
not even sure if it's in your piece is end-to-end ongoing 
security tested.
    I have to tell you, Mr. Chairman, this is a significant 
event, and you don't have to like Obamacare; you can hate it, 
you can love it, you can't wait to get in it. You cannot expose 
this much information with this low threshold of security in a 
day when there is 1.5 million people ripped off every day in 
cybersecurity. Were the folks who are systems administrators 
and people who are sitting in front of those portals, are they 
trained in spear phishing, one of the most basic levels of 
security protection; do you know, Ms. Campbell?
    Ms. Campbell. Sir, I have to push back a little in terms 
of, you know, to give the impression that CGI is putting willy-
nilly code on a daily basis is incorrect.
    Mr. Rogers. Ma'am, you know better than that.
    Ms. Campbell. We have a bill process.
    Mr. Rogers. I am not suggesting that. You don't have to 
have willy-nilly----
    Ms. Campbell. We have a bill process. We have a systematic 
process----
    Mr. Rogers. Ma'am, I am reclaiming my time. This makes me 
more nervous. You don't have to have willy-nilly code. You can 
have the best code in the world. Every cybersecurity expert 
understands that when you introduce new code, it has other 
implications on a broader system even beyond your borders. 
That's what we're worried. We're not worried that you're 
putting bad code in. We're worried that you may be 
accidentally, as we know, with the functionality of your system 
doesn't work, it would be only logical to conclude if the 
functionality of the system doesn't work when it all came 
together, you cannot compose security.
    Mr. Upton. Gentleman's time is expired.
    Mr. Rogers. I need the answers to all of those questions by 
9 a.m. Tomorrow.
    Mr. Upton. Gentlelady from Illinois Ms. Schakowsky.
    Ms. Schakowsky. Ms. Campbell, I want to clarify one key 
point. Did CGI system crash in a test with only a few hundred 
people on the days before October 1st?
    Ms. Campbell. So, there was an end-to-end test that 
occurred, and the system did crash with about that number. I 
don't have the exact number, but it was part of the end-to-end 
test.
    Ms. Schakowsky. Thank you.
    I wanted to emphasize that the Web site has to be fixed, 
but it is not, as the Republicans contend, a fatal flaw, a 
contention that ignores millions of people who have already 
benefited, and the tens of millions of people that will benefit 
from the new coverage. In the first 3 weeks, there have been 
over 19 million unique visits to healthcare.gov and almost a 
half a million applications submitted nationwide, and some 
people are getting through.
    Susan, a constituent of mine wrote, ``Thank you, I was able 
to successfully access the Web site yesterday. I am very 
pleased that the cost of my coverage will be dropping 
approximately $5,000 a year when compared to my current 
individual coverage, ironically the same provider, Blue Cross 
Blue Shield.'' Or David, who said, ``Seven years ago I was 
diagnosed with melanoma. Last year I spent $11,000 on health 
care. ACA will save me $4,000 per year. I need this program. I 
know this because if I had no health insurance, I would be 
dead.''
    Every day since the passage of Obamacare, the Republicans 
have undertaken obstructionist efforts, including shutting down 
the government, that amount to congressional malpractice. And I 
want to flash back to when the Bush administration was 
implementing Medicare Part D, a law which many Democrats 
opposed because of the donut hole, which, of course, Obamacare 
will close.
    Secretary Leavitt--Secretary Leavitt said at the time--
well, first of all, it launched November 8th, 2005, for 
enrollment. January 1st the program enrolled--began actually 
signing people up. February 22nd, Secretary Lovett said, quote, 
``We are now at the 53rd day since the implementation of 
Medicare prescription drug coverage. After reviewing the 
numbers and experiences to date, I can report that we are 
seeing solid progress. We continue to work aggressively to 
solve the problems that inevitably occur in transitions this 
size.''
    That was Medicare Part D. And so, despite the glitches in 
Medicare Part D, Democrats worked with Republicans to ensure 
that the law was a success and that all Medicare beneficiaries 
have the information necessary to take advantage of Medicare 
Part D. In fact, Chairman--in fact, I joined with Chairman Fred 
Upton to request additional funding for community-based 
organizations to help seniors actually enroll in Medicare Part 
D, and I have that letter right here.
    So, unfortunately, the Republicans have actually taken 
steps to ensure that consumers do not know of the benefits and 
protections provided by Obamacare. In June, Senate majority 
leader Mitch McConnell, Senate Minority whip John Cornyn sent 
letters to major sports leagues warning them not to help 
consumers be educated about the benefits of Obamacare.
    And after Medicare Part D, Democrats like me hosted events 
in order to boost awareness and facilitate enrollment. This has 
not happened with Obamacare. Several Republicans Members have 
even stated they will not help constituents who call and ask 
for more information about the benefits of Obamacare and how to 
enroll, and those Republican efforts will only harm American 
families and small businesses and cut short the relief 
Americans need because insurance companies are no longer in 
control of their health care, and they are guaranteed access to 
affordable coverage that will be there for them when they need 
it.
    I agree that the Web site must be fixed, but the 
Republicans should stop their obstructionism, commit to working 
with Democrats as we did with you on Medicare Part D to fix any 
provisions that need to be fixed. Rather than to continue your 
efforts to nix the law, let's work together to fix it and not 
nix it, and I thank you and yield back.
    Mr. Upton. Gentleman from Pennsylvania Dr. Murphy.
    Mr. Murphy. Thank you.
    Ms. Campbell, when healthcare.gov went live on October 1st, 
it was not possible to browse this site in order to see the 
prices. You had to register. Who made that decision?
    Ms. Campbell. CMS made that decision.
    Mr. Murphy. Who within CMS?
    Ms. Campbell. I don't have the exact name of the person. I 
would say Henry Chao from CMS.
    Mr. Murphy. And are you aware of any White House 
involvement in that decision process?
    Ms. Campbell. I am not.
    Mr. Murphy. OK. So, what challenges arise when you switch a 
Web site where individuals can browse to one--just browse 
versus one where you're first asked to register? Does this 
require a substantial amount of work?
    Ms. Campbell. Well, it definitely puts a different--an 
additional burden on the system.
    Mr. Murphy. Do you have to write a new code to make that 
happen?
    Ms. Campbell. Well, for us to turn it off, it was just 
putting a flag in our system to not allow for anonymous 
shopping.
    Mr. Murphy. And how much more time does this then take then 
to test a system like that once you've made those kind of 
decisions?
    Ms. Campbell. It became part of the normal testing process.
    Mr. Murphy. But you never tested the whole system, right?
    Ms. Campbell. CGI did not.
    Mr. Murphy. OK. Now, to Mr. Slavitt, when were you aware--
when were you made aware of the decision that the Web site 
would not allow browsing and would require registration first?
    Mr. Slavitt. We weren't made aware of this until the final 
days prior to the launch.
    Mr. Murphy. That final day being what date?
    Mr. Slavitt. I believe it was within 10 days.
    Mr. Murphy. Within 10 days.
    Do you know who made that decision?
    Mr. Slavitt. I don't know. We don't know who made the 
decision, we don't know when the decision was made, and we 
don't know why the decision was made.
    Mr. Murphy. And are you aware--but it was someone from CMS, 
HMS, the administration, the White House; do you have any idea?
    Mr. Slavitt. We don't know.
    Mr. Murphy. OK. Ms. Campbell, did you inform anyone at CMS 
or HHS of any concerns you had that this required more testing; 
more time was needed because the system wasn't going to be 
working?
    Ms. Campbell. More testing because of the anonymous 
shopping or----
    Mr. Murphy. Well, both. Let's start with the shopping 
issue, but the whole system. Did you inform anybody at CMS or 
HHS that you needed more time because the system wasn't 
working?
    Ms. Campbell. So, once again, the portion that CGI was 
responsible for went through its unit testing.
    Mr. Murphy. So you did through your testing, but you didn't 
look at the whole thing.
    Ms. Campbell. But we are not responsible for end-to-end 
testing.
    Mr. Murphy. All right. Mr. Slavitt, did you inform CMS or 
HHS, anyone there, that they needed more time, you didn't have 
enough time?
    Mr. Slavitt. We informed CMS that more testing was 
necessary. We informed CMS of the pieces of this system that we 
had tested that had issues. So, yes, we did.
    Mr. Murphy. All right. Mr. Lau, how many applications did 
you actually receive to fill out the process for people?
    Mr. Lau. As of today, I would estimate about 9,000.
    Mr. Murphy. About 9,000.
    And how many have you successfully completed?
    Mr. Lau. About half of those were successfully keyed in.
    Mr. Murphy. And do you have to go online, or is there 
another process for that? Do you have to go to the Web site?
    Mr. Lau. We work through the consumer portal.
    Mr. Murphy. Are you expecting more applications?
    Mr. Lau. We are, yes. The volumes are increasing.
    Mr. Murphy. All right.
    Ms. Campbell, so you're saying you haven't gone through and 
tested the whole system. You did your part. Mr. Slavitt, you 
said the same thing; am I correct? You both just tested your 
parts. You didn't check the whole system; am I correct?
    Ms. Campbell. So CMS has an independent contractor, QSSI, 
that tests our system.
    Mr. Murphy. OK. And, Mr. Slavitt, did QSSI test the whole 
system?
    Mr. Slavitt. We tested the portions of the system for the 
code that we received.
    Mr. Murphy. Who, as independent contractor--who tested the 
system?
    Mr. Slavitt. QSSI was one of the independent contractors. 
We tested code from CGI.
    Mr. Murphy. And did you find any problems?
    Mr. Slavitt. So we found problems in the code.
    Mr. Murphy. And would it require more time to fix it?
    Mr. Slavitt. Which in and of itself isn't necessarily a 
problem so long as they're fixed. We also----
    Mr. Murphy. Did you inform anybody at CMS or HHS that there 
were problems and you needed more time?
    Mr. Slavitt. We informed both CMS and the other contractor.
    Mr. Murphy. Who did you tell?
    Mr. Slavitt. I don't know the names of anybody we told, but 
I can tell you we informed CMS, and we informed the contractor 
responsible for the code.
    Mr. Murphy. Ms. Campbell, how much money did CGI get to do 
this whole project from the Federal Government, total?
    Ms. Campbell. Our total TCV is about $290 million.
    Mr. Murphy. I see.
    And, Mr. Slavitt, how much did your company receive to do 
all this.
    Mr. Slavitt. So the data services hub has been funded to 
just under $85 million.
    Mr. Murphy. All right. Now, let me ask you, Ms. Campbell, 
have you personally tried to log on and test the system for 
yourself doing the application process itself?
    Ms. Campbell. I have, but I have insurance.
    Mr. Murphy. And how long did it take you to do it?
    Ms. Campbell. It took the normal time that it would take an 
individual.
    Mr. Murphy. You were able to successfully get in. What 
State was that in? For what State?
    Ms. Campbell. I'm a Virginian.
    Mr. Murphy. And does Virginia have its own Web site, or was 
that a government Web site?
    Ms. Campbell. It's part of the government Web site.
    Mr. Murphy. And, Mr. Slavitt, did you personally try and 
get onto the system?
    Mr. Slavitt. Yes, I did.
    Mr. Murphy. And for what State?
    Mr. Slavitt. I think I put in Texas.
    Mr. Murphy. Is that where you're from?
    Mr. Slavitt. I'm not, but I was just testing the system.
    Mr. Murphy. Did it work?
    Mr. Slavitt. Well, I logged on to create an account, was 
able to do so. I just never received a confirmation email.
    Mr. Murphy. So it didn't work.
    Mr. Slavitt. Didn't work.
    Mr. Murphy. Thank you. Yield back.
    Mr. Upton. Gentleman from Kentucky Mr. Yarmuth.
    Mr. Yarmuth. Thank you, Mr. Chairman.
    Ms. Campbell, and Mr. Slavitt particularly, would you say 
that if far more States had decided to do their own exchanges, 
then the national exchange would not have experienced as many 
problems?
    Ms. Campbell. I can speculate. I would say probably, but I 
don't know for sure.
    Mr. Yarmuth. Well, I wanted to talk about the Kentucky 
experience, and I want to thank your company for its 
involvement in our State, because the experience in Kentucky 
has been extraordinarily successful, and even though there were 
problems for a few hours on the first day, again because of 
excessive demand, at least unprojected demand, but those were 
quickly rectified, and I have these statistics now for the 
first 21 days in Kentucky.
    We had 640,000 Kentuckians estimated without insurance, so 
assuming that most of those were--we took the people who 
contacted the system were mostly from that population, we've 
had 280,000 unique visitors to KYNECT, K-Y-N-E-C-T; 247,000 
have actually conducted prescreenings to determine 
qualifications for subsidies and so forth; 47,000 applications 
for healthcare coverage had been initiated, and 33,700 are 
completed as of the 21st; 18,370 individuals are enrolled in 
the new affordable health care; and I think, almost equally 
important, 378 businesses have started applications for health 
insurance for their employees.
    So, in terms of the numbers of people who can take 
advantage of the Affordable Care Act in Kentucky, a huge number 
have already done so, actually have enrolled in affordable 
insurance for the first time, in many cases, in their lives.
    You know, Mr. Shimkus talked about one person he got a 
letter from who said that he was not happy with what the 
prospects were, and we've heard a lot of these anecdotal 
stories. And, in fact, Fox News brought some people on last 
week, and one of the small businesspersons said, oh, he had to 
cut the hours of his employees and so forth. And a reporter 
from Salon, Eric Stern, followed up on that, found out that 
this man had actually only four employees, so he was not at 
all--not even covered by the Affordable Care Act. So we have to 
be very careful about people who say that they've done things 
or they've suffered because of the Affordable Care Act when, in 
fact, they haven't.
    But I've got a couple of cases from my district that I 
think are very valid experiences and also testify to how 
important this law is and the benefit of it. Jeff Bauer wrote, 
``I am 62 years old, and my wife will reach that age before the 
end of year. In January, I parted ways with my employer of 39 
years. We were lucky to have never needed government assistance 
of any kind. We are pretty much a typical middle-class family. 
We asked our doctors if they anticipated any problems with us 
acquiring health insurance. They told us our health was good, 
and they did not anticipate any problems. We were dismayed to 
find that we were both turned down for coverage based on 
existing medical conditions. The conditions were not chronic or 
serious. Our only alternative was to select COBRA coverage, 
coverage for 18 months, with monthly premiums over $1,000. When 
COBRA expires July 2014, we would have go the next 20 months 
with no health insurance. But on Kentucky's health exchange, I 
was able to purchase our insurance for $800 less than our COBRA 
coverage. Previous medical conditions were not a factor, the 
exchange was user friendly, and I was able to complete the 
application with no problems. I would like to thank lawmakers 
and the President for representing those of us who only have 
little voices and had the courage to make this coverage 
available through the Affordable Care Act.''
    Another woman, Debbie Basham, 17 years ago was diagnosed 
with late third-stage breast cancer. She was able to get into a 
special trial at Duke, and she overcame her disease, but was 
left with a $200,000 bill that was not paid by the insurance 
company. Now, because of the Affordable Care Act, she cannot 
only can get coverage, she has no lifetime limits, no annual 
limits, and these are the things that will protect her and her 
family.
    So, I just want to say that the experience is not all 
negative, and I'm confident that eventually the national 
exchange, I hope very quickly, becomes as effective as the 
Kentucky exchange.
    So, I thank you for your testimony. I yield back.
    Mr. Upton. Dr. Burgess.
    Mr. Burgess. Thank you, Mr. Chairman.
    Mr. Slavitt, I just will say that my experience was similar 
to yours. I live in Texas, so I did try, just while we were 
sitting here spending some time together this morning, try to 
sign up on the exchange for Texas, and I ended up with a 
similar result as you did.
    I just have to say, here we are 3 weeks into the open 
enrollment period, and I can't think that anyone on this panel 
this morning would think that that is acceptable that this 
system would still work so poorly regardless of the State 
involved.
    Ms. Campbell, can you tell me at this point how many people 
have signed up through CGI?
    Ms. Campbell. I cannot. And I need to clarify an answer I 
gave regarding 200 failures on the end-to-end test. It was 
actually an understanding. It was an end-to-end test on the 
EIDM where there were 200 failures.
    Mr. Burgess. On that first morning, October 1st, we were up 
late doing a vote, so probably about 2 o'clock in the morning I 
attempted to sign in then and met with the same response. The 
system asked my favorite kind of pasta or something along those 
lines and then froze up. And then, like Mr. Slavitt, I've never 
gotten a confirmatory email on any of the many, many times that 
I sent that information through.
    What happens to that information? Ms. Campbell?
    Ms. Campbell. That's on the EIDM side, so I'd have to 
defer.
    Mr. Burgess. So, what happens with that information? Can I 
ever get it back?
    Mr. Slavitt. So, I can relate my own experience. Of course, 
when I found out that I didn't get an email back, I called the 
QSSI team to see what happened. Indeed, EIDM had a record of my 
transaction, received the transaction, and we know that EIDM 
received my submission. We also know that they sent that 
transaction over to the marketplace. And, as I mentioned, EIDM 
is only a tool used in the registration process; it's not the 
registration process. Beyond that, I don't have any visibility.
    Mr. Burgess. But again, I ask my question, can I get that 
information back?
    Mr. Slavitt. I believe that information would still reside 
in the registration tool.
    Mr. Burgess. Well, I mean, there's only so many passwords 
that I have the mental capacity to make up, and I'm running 
through all of them with continuing to try to sign this up, so 
if you could return some of them back to me, I would greatly 
appreciate that.
    So, Ms. Campbell, you referenced a number in a question of 
Dr. Murphy about the amount of money that CGI had received for 
this contract.
    Ms. Campbell. So, to clarify, that's the total contract 
value through the outyears. That's not the dollars that we have 
received to date. The dollars that we have received to date is 
in the range of about $112 million.
    Mr. Burgess. So, are all of these fix-its that are 
occurring now, are those--were those included in that $12 
million bill, or are there ongoing invoices that are going to 
have to be reimbursed from CGI?
    Ms. Campbell. So, CMS implemented a cost-reimbursable-type 
contract, and as we continue to do the normal--our contract 
says that we are responsible for the development, and then it 
moves into operations and maintenance, which is continued bug 
fixes and things of that sort----
    Mr. Burgess. So, we're paying----
    Ms. Campbell [continuing]. The normal course. It's the 
normal course of a development in a production environment 
scenario.
    Mr. Burgess. And I'm not trying to be harsh here, but you 
are continuing to bill the taxpayers for the fact that your 
code did not work or your product did not work as advertised, 
regardless of whose fault it was. On October 1st, I think we'd 
all agree it wasn't working. The taxpayer is being billed for 
those invoices to fix things.
    Ms. Campbell. Sir, in October 1, the taxpayer couldn't get 
to our system.
    Mr. Burgess. Let me just add this as an observation. I 
mean, it seems like we've got several fingers, but no palm 
here. Was there anyone involved in sort of overseeing the 
entire--the entirety of this to make sure it worked from A to 
Z? Ms. Campbell?
    Ms. Campbell. That would be CMS as the systems integrator.
    Mr. Burgess. And who at CMS? Mr. Chao again?
    Ms. Campbell. As one of the individuals, yes.
    Mr. Burgess. Who else at CMS? Was the Administrator for CMS 
involved?
    Ms. Campbell. I can't say who was in that decisionmaking 
process.
    Mr. Burgess. How about you, Mr. Slavitt? Who was the unseen 
hand trying to put all of this together?
    Mr. Slavitt. CMS did play that role. I'm not aware of who 
within CMS.
    Mr. Burgess. Well, there was a comment on a blog post this 
morning on one of the local papers that said, ``When do I start 
to really freak out about this?'' See, the average American 
watching this hearing this morning, can we give them any 
comfort about that? When should the average American begin to 
really become upset about what they've seen here in the past 3-
\1/2\ weeks? Ms. Campbell, do you have an observation?
    Ms. Campbell. I do not, sir.
    Mr. Burgess. Mr. Slavitt?
    Mr. Slavitt. Our team worked intensely in those first few 
days after the launch.
    Mr. Burgess. Here's the problem: Nobody believes this thing 
is going to get fixed when we keep getting answers like this. 
We're asking you for help, we're asking you to be transparent, 
and we get non answers to our questions. So I would submit that 
the average American looking in on this hearing this morning is 
going to feel like there's really nobody in charge, maybe 
somebody at CMS, but who's going to take the responsibility for 
getting this thing fixed and making it right, because heavens 
knows they've paid enough money to have it work right.
    Thank you, Mr. Chairman. I yield back.
    Mr. Upton. Gentleman's time expired.
    Mr. Welch.
    Mr. Welch. Thank you very much, and thank you for the 
hearing. We all have a real interest in trying to get this 
thing to work, that's for sure. But I do want to say a couple 
of things about what this hearing is not about, because it puts 
it in a bit of a context.
    It's not about whether we should take away the right of our 
kids up to age 26 to be on health care, our own healthcare 
policy. That's working great. It's not about whether the 
preventive care that has been made available for free to 
seniors on Medicare should be rolled back. That's working 
pretty good. It's not whether the $4 billion in Medicaid--
Medicare fraud that's been found out and saved for the program 
was a bad idea. There is strong bipartisan support on that. 
It's not about whether the opportunity Americans have to now 
get healthcare coverage, even if they have a preexisting 
condition, should be rolled back. People are pretty happy with 
that. It's not about whether the donut hole that was such a 
burden for seniors on Medicare should be rolled back. What 
we've done in this law, as everyone knows, is provide a 
coverage to folks through that donut hole, so that's pretty 
good. And it's not about whether the Medicaid expansion that is 
part of this bill should be rolled back. In Vermont, that will 
be like 40,000 people that are going to get access to health 
care, and that's going to affect some of the hardest-working 
people in this country. Farmers who work hard make very little, 
but were not eligible to get Medicaid because they didn't have 
young children.
    So, Mr. Chairman, all of those things we're not having to 
question. They're working great. What we're talking about is a 
computer program that's messed up at the moment, and I've got 
some--we all have some historical experience with that. When 
the prescription drug program for seniors in Medicare Part D 
was put into place, it was a huge computer program, and there 
were lots of glitches, and the question that this committee had 
at that time, March of 2006, was what to do about it. And we 
had some really good advice from some really good Members. One 
of them said--who is a supporter of Medicare Part D--``As I 
mentioned earlier, the new benefit in its implementation are 
hardly perfect, but rather than trying to scare and confuse 
seniors, I would hope that we could work together as we go 
through the implementation phase to find out what is going 
wrong with the program, and if we can make some changes to fix 
it, let's do it, and let's do it on a bipartisan basis.''
    I'd say that statesman had it right, and that statesman was 
Joe Barton of Texas. Thank you.
    And we had another Member: ``We can't undo the past, but 
certainly they can make the argument they were having a hearing 
a month late, but the reality is that for the prescription drug 
program, the benefit is 40 years late, and the seniors who 
signed up for Medicare in those first days back in 1965, when 
they were 65 years of age, are now 106 years of age waiting for 
that prescription drug benefit. So I hope it doesn't take us 
that long to get it right, and I don't believe it will.''
    And that was Congressman Burgess, who serves with us on 
this committee now.
    And then another, I think, quote that was really terrific: 
``Anytime something is new, there's going to be some glitches. 
And it is of no value, as a matter of fact, it is of negative 
value and of questionable ethical value, I think, sometimes if 
people only spend their time criticizing the glitches that have 
been made in the program, as with any program that occurs, 
whether it is a public or private program, criticizing it, 
standing on the outside and frightening seniors, frightening 
seniors into thinking that because there was complexities and 
difficulties, therefore they should not sign up.'' And that was 
Congressman Tim Murphy.
    And you know what? That advice they gave then is pretty 
good advice for us to take now. I adopt their comments as our 
path forward.
    And I'll ask just each person on this panel, can the 
computer challenges that we're facing right now, none of us 
want, it's a real hassle for Americans--it starts to undercut 
confidence in a program, whether it's eBay, Amazon.com, 
flowers.com, you name it, if their program is not working. 
There's frustration for anybody who goes on it. I just want to 
go down the panel. Can this be fixed?
    Ms. Campbell. Sir, we are working every day to get it 
fixed. Yes.
    Mr. Slavitt. We believe it can.
    Mr. Welch. Thank you.
    Ms. Spellecy. We hope so, but we don't have visibility into 
that.
    Mr. Lau. We have no direct involvement with that system.
    Mr. Welch. OK. Thank you. I yield back. Get it done.
    Mr. Upton. Dr. Gingrey.
    Mr. Gingrey. Mr. Chairman, thank you.
    The gentleman from Connecticut said what this hearing was 
not about, and he listed a litany of things that in his opinion 
are positive, but let me tell you what this hearing is about. 
It is about whether young people over the age of 26 and not 
eligible for subsidies, who are forced come January the 1st, if 
they had no insurance, to sign up for the exchanges and pay at 
least double what they normally would pay. It is about that.
    Here we are 24 days after the exchanges have come online, 
and yet we receive conflicting reports from the administration 
on the number of people who have successfully received 
coverage.
    When we met more than 6 weeks ago with this panel, I warned 
that companies charged with developing and implementing the 
Federal exchanges had not had the time to successfully produce 
and test such a complex system. We're hearing that today. 
During that hearing, we heard that all of your systems were 
functioning properly and ready to go on October the 1st. After 
what has been an unsuccessful first 3 weeks-plus of 
implementation, we now have to better piece together the 
timeline of problems and figure out who knew what and when did 
they know it.
    Ms. Campbell, in your testimony, you say that your company 
was selected as the best value to create Federally Facilitated 
Marketplace, FFM, in 2011 due to the fact that requirements 
were not well established at the time of the award and that the 
requirements did evolve over the next 2 years. How was CGI, 
your company, made aware of these changing requirements by CMS?
    Ms. Campbell. So we would receive change orders, and then 
we would respond back with a proposal, and then that proposal 
would be accepted, and then we would continue moving forward.
    Mr. Gingrey. When was the last time that the Federally 
Facilitated Marketplace requirements were changed by the 
administration? When did they apply to October the 1st?
    Ms. Campbell. I believe our last modification occurred in 
August of this year.
    Mr. Gingrey. Was there ever a point that CGI expressed 
doubt as to whether the updated requirements would affect your 
ability for a successful launch?
    Ms. Campbell. We, each time we received changes, we shared 
with CMS the risk associated with any changes that we were 
asked to provide support.
    Mr. Gingrey. Can you tell me today this morning who 
specifically you gave that information to express that concern 
to?
    Ms. Campbell. I'd have to go back to my team specifically 
but----
    Mr. Gingrey. Could you do that for me before 9 o'clock in 
the morning?
    Ms. Campbell. If I'm allowed to provide that information 
based on our terms and conditions of our contract at CMS, yes.
    Mr. Gingrey. Well, this is a government that prides itself 
on transparency. I'm certainly sure that you would be allowed. 
You also stated that CGI Federal delivered the functionality 
required by CMS. Did you ever have concerns that CMS was not 
requiring enough in terms of design and functionality, and were 
there ever internal concerns at CGI that CMS did not have the 
technical expertise to handle such an ambitious project?
    Ms. Campbell. So in terms of--CMS has a number of technical 
resources and it was their responsibility to be the systems 
integrator here, and we provided support and guidance as we 
could.
    Mr. Gingrey. Ms. Campbell, when, over the last several 
weeks when the Republican majority in the House of 
Representatives was trying desperately to keep the Federal 
Government open and submitted several bills to the Democratic 
majority Senate, Mr. Harry Reid, one of those requests, after 
the initial request was rejected, was to simply say, look, we 
will fund the entirety of the Federal Government at sequester 
levels, but we think it's a good idea to delay the rollout of 
ObamaCare for a year. Now that was summarily rejected again by 
Mr. Reid. We then came back and said would you just meet with 
us? Would you just allow us to meet with a bipartisan, 
bicameral committee and talk about this?
    And it's very possible if he had agreed to do that, that 
this delay of a year could have been negotiated down to a delay 
of 6 months. Let me in my few seconds left ask each one of you, 
particularly you and Mr. Slavitt, do you think that that 6-
month delay would have given you sufficient time to have a 
successful rollout and to avoid all this embarrassment and 
expense?
    Ms. Campbell. I don't think I can answer that with a yes-
or-no scenario.
    Mr. Gingrey. Well, is there any scenario under which you 
could answer it?
    Ms. Campbell. It's a--the system went live, there were many 
entry points upon which there is the ability for a person to 
enroll. The online app is one----
    Mr. Gingrey. I'm a little over time. Mr. Slavitt quickly.
    Mr. Slavitt. I don't know what flexibility there was in the 
time but certainly more testing always helps projects like 
these succeed.
    Mr. Gingrey. Well, Ms. Sebelius, the Secretary, ended up 
being interviewed by Dr. Sanjay Gupta on CNN and in The Wall 
Street Journal said she needed 5 more years, it could have 
taken, and she only had 2.
    Mr. Upton. The gentleman's time is expired.
    Mr. Gingrey. I yield back. Thank you.
    Mr. Upton. The gentleman from New York, Mr. Tonko.
    Mr. Tonko. Thank you, Mr. Chair. Thank you witnesses.
    I'm pleased to hear some concern expressed on the other 
side of the aisle regarding access problems that people are 
having in interacting with the health care government, 
healthcare.gov Web site, and look forward to working with them 
in a bipartisan way to make that happen.
    I sense two great demands out there. One, a great demand 
for this product called the Affordable Care Act, second a great 
demand placed by the public into our laps to get this business 
of connecting access to the system done in a bipartisan, 
professional way.
    I would also like to echo the comments of many of my 
colleagues in distinguishing between the unfortunate rollout of 
the Web site and the underlying promise of the law itself that 
all individuals will finally have access to affordable health 
care, and many of the benefits of that package are now well 
known and very much appreciated, no longer deniable by the 
industry because of preexisting conditions, students being able 
to stay on their parents' plan until the age of 26, seniors not 
having to pay as much money out of pocket for prescription 
drugs and eventually closing that donut hole, and the list goes 
on and on.
    While there might be problems with the Web site, we have 
heard it here this morning and it's worth repeating: we have to 
fix it, not nix it. We have to fix it, not nix it. It's an 
important mantra to guide us forward.
    Mr. Chair, where people are able to overcome these initial 
bumps in the road, they are discovering a quality product that 
will save families hundreds of dollars a month on health care 
costs. You don't have to take my word for it. Fox News 
contributor Sally Kohn upon discovering that her family will be 
saving $408 per month in my home State of New York said, 
ideologues may not like ObamaCare, but my wallet and my 
family's health sure do.
    So while we are here to address the real problems of an 
underperforming Web site, we can't ignore the larger story that 
affordable health care has finally become a reality for 
millions of Americans and that it is something we should not 
delay.
    Ms. Campbell, that being said, most of the bugs in the 
system we have heard about here today have been with the 
federally run Web site healthcare.gov, is that correct?
    Ms. Campbell. That's correct.
    Mr. Tonko. And how many States are currently participating 
in the Federally Facilitated Marketplace through the 
healthcare.gov Web site?
    Ms. Campbell. Thirty-six.
    Mr. Tonko. Now it was my understanding that the Affordable 
Care Act envisioned that the States would be taking the lead on 
designing and running these exchanges.
    Do you have a sense of why 36 States chose to let the 
Federal Government take the lead instead?
    Ms. Campbell. I have no further information to support 
that.
    Mr. Griffith. They don't like it.
    Mr. Tonko. I think it's clear to state this was how it was 
envisioned to work and would have been beneficial. From what I 
can tell, many States that refused to create a State-based 
exchange did so largely for ideological reasons.
    Now did CGI Federal participate in building the exchange 
Web sites in any of the States running their own exchanges?
    Ms. Campbell. Yes, we have.
    Mr. Tonko. And my sense is that the States that have taken 
ownership of the Affordable Care Act and designed and run their 
own exchanges are outperforming the Federal exchange, would you 
agree with this assessment?
    Ms. Campbell. That is correct.
    Mr. Tonko. Thank you, Ms. Campbell. And I do agree that the 
picture that we have seen in the State-based exchanges is 
vastly improved over what we are seeing through healthcare.gov. 
My home State of New York, which also experienced Web site 
problems at the outset, has now signed up nearly 174,000 New 
Yorkers for quality, low cost health insurance. That means that 
more New Yorkers have completed an application to receive an 
eligibility determination than any other State in our Nation.
    This is clear-cut evidence that the temporary setbacks can 
be overcome, and success can be achieved when the law is 
implemented the way it was intended--without malice and 
obstruction.
    In closing, I would implore my Republican colleagues to 
reject the politics of division and join with us in finding 
constructive solutions to these technical problems so that the 
many millions of Americans demanding and deserving access to 
the private sector-driven health care options they now have 
before them is a reality.
    With that, Mr. Chair, I will yield back.
    Mr. Upton. Mr. Scalise.
    Mr. Scalise. Thank you, Mr. Chairman. I appreciate you 
having this hearing. I want to thank the witnesses for coming 
to testify. There's been a lot said about why we're having this 
hearing. One of the reasons is that our constituents are 
calling us on a daily basis reporting some of these many 
problems that we're talking about here today. And it's not just 
the failure of a Web site. Obviously there's a lot of focus on 
the failure of the Web site, but it's a focus on a failure of 
the law in general, the fact that there were so many broken 
promises made by the President about what this law would do: if 
you like what you have you can keep it.
    Thousands and thousands of people are losing good coverage 
they have. In Florida, it's reported I think MyBlue, 300,000 
people are going to lose the health care they have that they 
like. All across the country we hear that.
    Costs are going to be lower. You're seeing so many States 
report that costs are dramatically higher. In Chicago, in 
President Obama's own backyard, it's reported that 21 of the 22 
plans on the exchange that you go to, these low cost exchanges, 
have deductibles of $8,000 or more per family. People don't 
consider that a low cost when people are losing good private 
sector health care that they have.
    You're hearing of course promises the President quoted, 
this really gets in the conversation we're having today. This 
is the President's quote ``just visit healthcare.gov and there 
you can compare insurance plans side by side the same way you'd 
shop for a plane ticket on Kayak or a TV on Amazon.''
    Now while you all were testifying, I went on Amazon and 
looked for a TV. Within 1 minute I had over 300,000 options of 
TVs that I could purchase, and there were low cost TVs too.
    I tried to go on healthcare.gov and register. I spent--this 
was earlier this week. I spent more than 2 hours, probably had 
an experience similar to Mr. Slavitt, was kicked out four 
times, had to reenter data multiple times, was given blank 
screens a number of times, ultimately never even got to a point 
where I could see health care plans where I could compare, as 
the President promised, side by side, just like you look for a 
TV on Amazon. That's not the experience you get when most 
people go on line and purchase products.
    And this isn't just any product. This is a product that the 
Federal Government said you have to buy by law or else you get 
fined. And the other side wants to mock us because we're asking 
for at least a delay of the fine while people can't even go to 
the Web site that doesn't work.
    I used to program computers for a living. I understand how 
you design systems, big systems, small systems. I understand 
how you design test plans. I actually wrote test plans for 
systems. And you would test the system, you would do all-
nighters until the system worked, and you wouldn't deploy it 
until it worked. And clearly that didn't happen in this case. 
So I want to ask, first of all, you all said that you track 
error logs.
    If I can ask down the line, starting with Ms. Campbell, how 
many errors have you logged since you've been tracking the 
errors in the system, Ms. Campbell?
    Ms. Campbell. I don't have that information, but I'll get 
back----
    Mr. Scalise. Can you get me that to the committee? Mr. 
Slavitt.
    Mr. Slavitt. I don't have that with me.
    Mr. Scalise. Ms. Spellecy?
    Ms. Spellecy. I have to get back to you for the record.
    Mr. Scalise. Mr. Lau?
    Mr. Lau. We really don't have access to that system.
    Mr. Scalise. We need to get those numbers. Clearly there 
are many.
    Mr. Slavitt, you said in your testimony that there was a 
late decision requiring consumers to register for an account 
before they could browse.
    Early off, it was promised that people would be able to go 
to a Web site and just shop around, look for a site, if you 
like something you find, you go buy it, like anything else you 
buy online. You don't have to give hours and hours of personal 
data and Social Security numbers before you buy a product. A 
company would go out of business.
    You'd said that there was a late decision made to change 
the system so that you have to give all the personal 
information before you can even shop around. Who made that late 
decision?
    Mr. Slavitt. We don't know who made the decision and we 
don't know when.
    Mr. Scalise. Ms. Campbell, do you know who made that late 
decision? Was it CMS?
    Ms. Campbell. It was CMS who made that decision.
    Mr. Scalise. Do you know who at CMS made that decision?
    Ms. Campbell. We don't have full knowledge of exactly the 
full chain of----
    Mr. Scalise. When CMS made the decision, how late in the 
game did they make the decision to change a drastic system like 
this?
    Ms. Campbell. For CGI, they asked us to turn that flag or 
functionality off at 2 weeks before going live.
    Mr. Scalise. Two weeks before going live. So they made a 
dramatic change to the system just 2 weeks before going live. 
Nobody would have done that in the private sector to make that 
kind of change to a system.
    Let me ask you this, because all of you were paid lots of 
money to do this, it's been reported over $500 million of 
taxpayer money spent to build this Web site, more money by the 
way than it cost to build Facebook. Facebook gets 700 million 
users a day, 700 million people use that site every day and it 
works. The first 5 years they didn't spend $500 million.
    Did you deliver--and I'll go down the line. Did you deliver 
the product that you were contracted to build, Ms. Campbell?
    Ms. Campbell. We have.
    Mr. Scalise. Mr. Slavitt.
    Mr. Slavitt. For the----
    Mr. Scalise. Did you deliver the project--did you deliver--
--
    Mr. Slavitt. Yes.
    Mr. Scalise [continuing]. The product that you were 
contracted?
    Mr. Slavitt. Yes.
    Mr. Scalise. Ms. Spellecy?
    Ms. Spellecy. Yes.
    Mr. Scalise. Mr. Lau?
    Mr. Lau. Yes.
    Mr. Scalise. There's a saying in computer programing, 
garbage in, garbage out. If you're given a bad product to 
build, then ultimately what you'll deliver is a bad product. 
The focus is not just going to be on the failed Web site. 
Clearly they are some serious questions that need to be 
answered. All the taxpayer money that was spent to build a site 
that people can't even go on and use and then ultimately if 
they're able to get through they're finding the prices are 
dramatically higher. This will not mask the fact that the law 
fails in general.
    You wonder why we're calling for a delay of the 
implementation of this law, the delay of the fine that people 
will have to pay if they can't even use the Web site, 50 
percent of you who said you went to the Web site said you had a 
failure rate. You built the site.
    Mr. Upton. The gentleman's time has expired.
    Mr. Scalise. I yield back the balance of my time.
    Mr. Upton. Mr. Sarbanes.
    Mr. Sarbanes. Thank you, Mr. Chairman. I thank the panel. 
This is an important hearing. There are two stories that have 
unfolded in the last 3 weeks. One of them clearly is the 
problems with this Web site that need to be fixed, and I'm 
going to ask some questions about that in a minute. But the 
other story is the incredible demand and interest that 
Americans have in accessing this new opportunity for affordable 
health care. We saw it in the demand that came in on the 
Federal exchange which outstripped all the projections that 
people had for it. We've seen it in the State level exchanges, 
the State-run exchanges where there's been a lot of success in 
terms of people come there, browsing, applying for coverage, 
enrolling in coverage, and that story continues.
    That's the reason that we have to fix this. In other words, 
if there was no interest out there, there was no demand, and 
you had a Web site that wasn't working very well, you could 
say, well, maybe we don't need to fix this thing. But people 
really want this opportunity. That's the bigger story. The 
bigger story is that people want to access affordable health 
care coverage, and they're coming to these sites. So we have to 
fix it. That's why you keep hearing this refrain on our side to 
fix it, don't nix it.
    Now, let me ask you this. I assume that you've been 
involved, all of you, in big projects of this kind. This may be 
particularly complex. I get that. But I'm sure you've had the 
experience where you went to, you pulled the switch on a go 
live situation and it didn't work out exactly as you expected.
    Ms. Campbell, when that happens, I imagine CGI doesn't just 
sort of bury its head in the sand and give up, but you get 
about the business of fixing the thing so it can function 
properly correct?
    Ms. Campbell. That's correct. It's a normal course of what 
happens when a system goes into production.
    Mr. Sarbanes. Absolutely. Mr. Slavitt, I assume that if you 
encounter difficulties when you go live with a product, you 
don't light your hair on fire and run around in small circles, 
you get about the business of fixing, right?
    Mr. Slavitt. Yes, that's correct.
    Mr. Sarbanes. In fact, you did that in this instance from 
what I understand, right?
    Mr. Slavitt. Yes, that's correct.
    Mr. Sarbanes. And got some of the issues that were 
presented fixed in fairly short order. So I mean, you're 
professionals, you do this for a living, you understand we've 
got some problems here that need to be addressed. You're 
getting about the business of fixing them, and you're doing 
that because this is a platform that Americans need in order to 
access health care coverage.
    Let me ask you another question.
    Do you have any reason to think that the problems with the 
Web site that we've been talking about today in any way are 
affecting the quality of the underlying product that's being 
sold, in other words the plan options that are out there and so 
forth? Is there any reason for us to conclude that because 
somebody's having problems accessing an enrollment or doing an 
application because of the Web site, that that's somehow a 
commentary on the underlying product that ultimately they're 
trying to access? Ms. Campbell.
    Ms. Campbell. No, with 4,400 plans for people across within 
the 36 States that can apply, I would say that the plans are 
there for people to be able to shop.
    Mr. Sarbanes. Mr. Slavitt?
    Mr. Slavitt. No I wouldn't conclude that.
    Mr. Sarbanes. Ms. Spellecy?
    Ms. Spellecy. No.
    Mr. Sarbanes. Mr. Lau?
    Mr. Lau. No.
    Mr. Sarbanes. And in fact, the reports we're getting about 
the underlying product, the plan that people are going to have 
access to, the options that are available to them, that they're 
good quality products, and that they're going to be available 
at very reasonable premiums which is exactly, again, what 
people are looking for here. And certainly there is no 
suggestion that problems with the Web site are, at some point, 
going to mean that an enrolled beneficiary is going to have an 
issue accessing their doctor or accessing the hospital or 
anything like that.
    So the product is good. The Web site needs to be fixed to 
make sure that we can get that product to people. That's what 
you're engaged in now, and that's why we have to fix it, not 
nix it when it comes to this health care Web site.
    With that, I yield back my time.
    Mr. Upton. Mr. Latta.
    Mr. Latta. Thank you very much, Mr. Chairman, and thank you 
very much for our witnesses for being here today and I greatly 
appreciate your testimony. And last night, I read through all 
of your statements beforehand. And if I could, because there's 
been a lot of questioning, of course, about the, on the testing 
side.
    And Ms. Campbell, if I could turn to your testimony, on 
page 2, you said, in recent years that CGI Federal has 
delivered some of the most complex IT implementation for U.S. 
Government including FederalReporting.gov and medicare.gov.
    And we've heard from you all saying that you only had at 
the very end about 2 weeks to really make sure this thing was 
integrated. When you were working on, let's just say for 
example, medicare.gov, how much testing did you do on that? Did 
they give youa time frame? What can you tell me about that 
testing at that time?
    Ms. Campbell. I'm sorry, I can't give you exact time 
frames, but we had sufficient time to test the system before it 
went live.
    Mr. Latta. Can you tell me what sufficient time is?
    Ms. Campbell. We had a number of months before the system 
went live.
    Mr. Latta. If you could, by tomorrow morning at 9 o'clock, 
I'd like to get that information from you to find out exactly 
how much time you did specifically have to test that system.
    What about on FederalReporting.gov? How much time were you 
given to test that system?
    Ms. Campbell. I'd have to get back to you. That wasn't in 
my area of responsibility.
    Mr. Latta. We'd like to have that by 9 o'clock tomorrow 
morning so we can get that information.
    And I think I heard this earlier, is healthcare.gov the 
most complicated of the systems that you've created?
    Ms. Campbell. It is by far for our country the most, one of 
the most complicated, large scale systems that's out there 
today.
    Mr. Latta. So what you're telling me is that you had months 
versus a couple weeks to do that testing.
    And let me ask you this: Did they, when medicare.gov or 
FederalReporting.gov, are you able, especially on the Medicare 
side, because you say in your testimony which successfully 
helps more than 50 million U.S. Citizens compare health and 
drug plans each year, is it set up the same way that 
healthcare.gov is that you first have to register before you 
can browse? Or can you browse and then get what you need?
    Ms. Campbell. You can browse first.
    Mr. Latta. Why would those two systems be different then, 
that you would have--any reason that was given to you by CMS or 
HHS that they wanted it reversed, since the one system seemed 
to be working?
    Ms. Campbell. I do not. CMS, I guess, had to, speculation, 
number of priorities, and maybe that wasn't one of the 
priorities.
    Mr. Latta. OK. Mr. Slavitt, if I could ask you a couple of 
questions in your testimony. Again, I found all your testimony 
all very interesting. And it's been talked about a little bit 
before, but in your testimony you stated on page 4 that appears 
one of the reasons for the high concurrent volume at the 
registration was a late decision requiring consumers to 
register for an account before they could browse for the 
insurance products. Again, whose decision was that?
    Mr. Slavitt. We don't know.
    Mr. Latta. You don't know whose decision that was? How did 
you get the information you were supposed to do that?
    Mr. Slavitt. I'm sorry. Can you repeat that?
    Mr. Latta. How did you get the information that you were 
supposed to switch things around like that then?
    Mr. Slavitt. One of the testers in our company that was 
responsible for testing the CGI software code was notified that 
there was code they no longer needed to test.
    Mr. Latta. Well, if we could also by 9 o'clock tomorrow 
morning get the name of the individual at CMS who asked for 
that, we would appreciate that.
    Going on in your, following up a little bit on your 
testimony, on page 4, again, it goes back, it says, in our role 
as tester we were tasked with identifying errors in the code 
that was provided to us by others. We reported the results back 
to CMS, and the relevant contractor who was internally 
responsible for fixing the coding errors or making any 
necessary changes.
    Do you know who that was back at CMS that you were supposed 
to report back to?
    Mr. Slavitt. I don't.
    Mr. Latta. If we could get that by 9:00 o'clock tomorrow 
morning.
    Do you know who that relevant contractor was that you were 
also supposed to be getting that information to?
    Mr. Slavitt. CGI.
    Mr. Latta. I beg your pardon?
    Mr. Slavitt. CGI.
    Mr. Latta. All right. And when you submitted, when you 
submitted those, that information back to CGI, did you hear 
back from them or what was--what happened with that information 
you sent them?
    Mr. Slavitt. I don't know what happened in every case, but 
what typically happens is we submit the results back and then 
the other contractors responsible for making those changes.
    Mr. Latta. Thank you very much, Mr. Chairman. I see my time 
has expired. Thank you. I yield back.
    Mr. Waxman. Parliamentary inquiry, Mr. Chairman.
    Mr. Upton. Yes. You're asking for a second round already?
    Mr. Waxman. Congressman Rush and I have sent around 40 
letters to you requesting a hearing on climate change and we 
haven't gotten any responses. We would like to have a response 
by 9 a.m. tomorrow morning. Suddenly people have made up the 
idea that 9 a.m. tomorrow morning is some kind of deadline. 
That's--you can say it, it doesn't mean it happens. Thank you. 
I'll withdraw my parliamentary inquiry.
    Mr. Upton. The Chair recognizes the gentleman from 
California, Mr. McNerney.
    Mr. McNerney. Mr. Chairman I'd like to ask if I can 
postpone my questioning for another witness.
    Mr. Upton. Sure. Mr. Lance.
    Mr. Lance. Thank you very much. And to the panel, the 
September 10th hearing in the subcommittee, the Health 
Subcommittee, where you testified, Ms. Campbell, and your 
company testified, Mr. Slavitt. If you had the opportunity now, 
would you, in any way, amend the testimony you gave at that 
time?
    Ms. Campbell. No. My testimony was fine. I would not change 
anything based on what I knew at that point in time.
    Mr. Lance. Did you know at that time that there was no end-
to-end testing?
    Ms. Campbell. I knew that that was something that was 
forthcoming.
    Mr. Lance. So you knew at that time that there was no end-
to-end testing as of that date?
    Ms. Campbell. It was not our area of responsibility for 
end-to-end testing.
    Mr. Lance. You believe you had a responsibility to tell the 
subcommittee that at that time, there was no end-to-end 
testing?
    Ms. Campbell. I don't believe that question came up, sir.
    Mr. Lance. I suspect that's the case. The question did not 
come up. This is not a game of cat and mouse. This is the 
people of the United States, one of the most important 
proposals of the Obama administration. I'm sure that question 
did not come up.
    In your other activities with other entities, you have 
testified that there was always end-to-end testing.
    Is that accurate, Ms. Campbell?
    Ms. Campbell. That end-to-end testing is a component of, 
before systems go live.
    Mr. Lance. And you do not believe that you had a 
responsibility to indicate that end-to-end testing had not yet 
occurred with 20 days to go?
    Ms. Campbell. It was our client's responsibility for end-
to-end testing, sir.
    Mr. Lance. Mr. Slavitt, would you respond to me on that 
issue?
    Mr. Slavitt. We wouldn't amend our testimony. We testified 
accurately to the delivery of a data services hub.
    Mr. Lance. Do you believe that you had a responsibility 
affirmatively to indicate that no end-to-end testing had yet to 
occur?
    Mr. Slavitt. Sir, I believe on September 10th we were 
expecting to receive the code that would allow the end-to-end 
testing to occur.
    Mr. Lance. So you are of the opinion that there would be 
end-to-end testing between September 10th and September 30th?
    Mr. Slavitt. That was our expectation.
    Mr. Lance. In your experience with other clients, does end-
to-end testing occur before 20 days to go?
    Mr. Slavitt. Each project is different. I can't comment, 
Congressman.
    Mr. Lance. On another large project in which you were 
involved, is it usual that end-to-end testing occurs long 
before the last 2-1/2 weeks?
    Mr. Slavitt. We would certainly have liked to see as much 
time as possible for end-to-end testing.
    Mr. Lance. Would you suggest that this be delayed for 3 
months or 6 months given the experience so far regarding the 
individual mandate?
    Mr. Slavitt. No, I wouldn't have the information to make 
that determination.
    Mr. Lance. So you don't know?
    Mr. Slavitt. I don't know.
    Mr. Lance. You don't have an opinion. Do you have an 
opinion, Ms. Campbell?
    Ms. Campbell. I can tell you that I have a team of people 
working 24 hours a day to make these corrections that are 
needed to continue moving forward.
    Mr. Lance. I'm sure you do. And I certainly respect that. 
On the risk involved in change orders, this impresses me as 
being serious.
    Mr. Slavitt, regarding that, did you perceive a significant 
chance that there would be a huge problem because of the change 
orders with which you were involved?
    Mr. Slavitt. We didn't receive significant change orders on 
the data services hub that I'm aware of.
    Mr. Lance. Ms. Campbell regarding the change orders, the 
risks associated with that, you received several change orders, 
I believe you testified six or eight of them.
    Did you perceive a significant risk in that regard?
    Ms. Campbell. We did not.
    Mr. Lance. You do not think there would be a significant 
risk?
    Ms. Campbell. No. Over time, these change orders occurred 
over a 2-year time period.
    Mr. Lance. Some have commented that much of the problem 
exists because CMS decided to do its own inhouse analysis 
equivalent to someone who had never hung a picture deciding 
that he would become his own general contractor instead of 
subcontracting the responsibility for integrating the software 
of the multiple contractors.
    Do you agree that CMS should have hired a contractor in 
that regard, Ms. Campbell?
    Ms. Campbell. I've seen it both ways where the government 
has taken that job and quite often, they would bring in a 
separate contractor to do that job.
    Mr. Lance. In many cases, a separate contractor would be 
brought in. Mr. Slavitt.
    Mr. Slavitt. I don't know.
    Mr. Lance. You don't know. In my opinion, I think in the 
history of working with complicated IT systems, it's difficult 
to see that there was a more incompetent systems integrator. Do 
you have an opinion on that, Ms. Campbell?
    Ms. Campbell. I have no opinion on that.
    Mr. Lance. Mr. Slavitt.
    Mr. Slavitt. I don't.
    Mr. Lance. Thank you, Mr. Chairman.
    Mr. Upton. Mr. McNerney.
    Mr. McNerney. I'm sorry, Mr. Chairman, I'm not ready yet.
    Mr. Upton. OK. Mr. Guthrie.
    Mr. Guthrie. Thank you, Mr. Chairman. Thank you for 
testifying today. A lot of people don't realize because they 
didn't get out in the public like I think they should have, 
before the government shut down on September 30th, almost every 
Republican I think all but one voted to fund the government to 
fund the health care bill to sequester level, and only asked to 
get rid of the individual mandate for a year, delay it for a 
year. Because as businesses and other people have been treated 
with waivers and special delays we thought the hardworking 
taxpayers deserved because we didn't think the product was 
going to be ready for them to purchase. And it turned out on 
October 1st, it wasn't.
    So we wouldn't even have the government shutdown if we had 
people agree to give hardworking taxpayers the same treatment 
they gave businesses because the IRS wasn't ready to enforce 
that.
    Having said that, people say there are other alternatives 
and so we have good people in the great Commonwealth of 
Kentucky working for Mr. Lau who will take paper applications 
so there is argument, well, they can buy if they do paper 
application. So how do, you said you take the applications and 
enter the data? Where do you enter the data?
    Mr. Lau. Into the portal.
    Mr. Guthrie. The same portal that is having trouble being 
accessed online?
    Mr. Lau. That's correct.
    Mr. Guthrie. So even if people get frustrated, because I 
was watching my good friend here most of the morning try to get 
online, I think you've been kicked out four times since we've 
been sitting here as of today. You're going to take that 
information into the same data, so maybe you're making it 
easier. Do you have a special portal to get in or do you have 
to deal with the same kind of problems that he's been dealing 
with?
    Mr. Lau. The difference for us is that we don't have to 
establish an account. So our landing page on the portal is 
behind that.
    Mr. Guthrie. But you have to have an account for the people 
that you are entering, right?
    Mr. Lau. Well, in the initial days, you had to sign up, 
that's what we had been talking about before, establishing an 
account before you can do an application. So, for us, we just 
bypass the account establishment and begin keying in the data 
for the application.
    Mr. Guthrie. And that's what I want to get to. I'm glad you 
said that. And so when the President and Secretary Sebelius 
advised Americans to submit paper applications if they're 
having problems with the Web site, they still have to go to the 
same portal.
    Now we've been talking about entrance into the portal, the 
front door I think we've talked about a few times. But also, 
Ms. Campbell, I know to quote The Washington Post, ``About a 
month before the exchange opened, a testing group of insurers 
urged agency officials not to launch.''
    So when you--according to the Washington Post, unquote. So 
you had a test about a month before the exchange opened because 
CGI provides that information, were you involved with the 
testing with insurers?
    Was CGI? Not you particularly, was CGI involved with the 
testing with insurers?
    Ms. Campbell. I understand. So we do test with a set of 
insurers to make sure that obviously before we go live that our 
system is working appropriately.
    Mr. Guthrie. Did they recommend that you weren't ready to 
go live?
    Ms. Campbell. They did not recommend that to CGI--to my 
knowledge, preface that, to my knowledge, the insurers did not 
recommend that directly to CGI.
    Mr. Guthrie. Do you know if they recommended it to HHS?
    Ms. Campbell. I do not know.
    Mr. Guthrie. You don't know if they did that or not?
    Ms. Campbell. I do not know.
    Mr. Guthrie. Did HHS share that information with you that 
they weren't ready to go live?
    Ms. Campbell. Not that I'm aware of.
    Mr. Guthrie. So you're not aware this test took place with 
insurers a month before?
    Ms. Campbell. I'm sorry?
    Mr. Guthrie. CGI is not aware that this test took place 
with insurers a month before?
    Ms. Campbell. I didn't say that. I said, you know, to my 
knowledge, I'm not aware that insurers provided feedback to CGI 
or to CMS or HHS on their----
    Mr. Guthrie. Did you all discover errors during that test 
with insurers, problems with the system?
    Ms. Campbell. You know, the purpose of test, the nature of 
test is there it's there to find----
    Mr. Guthrie. Find the problems and you're able to fix----
    Ms. Campbell [continuing]. The issues that you have so that 
you can have an opportunity to correct those issues.
    Mr. Guthrie. Because there is still reports in the weeks 
before the start--there's still reports in news that insurers 
are saying there's missing data, duplicate applications, 
enrollments, incorrect data on applications and missing data, 
that's still taking place, or at least it was reported last 
week in the news. Is that still taking place?
    Ms. Campbell. When we receive a, what we call a, they call 
it a trouble ticket, or a defect ticket, or an issue ticket, 
then we are in the process of making corrections and then when 
we do the next build, we make corrections to the system. So 
there could be, there could have been a point in time where 
there were duplicative insurance forms and things of that sort 
or duplicative information, and we would have made corrections. 
Now where we are in that process at this very moment, I don't 
have the answer.
    Mr. Guthrie. I guess my point is, we wouldn't have had the 
government shutdown, believe it or not, and I know that didn't 
get out in the news, if we would have done the individual 
mandate delay, we didn't say get rid of the exchanges, get rid 
of what you were doing, not go live the next morning, just not 
mandate people to buy a product they can't buy.
    So my point that I'm trying to make here is there are other 
issues; it's not just not being able to get on the Web site, 
it's making exchanges work. And it's hard to believe that if 
that report is true, HHS didn't tell you that they were having 
trouble between, or that there had been a delay. And you know, 
it's concerning that those tests are taking place and it's been 
reported in the media, but it doesn't seem to have gotten to 
CGI from HHS. So my time is expired I yield back.
    Mr. Upton. The gentleman's time is expired. I would note 
that we have at this for 3 \1/2\ hours. Would the panel, would 
any of you like a 5-minute break? I see some nods. So why don't 
we take a 5-minute break and when we resume, we'll come to you, 
Mr. McNerney.
    [Recess.]
    Mr. Upton. OK, Mr. McNerney, you're recognized for 5 
minutes.
    Mr. McNerney. Well, thank you, Mr. Chairman. I thank the 
witnesses for a long, grueling hearing this morning.
    First of all, I want to say I really don't blame my 
Republican colleagues for trying to change the subject from the 
costly and reckless government shutdown and the irresponsible 
threats to default our Nation's credit by focusing on a 
temporary short-term failing of our healthcare.gov Web site. 
Good job.
    My first question regards software development. I was a 
software developer before coming to Congress. And the 
healthcare.gov is a very big project, it's got a lot of moving 
parts to it. Any large project, including software, needs an 
orchestrator to coordinate all moving parts and make sure that 
things are fitting together well. Who was that or what 
organization was that orchestrator for this project?
    Ms. Campbell, you seem to be in the best position to answer 
that question.
    Ms. Campbell. Yes. That would be CMS.
    Mr. McNerney. CMS.
    Ms. Campbell. Yes.
    Mr. McNerney. OK. Was there a specific person at CMS, or 
was it a team of people at CMS?
    Ms. Campbell. It was a team of individuals.
    Mr. McNerney. Well, did the orchestrator--and this is a 
question for all four of you--create adequate specifications 
for the software, including a language? Now, when you have a 
software project that has moving parts or different parts, you 
want input and output specifications, you want what the 
individual parts are supposed to do. Was there sufficient, 
adequate specifications for your team to do their job in the 
time that was allowed?
    Ms. Campbell. So we were receiving requirements through the 
April, May timeframe and then some requirements----
    Mr. McNerney. Requirements.
    Ms. Campbell. Yes.
    Mr. McNerney. Were they formal specifications that could be 
used?
    Ms. Campbell. They were use cases and things of that sort.
    Mr. McNerney. Mr. Slavitt, would you like to answer that?
    Mr. Slavitt. We believe we received appropriate 
specifications.
    Mr. McNerney. Ms. Spellecy?
    Ms. Spellecy. We received sufficient specifications to 
integrate our part of the solution.
    Mr. McNerney. Mr. Lau?
    Mr. Lau. We had no role in the system development.
    Mr. McNerney. So what you all--I hear unanimously is that 
there were adequate specifications, and yet the software wasn't 
finished in time.
    Did the specifications include testing requirements that 
you received? Ms. Campbell?
    Ms. Campbell. So we did testing on our code, but there was 
also independent testing that was done as well.
    Mr. McNerney. Were they specified? Were they test-specified 
prior to development of the software?
    Ms. Campbell. Not prior to developing the software, but 
there were test scripts that were developed during the process.
    Mr. McNerney. Well, then, maybe there wasn't sufficient 
time. I mean, from my point of view as a distant observer, 
either the specifications weren't adequate, they weren't 
delivered in time, or the software wasn't developed according 
to specification. Which one of those three is the problem?
    Ms. Campbell. I would say with a system this complicated 
and level of moving parts, it's probably a little bit of all 
aspects of all three. There are things in our code that 
obviously we would like to improve on for sure. There are 
specifications that would have been better served if they had 
been more detailed, and if given more time, I think we would 
have been able to across the board, once again, end-to-end 
testing on the part of CMS, integration on the part of CMS. 
But, you know, given the luxury of time, and I think we all 
recognize that one never gets--no matter how great the system 
is, no one ever gets enough time for testing, but----
    Mr. McNerney. Well, software is particularly difficult to 
estimate the time needed. When I was in developing software, if 
you told your manager you would take 2 weeks, he would double 
that and then go to the next bigger timeframe, 2 months. So he 
would have made it a 4-month timeframe if you gave him 2 weeks. 
So time is always of the essence in software, especially since 
it is so error prone.
    So I guess there were political hindrances regarding the 
amount of time that was allowed, and there were structural 
issues. And I do believe that this is going to be fixed, but 
it's been painful, and we need to make sure that the American 
people have access to a decent healthcare Web site before 
December 15th, and if that doesn't happen, it's going to be 
more difficult hearings like this.
    Thank you.
    Ms. Campbell. Thank you, sir.
    Mr. Upton. Mr. Olson.
    Mr. Olson. I thank the chair, and I want to sincerely 
welcome and thank the witnesses, Ms. Campbell, Mr. Slavitt, Ms. 
Spellecy, and Mr. Lau, for appearing before this committee this 
morning and now this afternoon.
    And my guess is you might be a little nervous, somewhat 
tired because this has gone on for almost 4 hours, you probably 
haven't gotten a lot of sleep these past couple of weeks, and 
you're probably a little angry because the Commander in Chief, 
the skipper of Obamacare, our President, doesn't understand 
that the skipper is responsible for everything that happens on 
his ship, the good and the bad.
    As we've seen here this morning, there's a major league 
blame game going on within the administration, and you all, 
unfortunately, are the targets of some of that blame.
    And I am damn angry that I and 700,000 Texans I represent 
have been misled, misled, and misled.
    In this room 1 month ago, the Health and Human Services 
Deputy Administrator for Consumer Information opened up his 
testimony by saying, and I quote, ``CMS has worked hard to 
build, refine and test the infrastructure that will allow 
Americans to enroll in coverage confidently, simply and 
securely,'' end quote. We now know that that was one big, fat 
lie, and I proved it this morning.
    When Chairman Upton gaveled this hearing about 9 o'clock, I 
logged onto healthcare.com to try to enroll my family in my 
healthcare plan. Like you, Mr. Slavitt, and my colleague 
Michael Burgess, I tried to get on Texas' plan, and when I got 
my email back, my confirmation, I got this after 41 minutes: 
Please log in again. You're logged out now. Return to your 
marketplace account here. That's happening all over the 
country.
    And this lie is way beyond an awful computer program. This 
lie affects the health and well-being of every American.
    And my question would be about the testing that was done to 
get to this point, and I want to follow up on some of the 
questions from one of my colleagues, and this is mostly for 
you, Ms. Campbell, and you, Mr. Slavitt.
    Being a computer science major from Rice University and a 
former naval aviator who could not afford to have my computer 
drop offline as I'm rolling my plane to drop a torpedo to stop 
a Russian submarine from launching a ballistic missile, a 
nuclear missile, at our country, I know that that system is 
pushed and pushed and pushed and pushed and tested to fail.
    My goal is did CGI and QSSI take these steps, push, push, 
push and test your part to failure?
    Ms. Campbell. First of all, sir, you must be in my 
household. My husband, too, is a naval aviator.
    Mr. Olson. Fly Navy.
    Ms. Campbell. But we worked tirelessly around the clock to 
make sure that we were doing everything we could to make the 
product that we delivered on October 1. We're not excited, nor 
are we pleased with what we delivered on October 1, but, you 
know, in principle it worked. It is not working great, and 
we're working to improve it, but it is enrolling people.
    Mr. Olson. Mr. Slavitt, how about you, sir, did you push, 
push, push to make sure all the variables best you could do?
    Mr. Slavitt. We do believe the data services hub received 
adequate testing.
    Mr. Olson. Great.
    And so any idea what happened when your department is 
working pretty well, Ms. Campbell, and you, Mr. Slavitt, as 
well? Somehow CMS got it, and the product that came out fell 
apart. Any idea what happened there?
    Ms. Campbell. You'd have to ask CMS.
    Mr. Olson. And I plan on doing that.
    Mr. Slavitt, any idea?
    Mr. Slavitt. As I said a little bit earlier, the system 
didn't receive adequate end-to-end testing, and we took those 
results--those results were made available, and I think made 
aware of those results to CMS.
    Mr. Olson. So you all pushed the envelope, they just hit 
the on button, saw the light came on, and said this thing 
works. OK. A little facetious there.
    I want to close by asking a rhetorical question of all four 
of you all. If you were the President of the United States, and 
you woke up on September 30th of this past year knowing what 
you know, would you have rolled out the exchange on October 
1st? Ms. Campbell?
    Ms. Campbell. I can't begin to answer that question.
    Mr. Olson. Nope.
    Mr. Slavitt. I don't know what flexibility existed to 
change the dates.
    Mr. Olson. Not the date, but the program. Could you have 
stopped it? You know the problems. You guys know the problems. 
Would you have stopped it?
    Mr. Slavitt. I don't know.
    Ms. Spellecy. I can't answer that.
    Mr. Olson. Can't answer that one? It's rhetorical, guys.
    Mr. Lau. I'm not in a position really to answer that.
    Mr. Olson. Oh, come on, fellows. I guarantee if you ask the 
people in the audience, they would have all sorts of opinions 
on that.
    I yield back the balance of my time. Thank you.
    Mr. Upton. The gentleman's time is expired.
    Mr. Gardner.
    Mr. Gardner. Thank you, Mr. Chairman, and thank you to the 
witnesses as well for joining us today and talking about this 
very important issue.
    You know, I take this personally. This is a very serious 
issue for me, thousands of my constituents, millions of 
Americans. The President made a simple promise to all of our 
country. He said two things: If you like your healthcare plan, 
you'll get to keep your healthcare plan, period, and this will 
lower the cost of health care. But do you know what? In August, 
my wife and I we got a letter saying our health insurance plan 
had been canceled. We decided to not join the Federal Employee 
Health Benefits Plan. We got our own private insurance plan, 
because I wanted to be in the same boat as my constituents in 
Colorado.
    And yet despite the President's promise to me, to thousands 
of Coloradans, to millions of Americans, those insurance plans 
are being canceled, and they're being told they have to buy 
insurance through the Web site that doesn't work.
    The denial of this debacle is incredible. It's like trying 
to watch the Three Stooges in HD and expecting it to work. But 
that's exactly what we are seeing here.
    So to follow up on a couple of the questions--and we've 
seen the President on TV trying to apologize to the American 
people for this disaster, and he said the administration 
announced this week that the best and brightest are coming in 
to fix healthcare.gov, but they won't say who they are. So, Ms. 
Campbell, who are these best and brightest that are coming in 
to fix this Web site?
    Ms. Campbell. So first of all, CGI has some of the best and 
brightest, so I just want to make sure that that's on the 
record. We make sure that we hire----
    Mr. Gardner. Ms. Campbell, who are the best and brightest 
that have been invited by the White House to fix this problem?
    Ms. Campbell. I don't have individuals by name.
    Mr. Gardner. What companies are they? Who built the Web 
site? You built the Web site, correct? You built the Web site?
    Ms. Campbell. We built the application.
    Mr. Gardner. So who is coming in to fix the Web site now?
    Ms. Campbell. So advisers, not----
    Mr. Gardner. Who are the advisers?
    Ms. Campbell. I don't have names.
    Mr. Garrett. Where are they from? Who do they work for?
    Ms. Campbell. They have small businesses on their own.
    Mr. Gardner. So this decision was announced early in the 
week, and you don't know who the best and brightest are who are 
coming to fix this mess.
    Ms. Campbell. I don't have them by name, sir.
    Mr. Gardner. Well, who are they by company?
    Ms. Campbell. I will get back to you with names.
    Mr. Gordon. Could you get back to me by tomorrow?
    Ms. Campbell. I will do my best.
    Mr. Gardner. So the President of the United States has said 
that these are the best and the brightest, and you don't know 
what organization? Are they being paid?
    Ms. Campbell. Sir, give me an opportunity to get back to 
you with that information.
    Mr. Gardner. But you don't know whether they are being 
paid.
    Ms. Campbell. If they're there as a support person to CGI, 
they would be paid under our contract.
    Mr. Gardner. Well, if they're there as a support person for 
CGI, I assume you know who they are.
    Ms. Campbell. Sir, I don't have them by name. I just don't 
have----
    Mr. Gardner. QSSI, do you know who these best and brightest 
are that are coming in to fix this mess?
    Mr. Slavitt. No.
    Mr. Gardner. So are you still consulting with CMS on this?
    Mr. Slavitt. I'm just not familiar with this situation.
    Mr. Gardner. Ms. Campbell, with the President, you're still 
consulting, you're still in charge. Are you the systems 
integrator still, or is CMS?
    Ms. Campbell. Sir, we have never been the systems 
integrator, and we are not the systems integrator.
    Mr. Gardner. So who is in charge as systems integrator?
    Ms. Campbell. CMS is responsible for end-to-end.
    Mr. Gardner. OK. So they're responsible for end-to-end, and 
that brings me to another question. To Mr. Scalise you had said 
that CMS asked you to turn off browsing 2 weeks before October 
1st. Does that mean that you originally built a browsable Web 
site?
    Ms. Campbell. That is correct.
    Mr. Gardner. Why can't you just turn that on?
    Ms. Campbell. One, we've not been asked to turn it on. Now 
the system has gone live, it's not--well, we can turn on it 
on----
    Mr. Gardner. So the taxpayers paid for this----
    Ms. Campbell. It would have to be tested and make sure that 
now it's in a live environment----
    Mr. Gardner. Tested just like the other Web site wasn't 
tested?
    Ms. Campbell. I wouldn't say that it wasn't tested, sir.
    Mr. Gardner. No end-to-end testing.
    Ms. Campbell. I didn't say that there was no end-to-end 
testing. I said CGI didn't do end-to-end testing.
    Mr. Gardner. Inadequate end-to-end testing.
    So the taxpayers paid then for a browsable Web site; is 
that correct?
    Ms. Campbell. Yes.
    Mr. Gardner. Why can't you turn that on?
    Ms. Campbell. If given the instructions by CMS, we would be 
more than happy to turn it on.
    Mr. Gardner. Why is CMS--do you know what the cost of that 
was?
    Ms. Campbell. I can't tell you the exact cost of that 
particular component. It's part of the larger system.
    Mr. Gardner. Can you get back to us as soon as possible the 
cost of the browsable Web site that was built that is no longer 
in use or not being used and was asked to be turned off?
    Ms. Campbell. Sir, we were under contract to provide an 
application that happens to be one of the features of that 
application. We did not price it out as one particular 
component by itself.
    Mr. Gardner. Well, it's clear to me the reason why 2 weeks 
before October 1st happened, this browsable Web site was turned 
off to hide the cost, the true cost, that the American people 
are paying, because if it was a browsable Web site that we 
built, the taxpayers paid for, those real costs, the true 
costs, the upfront costs would be visible to the American 
people.
    CMS made a determination, a decision, that they would turn 
off 2 weeks before October 1st the browsable Web site to hide 
the real cost of Obamacare from the American people.
    With that, Mr. Chairman, I yield back my time.
    Mr. Upton. The gentleman yields back.
    Mr. Kinzinger.
    Mr. Kinzinger. Thank you, Mr. Chairman, and again, thank 
you all for being here. It's a long day, I know, but we 
appreciate your being present.
    I want to kind of narrow in on another issue that hasn't 
really been too much discussed, and that's the Web site that's 
sending insurers bad information: multiple enrollments, 
cancelations for the person, and forms containing gibberish 
that are showing up at the insurance side of it.
    This could continue to be a problem even if functionality 
and other areas of the Web site improve. In fact, it could 
become a larger problem because now so few applicants are 
actually getting to the insurers that they're able to be 
reviewed individually. Taking this to scale might cause 
significant problems once people en masse start signing up.
    I'll ask you, Ms. Campbell, most news reporting is focused 
on front-end problems with the Federal exchange. I would like 
to ask a few questions about some troubling reports that I'm 
hearing. We hear there could be even bigger issues at the end 
of the system, at the end processes of the system. Both the 
Washington Post and the Wall Street Journal have reported that 
insurers are receiving error-ridden 834s, and from what I 
understand, an 834 is essentially an electronic transmission 
form that lets insurers know who signed up for their product on 
healthcare.gov. So reports indicate that one insurer got an 834 
with three spouses listed on it.
    Have you identified the specific problem and how widespread 
is it, what's causing it.
    Ms. Campbell. So thank you for that question.
    We have uncovered a number of those scenarios, not 
significant, but a number of those scenarios, and we are in the 
process of making corrections. Most of them are isolated; they 
are not across the board for all insurers. So we are working in 
solving those as they come to our attention.
    Mr. Kinzinger. So you're saying they're not very 
widespread; it's an occasional thing basically?
    Ms. Campbell. It is more isolated than widespread.
    Mr. Kinzinger. And specifically what steps have you taken 
to address that?
    Ms. Campbell. So it's part of our normal defect build 
process. So when that issue comes into the--what they call it, 
the contact center, we get a trouble ticket. We look at--the 
CMS determines the prioritization of that trouble ticket, and 
then we work based on those priorities with CMS, and then we 
change--implement our code changes and then update the system 
through testing and so forth----
    Mr. Kinzinger. So are you taking steps to guarantee--here's 
a concern. Let's say somebody enrolls in December, thinks 
they're enrolled. Maybe the trouble ticket happened or the 834 
or something got messed up, and so on January 1st they wake up 
and find out they actually did not enroll when, in fact, they 
thought they did. Is that a concern you have that may be 
addressed in trying to rectify this problem?
    Ms. Campbell. We're tracking when someone enrolls that 
there is--that actually enrolls, that there is a direct 
correlation to making sure that there is an 834 attached to 
that particular transaction to try and mitigate those things 
from happening.
    Mr. Kinzinger. OK. Some industry analysts are saying that 
healthcare.gov's other problems have disguised the issue. If 
applicants were being able to sign up easily, but the 834 forms 
were coming in with this many errors, the results could 
potentially be disastrous.
    And just to drill down a little bit more, reports indicate 
that dependents are being incorrectly coded as spouses. Have 
you identified that specific problem as part of the overall 
issue?
    Ms. Campbell. That one I've not heard. It doesn't mean it's 
not in our queue, but it's not one that I'm aware of directly.
    Mr. Kinzinger. And would you be able to--I know you have a 
lot on your plate. I would ask if you could provide to the 
committee by 9 a.m. Tomorrow the categories of problems with 
the 834s because that's something that we're very interested 
in.
    Ms. Campbell. If I'm able to provide that information, I 
will do so.
    Mr. Kinzinger. You wouldn't be able to provide that 
eventually, ma'am?
    Ms. Campbell. I said if I'm able to provide that 
information, I will.
    Mr. Upton. I promise you the hearing will be over by then.
    Ms. Campbell. Thank you.
    Mr. Kinzinger. With that, I thank you.
    I have a minute left. I'm going to yield to the gentleman 
from Ohio for a minute, Mr. Johnson.
    Mr. Johnson. I thank the gentleman for yielding, and this 
will give me a chance to sort of set the stage a little bit. I 
hold both a bachelor's and a master's degree in computer 
science, and I've worked for over 30 years in the IT industry, 
and I've implemented large-scale systems like this both within 
the military, within the Department of Defense, some of those 
systems globally. Some of them affected national security. Some 
of them held the success and failure of multibillion-dollar 
companies in the balance. So I speak your language, and I've 
been where you are, sitting trying to figure out what went 
terribly wrong in an implementation that has cost the American 
taxpayers over $400 million, and the cost is continuing to 
rise.
    These are more than glitches. They can't be fixed. I'm 
going to explain why I believe they can't be fixed when I get 
back. It can be replaced at another large cost to the American 
taxpayer, but they can't be fixed. I'll explain that when I get 
back.
    Mr. Chairman, I yield back.
    Mr. Kinzinger. I yield back.
    Mr. Upton. Mr. Griffith.
    Mr. Griffith. Mr. Chairman, thank you so much.
    Ms. Campbell, can you tell me who made the decision that 
everybody from 27 to 49 when they go into the Web site would 
receive a price based on the 27-year-old's price?
    Ms. Campbell. I don't have that information.
    Mr. Griffith. And likewise the same would be true for the 
person who is from 50 up would receive the 50-year-old price. 
You don't have that information either?
    Ms. Campbell. I do not, sir.
    Mr. Griffith. Was that somebody at CMS?
    Ms. Campbell. I would have to believe so.
    Mr. Griffith. OK. And can you also tell me in regards to 
the changes that were required not to have the browsers so that 
people could browse and find out what was going on, that change 
that came in 2 weeks before so that people couldn't just browse 
and take a look at it, that appears to me just to have been a 
political change. And I know you can't make that statement, but 
let me ask you this: When that request came in from CMS, did 
you tell them that that was going to cause difficulties with 
getting this exchange or getting this Web site launched by 
October 1?
    Ms. Campbell. So, you know, for us it's really a flag in 
our system, and so we just turned the flag on or turned it off 
for that particular component----
    Mr. Griffith. So you didn't think that was going to cause 
any problems with the system?
    Ms. Campbell. That's correct.
    Mr. Griffith. OK. And, Mr. Slavitt, if I read your 
testimony, it says that you reported that you all did some 
testing, and you reported back to CMS and the relevant 
contractor who was responsible for fixing the problems that you 
found. When did you finish that testing?
    Mr. Slavitt. We would do the testing whenever the code was 
made available to us.
    Mr. Griffith. OK. When was the last that you did testing 
and then notified CMS and the relevant contractor that there 
were coding errors or necessary changes that needed to be made?
    Mr. Slavitt. I believe that was all the way up towards the 
very end.
    Mr. Griffith. OK. And do you know who you were working with 
on that?
    Mr. Slavitt. I don't.
    Mr. Griffith. And can you find out for us?
    Mr. Slavitt. We'll get right back to you.
    Mr. Griffith. If you can get that to us, I'd appreciate it.
    And did you alert folks that if these problems weren't 
fixed, there would be problems? Did you alert CMS there would 
be problems with their Web site if they didn't get this fixed?
    Mr. Slavitt. We alerted CMS to the results of the test.
    Mr. Griffith. And, Ms. Campbell, do you know who told you 
all to turn off the browsing option?
    Ms. Campbell. I believe it was Henry Chao and members of 
his team.
    Mr. Griffith. OK. And did they give you any reasons for not 
making that option live, or am I correct--or am I fair, at 
least, to assume that it was a political decision?
    Ms. Campbell. I can't answer whether it was political or 
otherwise.
    Mr. Griffith. So you were not given any reason other than 
that?
    Ms. Campbell. I was not given a reason.
    Mr. Griffith. All right. And--OK. And I appreciate that 
very much.
    Thank you very much. I'm going to yield the remainder of my 
time to my friend and colleague from Ohio, Mr. Johnson.
    Mr. Johnson. I thank the gentleman for yielding. Let me 
continue. Here is why I believe this can't be fixed, it has got 
to be replaced. This, from what I have seen, based on my 
experience, this is indicative of failure somewhere along the 
line to employ the disciplined processes, methodologies, 
standards to deliver a system of this complexity. In layman's 
terms, so the American people can understand how complicated 
this is, this might help a little bit. You know, you can't 
recook eggs. You go into a restaurant and you order two eggs 
over medium and the server brings you out two eggs scrambled, 
you got two choices. You either eat the eggs that you got, 
which means you don't get what you ordered, or you send them 
back and the restaurant owner eats the cost of replacing those 
eggs. Somebody loses.
    In this case, it's the American people that are losing 
because what we have here is either the development team, of 
which you folks are a part, did not follow a disciplined 
methodology, and therefore you didn't see the red flags that 
were coming up, which calls into question your capabilities and 
qualifications, or you didn't notify anybody in CMS, as Ms. 
Campbell has stated, when you saw the red flags coming up, 
which calls into question your judgment.
    The only other possibility is that CMS ignored your 
recommendations and moved forward with implementing a flawed 
system. Folks, the eyes of the Nation are watching and 
listening to what's being said here today. Some of you are 
publicly traded companies. I suspect every government agency 
and every commercial company that you would do business with is 
watching what you say. I suspect your shareholders and stock 
analysts are also watching it, what you say, because they're 
going to try to determine: is it your capabilities and 
qualifications that are at fault? Is it your judgment that's at 
fault? Or did CMS ignore your recommendations? And that's what 
we've got to get to the bottom of. And with that, I will yield 
back my time. My friend yielded, and hopefully I am coming 
back.
    Mr. Upton. The gentleman is next in the queue. So you have 
got another 5 minutes.
    Mr. Johnson. All right. Well, thank you. Mr. Slavitt, you 
stated in your testimony that, and if I read this correctly, 
your performance is based on trusted data sources. Correct? For 
the hub?
    Mr. Slavitt. The data services hub, correct.
    Mr. Johnson. Is based on trusted data sources. You assume 
that that data is trustworthy, correct? Well, Ms. Campbell, in 
her testimony, stated that, and if I go back to it, let me get 
back to it here, that as performance----
    Mr. Waxman. The gentleman didn't let him answer.
    Mr. Johnson. I didn't ask a question yet. This is my time. 
I have haven't asked a question. But when I do, I will let you 
know.
    Mr. Waxman. I heard it.
    Mr. Johnson. When Ms. Campbell testified that when 
performance issues like slow response times and data assurance 
issues arose, they would be addressed through fine-tuning and 
optimization. So were you aware that data assurance issues were 
present? Did anybody tell you about that? Did CGI tell you 
there were problems with data assurance issues?
    Mr. Slavitt. I am not sure what was intended by that 
statement.
    Mr. Johnson. So CGI did not tell you that there were data 
assurance issues?
    Mr. Slavitt. If there are issues made aware to our team, 
our team addresses them discretely and promptly.
    Mr. Johnson. OK. Ms. Campbell, did you tell the independent 
tester that there were data assurance issues that you were 
aware of?
    Ms. Campbell. To make sure we have it in context, when 
testing occurs, right, which QSSI----
    Mr. Johnson. I know how testing occurs. It's a very simple 
question. Did your company tell them that there were data 
assurance.
    Ms. Campbell. I think you are taking it out of context. Now 
that the system has gone live, just as one of the gentleman 
commented on some of the errors that we are seeing on the 834s, 
we are now making those corrections.
    Mr. Johnson. Are you the PM for the contract for your 
company?
    Ms. Campbell. I am not the project manager.
    Mr. Johnson. So you do not interface directly every day 
with CMS, correct? On a daily basis, as the program manager for 
your company?
    Ms. Campbell. That is correct, I am not the program 
manager.
    Mr. Johnson. OK. Your contract required you to deliver, 
your company to deliver, a risk management plan. Have you 
delivered the risk management plan?
    Ms. Campbell. We have.
    Mr. Johnson. Can you provide a copy of it to this 
committee?
    Ms. Campbell. With permission from CMS, yes, we can.
    Mr. Johnson. OK. Well, we will certainly be asking CMS for 
that as well. The contract also required that you recommend 
standards and industry best practices and key performance 
indicators. Now, you have testified earlier that you didn't 
make any recommendations to CMS about the performance of the 
system. That it was totally CMS that made these decisions. But 
yet the contract requires that you recommend standards and key 
performance indicators to make sure that everything works 
right. Did you just decide not to do that or what?
    Ms. Campbell. So once again, for our portion of the system, 
we provided that information.
    Mr. Johnson. That's not what your contract says. Were you 
aware that you were supposed to be performing under the CMS's 
exchange lifecycle management?
    Ms. Campbell. And we do.
    Mr. Johnson. OK. You do. And tell me about the pre-
operational readiness review and what it requires?
    Ms. Campbell. So I would have to give you--I wouldn't want 
to go into detail here.
    Mr. Johnson. OK. Well, let me go into detail for you. Here 
are some of the things that the pre-operational readiness 
review requires. Integration testing results. End-to-end 
testing results. Now, you have testified that CMS was 
responsible for end-to-end, but clearly, your contract requires 
you to provide to them end-to-end and integration testing 
results. Test summary reports. An LOE estimate to achieve the 
operational readiness review. In other words, an estimate of 
what it was going to take to fix those things that were found 
at the pre-operational readiness review. Do you know when the 
pre-operational readiness review was supposed to be conducted?
    Ms. Campbell. So to be clear----
    Mr. Johnson. No, when was the pre-operational readiness 
review supposed to be conducted?
    Ms. Campbell. As part of our system and----
    Mr. Johnson. When was the pre-operational readiness review 
supposed to be conducted? It's in your contract. Let me help 
you. It was Q4 of 2012. The operational readiness review, which 
also included a letter of estimate to support operations and 
maintenance, was supposed to be conducted in Q1 of 2013. Mr. 
Slavitt, did you participate in any of these reviews, the 
operational readiness review or the pre-operational readiness 
review?
    Mr. Slavitt. Are you asking if I personally? No, I did not.
    Mr. Johnson. You did not. Did your company?
    Mr. Slavitt. Our company participated in all the necessary 
reviews we committed to.
    Mr. Johnson. You said earlier that you were an independent 
tester. How can you be an independent tester when you are an 
integral developer of part of the system? How does that qualify 
you as independent?
    Mr. Slavitt. We independently test code developed by other 
contractors.
    Mr. Johnson. OK. But other contractors that are interfacing 
with you?
    Mr. Slavitt. Other contractors on the project.
    Mr. Johnson. Were either of those----
    Mr. Waxman. Regular order, Mr. Chairman.
    Mr. Upton. The gentleman's time has expired.
    Mr. Johnson. Thank you, Mr. Chairman.
    Mr. Upton. The gentleman from West Virginia, Mr. McKinley.
    Mr. McKinley. Thank you, Mr. Chairman. Several questions 
here if I could, maybe, the two of you, Ms. Campbell, Mr. 
Slavitt.
    Can you explain to me first, Ms. Campbell, you said that--
in your testimony some 3-\1/2\ hours ago, that the system works 
but not at an acceptable pace. Is the pace specified in the 
contract?
    Ms. Campbell. It is not specified in the contract.
    Mr. McKinley. So do you feel that you fulfilled your 
contractual obligations by October 1st?
    Ms. Campbell. Absolutely.
    Mr. McKinley. And do you believe that next week Secretary 
Sebelius will concur that you have fulfilled your contractual 
obligations?
    Ms. Campbell. I certainly hope she does.
    Mr. McKinley. Do you think she will?
    Ms. Campbell. I think she will.
    Mr. McKinley. OK. Do you know whether or not--are you 
familiar with, either one of you, IV&V or V&V?
    Ms. Campbell. Independent validation and verification, yes.
    Mr. McKinley. And verification, yes. Do you know whether or 
not that was used in this process? This engineering 
development?
    Ms. Campbell. I do not recall there being an IV&V 
contractor.
    Mr. McKinley. OK. How about with you, Mr. Slavitt?
    Mr. Slavitt. I don't know.
    Mr. McKinley. OK. Do you think it would have been 
justified? In retrospect. That's in retrospect.
    Ms. Campbell. At the start of the program, it probably--it 
could not have hurt.
    Mr. McKinley. OK. Do you have the developmental artifacts 
that would confirm your engineering solution that you developed 
in developing your software?
    Ms. Campbell. Yes, we do.
    Mr. McKinley. Is that--do you know contractually whether or 
not that will be available for an independent agency to review?
    Ms. Campbell. I would have to get--that would have to go 
through CMS contracts organization for approval.
    Mr. McKinley. OK. Go back to the question, how long did you 
have to test the site, or in the specifications did they tell 
you 2 weeks is all--that's all you have to have? I come from 
the construction industry that is very specific about when you 
have to have substantial completion of a project. Was there 
anything like that in this that said you must begin testing 
just 2 weeks before it's launched?
    Ms. Campbell. No. There were none of those specifications 
were in our original contract.
    Mr. McKinley. OK. But I also heard there were change 
orders.
    Ms. Campbell. Correct.
    Mr. McKinley. Was there ever a change that said you shall 
begin testing 2 weeks prior?
    Ms. Campbell. No. And once again, testing was not our 
ultimate responsibility. Testing of our code, make sure I am 
clear, testing of our code, our responsibility. But then it 
went through the CMS process for testing, independent testing 
done by QSSI. Then CMS doing the integrated end-to-end testing.
    Mr. McKinley. If you feel that you achieved your objectives 
by October 1st, can you tell me whether or not there were 
anything about liquidated damages if there are problems 
associated after October 1st that have to be corrected? Are 
there liquidated damages as part of your contract?
    Ms. Campbell. You know, I would have to get back to you on 
that. I don't recall. If it's a standard FAR clause, then it 
could very well be there as a standard FAR clause. I just don't 
know for sure. But being a cost-plus type contract, you know, 
now I am stretching because I don't know for sure.
    Mr. McKinley. I didn't think, and again I have not had a 
chance to complete the review of it, but I thought it was a 
performance-based with plus cost for incidental expenses. I 
didn't read it as being a cost-plus based contract. Are you 
saying it's a cost-plus, not a performance-based contract?
    Ms. Campbell. I believe it's a cost-plus contract. Cost 
plus fee type contract.
    Mr. McKinley. Cost plus fee.
    Ms. Campbell. That's what I believe. But I will get 
confirmation.
    Mr. McKinley. Could you get back at that magic 9 o'clock 
hour tomorrow, if you could? The one thing, just in closing, I 
tell you I am a little surprised by the whole panel. You have 
heard all the disappointment, both sides of the aisle here, 
over this thing not being satisfactory at this point. I haven't 
heard one of you apologize to the American public on behalf of 
your companies for problems that were associated with not 
having this thing ready. Are apologies not in order?
    Ms. Campbell. So in my opening statement I said that CGI, 
as well as myself, acknowledge, we acknowledge----
    Mr. McKinley. I am sorry. I am sorry that we--we tried, but 
there were changes made, we tried. I have not heard the word, I 
am sorry. I know men have a hard time saying that. But the 
whole panel, I haven't heard anyone say--look, as a contractor, 
when we didn't finish a project on time, we had to go to the 
owner and apologize and explain what happened. We're not ready 
here. And I don't understand why there is not an apology to the 
American public. We're sorry that there were glitches. It was a 
very complicated project, as you said. But I apologize. I 
haven't heard that from any one of the four of you.
    Mr. Upton. The gentleman's time has expired.
    Mr. Waxman. Can we get an apology for shutting down the 
government because people didn't like the health care bill?
    Mr. Upton. The chair will recognize the gentlelady from 
North Carolina, Mrs. Ellmers.
    Mrs. Ellmers. Thank you, Mr. Chairman. And thank you to our 
panel. This has been a long process. And I do appreciate you 
coming and meeting with the entire committee today. And what I 
am learning from this situation is I do believe that you all 
did your best to get this process in order. And I am hearing 
repeatedly and repeatedly that this--the bottom line here is 
CMS is responsible for this failure. And I just, on behalf of 
your companies, you have the opportunity to throw them right 
under the bus as far as I am concerned. And we will get that 
information, I am sure. Ms. Campbell, I need to know, the 
American people need to know how many people are enrolled, how 
many individuals are now enrolled in health care coverage from 
the Web site?
    Ms. Campbell. So I am not able to provide that information.
    Mrs. Ellmers. You are not able or you do not have that 
information?
    Ms. Campbell. I don't have it, I don't have it with me, and 
I would have to have approval from CMS to be able to provide 
that information.
    Mrs. Ellmers. OK. Now to that point, I am going to ask you 
to please submit that by 9 a.m. tomorrow. But I do want to 
point something out. And I understand where you are coming 
from. I know you have a contract. I know CGI has a contract. 
All of you have had a contract with CMS. But you have to 
understand, CMS is a government agency. We oversee CMS. And CMS 
is the American people. So when we are talking about contracts 
here, that's really who we're talking about. We are talking 
about the American people. CMS is not a private company 
somewhere in the United States. They represent the American 
people. And we've got to get to the bottom of these issues. So, 
yes, we do need those numbers by 9 a.m. tomorrow. Mr. Lau, on 
that, how many paper applications have been completed up to 
this time?
    Mr. Lau. Somewhere between 3,000 and 4,000.
    Mrs. Ellmers. Three and 4,000.
    Mr. Lau. Yes.
    Mrs. Ellmers. OK. Now, to that point, now, the President on 
Monday in the Rose Garden gave a speech. And because of the 
glitches--I call them gaffes. They are much bigger than 
glitches, I believe. Glitches are little hiccups, and these are 
much more than hiccups. He referred to the 1-800 number and 
urged the American people to call the call center and to go 
through, you know, the hard copy process, essentially, or the 
paper process. To that point, now, Ms. Campbell, do you know 
that process? What happens if someone calls the 1-800 number? 
Where do they go? Where are they directed? And how does that 
process lay out? And I know you have to be brief because I do 
only have 2 minutes.
    Ms. Campbell. Right. Actually, it's a question that goes to 
Serco.
    Mrs. Ellmers. OK. That's fine. So you, to the best of your 
knowledge, you would not have knowledge of that at this point?
    Ms. Campbell. No, not----
    Mrs. Ellmers. Once it becomes a paper or a hard copy.
    Ms. Campbell. Correct.
    Mrs. Ellmers. Mr. Lau, what is the process?
    Mr. Lau. For paper?
    Mrs. Ellmers. If someone calls the 1-800 number and they--
--
    Mr. Lau. We don't call the operate the call center. Someone 
else.
    Mrs. Ellmers. OK.
    Mr. Lau. The call center people, as I understand it, 
directly key enter the application to the extent people are 
willing to give that over the phone.
    Mrs. Ellmers. Where do they go from there? Are they going 
to the same portal system?
    Mr. Lau. Correct.
    Mrs. Ellmers. So they are going to the same portal system, 
the same failed portal system.
    Mr. Lau. It's the same portal system, yes.
    Mrs. Ellmers. It is. So what would be the average time 
then? And now I know you had mentioned about 3,000 applications 
being completed up to this point. So there are individuals, my 
understanding would be, that have gone onto that site, and they 
are still waiting to find out if they have been accepted or any 
further information. Is that correct?
    Mr. Lau. To which site?
    Mrs. Ellmers. Well, if someone called and there was a paper 
application processed or started, initiated.
    Mr. Lau. Right. I only know roughly how it works. I am not 
familiar with the data on that. We don't really----
    Mrs. Ellmers. OK.
    Mr. Lau [continuing]. Connect.
    Mrs. Ellmers. But to the best of your knowledge, because 
the portal system, which is the same portal system that this 
entire process goes through, and because it is experiencing the 
failures that it is, those individuals would, to your best 
assumption, would be continued to be waiting.
    Mr. Lau. I am not certain about that, because once they are 
entered into the system, then it's system processes that 
determine the length of time before which they would hear back.
    Mrs. Ellmers. But we can assume that since only 3,000 have 
been processed fully that it's a minimal number when you think 
about the trends.
    Mr. Lau. From the paper side that's exactly right.
    Mrs. Ellmers. Thank you. And Ms. Campbell, I just want to 
touch on one last thing. I know you had said that you had gone 
through the process. Did you actually complete--when you went 
through the process yourself individually, did you complete it?
    Ms. Campbell. I did not. I am not signing up for insurance. 
My company provides insurance.
    Mrs. Ellmers. But when you tested it yourself, I mean, my 
understanding is earlier you had said that you had actually 
tried it through the Virginia system, went to the Web site, and 
that you did or you did not complete it?
    Ms. Campbell. I did not complete the application.
    Mrs. Ellmers. You did not. OK. Thank you. Thank you. And I 
yield back the remainder of my time. Thank you.
    Mr. Upton. The gentleman from Louisiana, Mr. Cassidy, is 
recognized.
    Mr. Cassidy. Good news, I am the last one. A couple things, 
and I will go quickly. I will ask you to speak quickly as well. 
I only have 5 minutes. This has come up, a little bit 
repetitious, but to date, what have each of you been paid and 
what do you anticipate being paid further? It comes to mind, 
Ms. Campbell, you mentioned it is a cost-plus contract. So to 
date and anticipated future payments, what are they, please?
    Ms. Campbell. So to date, $112 million. And for the year, I 
believe $196 million. For this phase of our contract.
    Mr. Cassidy. And then going forward, do you have any 
concept?
    Ms. Campbell. The total TCV, the total contract value, with 
option years and everything exercised, would be $293 million.
    Mr. Cassidy. The $196 million is total and includes the 
112, it is not in addition to the 112?
    Ms. Campbell. It is part of the 112, the 196.
    Mr. Cassidy. It includes the 112?
    Ms. Campbell. Yes.
    Mr. Cassidy. Yes, sir, Mr. Slavitt?
    Mr. Slavitt. To date our services subcontract has been 
funded to about just under $85 million. That includes all the 
hardware and the software.
    Mr. Cassidy. That's OK. And then how much do you anticipate 
going forward?
    Mr. Slavitt. I don't believe that amount has been fully 
paid. I think that's what's been funded. I would point out that 
we have contracts for work we do----
    Mr. Cassidy. I have just got a minute, man, I am sorry. Ms. 
Spellecy.
    Mr. Spellecy. To date we have received less than $2 
million. And what we will be paid in the future depends on the 
transactions that we receive from the hub.
    Mr. Lau. The first year contract, with modifications, is 
$200 million. To date, we have probably received about $30 
million.
    Mr. Cassidy. OK. Next, Ms. Campbell, in your previous 
testimony here today, you said you are not responsible for the 
front door. Here is your testimony from September the 10th. You 
said your scope of activity was architecting and developing an 
FFM. And then later just immediately afterward you side the FFM 
will serve as the front door. I am not quite sure why today 
it's not a front door but on the 10th it was.
    Ms. Campbell. I know. It's a matter of interpretation. When 
we first--we were trying to give a way to explain what our role 
would be. It's really the face of the application. As I said, 
it's the front of the house. But the front door of the house is 
where EIDM would take over.
    Mr. Cassidy. And that's Mr. Slavitt.
    Ms. Campbell. That's correct.
    Mr. Cassidy. OK. Now also in your previous testimony I 
asked you, I asked you, Spanish was going to be part of the 
rollout and implementation. I asked if it's ready. And would it 
be a seamless experience for a primary Spanish speaker. You 
said for the online application, yes. There is reports today 
that the Spanish language Web sites are not up. And it's 
unclear as to when they will come up. Is that because the Web 
sites are not ready or because the administration has chosen 
not to take them online?
    Ms. Campbell. CMS directs which components go live and 
when.
    Mr. Cassidy. So is the Spanish language Web site ready? And 
if it were up, would it be functional?
    Ms. Campbell. It would be.
    Mr. Cassidy. OK. So it's the CMS decision not to begin it?
    Ms. Campbell. That's correct.
    Mr. Cassidy. Mr. Slavitt, I gather you are the front door 
now. Would it be--Mr. Shimkus asked why is someone who is 49 
years old being quoted a rate for someone who is 27? And why is 
someone who is 64 being quoted a rate for someone who is 50? 
Clearly misleading. So incredibly misleading. I am a doctor, so 
I understand the difference in health care costs for the two. 
Would it be technologically difficult to ask users their date 
of birth to generate a more accurate estimate?
    Mr. Slavitt. So I am not sure that I even understand the 
phrase front door in this context. The user questions are not 
part of the EIDM tool.
    Mr. Cassidy. So if you put in the DOB, the date of birth, 
is that technologically difficult to link that date of birth 
with actually what it would cost for a 50-year old gentleman as 
opposed to giving him the rates for a 27-year old person?
    Mr. Slavitt. That aspect of the site is not part of the 
EIDM tool, so I wouldn't know the answer.
    Mr. Cassidy. Is it part of your site, Ms. Campbell?
    Ms. Campbell. It is. It is part of my site.
    Mr. Cassidy. Would it be technologically difficult to 
actually more accurately give what a quote would be?
    Ms. Campbell. It would not be difficult to add date of 
birth.
    Mr. Cassidy. And then to connect that with an actual rate 
as opposed to a disingenuous rate.
    Ms. Campbell. So it would give a better accounting. It 
would not give a complete accounting.
    Mr. Cassidy. But a much better accounting. Big difference 
between 50 years old and 27 years old.
    Ms. Campbell. I totally agree with you.
    Mr. Cassidy. OK. Now, everybody on this panel, at least the 
ones that were here on the 10th, just swore this was all going 
to be ready, and yet now it appears that the administration had 
some idea that it was not going to be ready prior to its 
opening date.
    Let me ask, when the questions, when the problems became 
apparent did the administration impose any pressure in any form 
for you not to be forthcoming regarding the magnitude of the 
problems?
    Ms. Campbell. No.
    Mr. Slavitt. No.
    Mr. Cassidy. So even though you had pointed out to them, 
Mr. Slavitt, this might not be ready for prime time, and you 
just saw this kind of train wreck happening on the 1st, they 
never pushed back on you regarding that.
    Mr. Slavitt. We shared all of the results of the testing 
that we did, so they were fully aware of those tests.
    Mr. Cassidy. I yield back. Thank you.
    Mr. Upton. Thank you. Thank you, panel. I would just, for 
the record, like to note, particularly for CGI and QSSI, the 
committee did send letters to both of your companies on October 
6th asking for information about healthcare.gov's problems. And 
that deadline for the letter response was October 23rd.
    So members I know have asked a number of follow-up 
questions. I understand it may not be at 9 o'clock tomorrow, 
but if you could get that done as quickly as possible, 
particularly in light knowing that we have Secretary Sebelius 
agreeing to testify next week. We would like to have that 
information in hand so that we could be prepared for that. I 
appreciate your testimony, and you are now excused.
    [Whereupon, at 1:32 p.m., the committee was adjourned.]
    [Material submitted for inclusion in the record follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>

</pre></body></html>
